<html>
<title> - WASHINGTON COUNTY GROWTH AND CONSERVATION ACT OF 2006 AND WHITE PINE COUNTY CONSERVATION, RECREATION AND DEVELOPMENT ACT OF 2006</title>
<body><pre>[Senate Hearing 109-792]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-792
 WASHINGTON COUNTY GROWTH AND CONSERVATION ACT OF 2006 AND WHITE PINE 
      COUNTY CONSERVATION, RECREATION AND DEVELOPMENT ACT OF 2006

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3636

  TO ESTABLISH WILDERNESS AREAS, PROMOTE CONSERVATION, IMPROVE PUBLIC 
 LAND, AND PROVIDE FOR HIGH QUALITY ECONOMIC DEVELOPMENT IN WASHINGTON 
                  COUNTY, UTAH, AND FOR OTHER PURPOSES

                                S. 3772

  TO ESTABLISH WILDERNESS AREAS, PROMOTE CONSERVATION, IMPROVE PUBLIC 
 LAND, AND PROVIDE FOR HIGH QUALITY DEVELOPMENT IN WHITE PINE COUNTY, 
                     NEVADA, AND FOR OTHER PURPOSES

                               __________

                           NOVEMBER 16, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 _______


                    U.S. GOVERNMENT PRINTING OFFICE

33-094 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                  Frank J. Macchiarola, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairman
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel
                    Scott Miller, Democratic Counsel


























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     2
Calvert, Chad, Principle Deputy Assistant Secretary, Land and 
  Minerals Management, Department of the Interior................    17
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Eldridge, Brent, Commissioner, White Pine County, NV.............    36
Ensign, Hon. John, U.S. Senator from Nevada......................     8
Gardner, Alan, Member, Washington County, Utah Board of 
  Commissioners..................................................    47
Greenberg, Jerry, Vice President of The Wilderness Society.......    40
Hatch, Hon. Orrin G., U.S. Senator from Utah.....................     5
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    28
Huntsman, Hon. Jon M., Governor, State of Utah...................     6
Metcalf, Peter, President, Black Diamond Equipment, Ltd., Board 
  Member, Outdoor Industry Association, Salt Lake City, UT.......    53
Reid, Hon. Harry, U.S. Senator from Nevada.......................    11

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    65

                              Appendix II

Additional material submitted for the record.....................    73

























 
 WASHINGTON COUNTY GROWTH AND CONSERVATION ACT OF 2006 AND WHITE PINE 
      COUNTY CONSERVATION, RECREATION AND DEVELOPMENT ACT OF 2006

                              ----------                              


                      THURSDAY, NOVEMBER 16, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                  Committee on Energy and Natural Resource,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

  OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM 
                             IDAHO

    Senator Craig. Good afternoon, everyone. The Committee on 
Energy and Natural Resources, Subcommittee on Public Lands and 
Forests will be convened.
    This afternoon we will consider two large and complex 
pieces of legislation: S. 3636, Washington County Growth and 
Conservation Act in Utah and S. 3772, White Pine County 
Conservation Recreation and Development Act in Nevada.
    I want to welcome our colleagues from Utah and Nevada. I 
see Senator Bennett and Senator Ensign are here and I 
understand that Senator Reid is en route and I believe Senator 
Hatch also plans to be here. They are all co-sponsors of the 
legislation we are considering today. I also want to extend a 
welcome to all of our witnesses that we are scheduled to hear 
from today.
    I will forego an opening statement on today's legislation 
so we can allow ample time for our witnesses. But before I get 
started, I would like to remind everyone that both written and 
oral statements will be included in the record of this hearing 
and we will take additional testimony or supplemental testimony 
for up to 10 days after the hearing.
    I am certain all of you had other commitments today and we 
have three votes scheduled for the floor at some time in the 
immediate future, so I will leave it at that because we're not 
quite sure but we will break during that time. We'll try to. I 
hope others of my colleagues will attend so we can jog and 
continue to take the testimony instead of recessing the 
committee. But regardless, we will hear from all our scheduled 
witnesses who have traveled here today.
    With that, let me turn to my two colleagues that are before 
us. Senator Bennett, I'll turn to you first and welcome you 
before the committee.

  STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I have 
a prepared statement, which I would appreciate appearing in the 
record.
    Senator Craig. Without objection.
    Senator Bennett. I also have a prepared statement on behalf 
of Governor Huntsman in support of the legislation which I 
would ask to be included in the record.
    Senator Craig. Without objection.
    Senator Bennett. Senator Hatch is unable to come and asked 
me to insert his as well.
    Senator Craig. Certainly, without objection, all three will 
be put in the record.
    Senator Bennett. Thank you, Mr. Chairman. Now, just very 
briefly to summarize where we are on this one. It's been a 
subject of great public debate. It's a process that has been 
going on for well over 2 years. We've invited all stakeholders 
to participate. Some have chosen not to and then have 
complained that they have somehow been frozen out. But I want 
to put this in perspective first.
    I'm grateful to be here with Senator Ensign and Senator 
Reid, who has just come in. Because of their pioneering work in 
dealing with wilderness issues in Nevada, they were able to 
produce a bill which passed the Congress, the previous 
Congress, unanimously and set the precedent for how wilderness 
debates should be dealt with, in my view. I remember the last 
statewide wilderness bill that was passed when I was a member 
of this committee. The blood on the floor was ankle deep. It 
was as difficult a legislative process as possible and it 
became clear that there was never going to be another statewide 
wilderness bill, given the contention that arises when you try 
to solve everything at once. And I salute Senator Reid and 
Senator Ensign for their leadership in deciding we will try to 
solve these problems on a county-by-county basis and the work 
they did in the last Congress with the two bills that passed 
the Congress unanimously gave us hope that we might be able to 
do the same thing in Utah. Therefore, we have patterned our 
bill along the Nevada precedent. We have followed the procedure 
that was followed in Nevada. We have taken the same parameters 
that were established in those bills and we have done our very, 
very best to stay within that historic precedent.
    I believe still, that if there is going to be resolution of 
the wilderness issues, it's going to be along the pattern 
established by Senator Ensign and Senator Reid, in their 
pioneering work in the previous Congress.
    This bill has been mischaracterized rather substantially in 
the press because as was the case in Nevada, there will be some 
public lands that will be put up for sale and the 
characterization has been that we have been in the hands of the 
developers who produced this bill, myself in the Senate with 
Senator Hatch's co-sponsorship and Congressman Matheson in the 
House. That makes it a bipartisan issue because Congressman 
Matheson is the State's Democratic representative. The people 
say, why did you work with Congressman Matheson and I said 
because this is in his district and I don't want it to be a 
partisan issue. Washington County is a part of his district and 
so I have sat down with him and his staff and my staff have 
literally walked over every inch of the lands that we're 
talking about here.
    We did not sit down with developers to say, what land do 
you want to buy and therefore, we'll carve it out and make it 
available to you as we have been accused of doing. On the 
contrary, we sat down with land managers and said, what land 
would make sense for you to divest yourself of? Because it is 
impossible to manage in the way that someone is asking you to 
manage--there are management facts on the ground that get 
ignored in Washington and the land managers themselves have 
identified the acreage that they felt would make it more 
efficient for them to manage these lands as wilderness. If they 
didn't have to manage certain parcels and those are the parcels 
that we anticipate being used for the sale.
    So with that, Mr. Chairman, I appreciate your holding this 
hearing. I appreciate your giving us this opportunity and I 
commend the formal statements that I have submitted for the 
record to you, for your consideration.
    [The prepared statements of Senators Bennett and Hatch and 
Governor Huntsman follow:]
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator from Utah
    Mr. Chairman and Senator Wyden, thank you for holding a hearing 
today on S. 3636, the Washington County Growth and Conservation Act of 
2006. As the sponsor of this legislation, I am grateful that you 
included this important bill on your busy hearing calendar as the 109th 
Congress winds down.
    S. 3636, and its companion in the House of Representatives, H.R. 
5769, have the bipartisan support of Utah's entire congressional 
delegation. This legislation contains carefully crafted compromises 
that build on the success of the Nevada public land bills authored by 
Senators Reid and Ensign and passed unanimously by Congress. The Nevada 
bills have been enormously beneficial for their state and serve as a 
blueprint to address land and growth issues in Utah. These bills show 
that you can strike a successful balance between conservation measures 
and economic development initiatives, while protecting both the public 
lands and the communities that depend on them.
    In Utah, federal agencies manage two of every three acres. For many 
communities, public land and its management affect nearly every aspect 
of life, from education and employment to social services and 
recreation. Many water developments, electrical transmission lines, and 
highways are located upon or must cross the public domain to provide 
residents with essential services. Without the involvement of the 
federal government, these land-locked communities cannot adequately 
plan for growth or meet the needs of citizens and visitors for 
infrastructure, transportation, housing, and clean water. Therefore, 
the federal government must play a significant and active role in 
securing the future and continued viability of these areas. And that is 
why this legislation is so critical.
    Washington County, Utah--home to spectacular Zion National Park--is 
the fifth fastest-growing county in the United States. St. George--the 
county seat--is the nation's fastest-growing metropolitan area over the 
last five years. The effects of this virtually unchecked growth have 
caused local and state leaders to come together and take a proactive 
approach to plan for the future. With just over 16 percent of the 
county in private ownership, however, the future of the communities and 
the public lands that surround them are inextricably linked. This 
legislation provides a balanced framework for managing the growth, 
while also providing for the permanent protection of some of the most 
magnificent and sensitive landscapes in the West.
    The Washington County Growth and Conservation Act of 2006 is the 
result of more than two years of work by a diverse group of 
stakeholders tasked with responsibly addressing Washington County's 
growth challenges. As part of this effort, former Utah Governor Olene 
Walker and the Washington County Commission initiated the Washington 
County Land Use Planning Process and Working Group in June 2004. The 
working group was composed of 20 people representing diverse and broad 
interests--including the conservation community--and was charged with 
developing this legislation and a quality growth plan for the county. 
Over several months, the working group held a series of meetings and 
tours throughout the county. The participants discussed issues ranging 
from local transportation needs to federal land management and 
endangered species.
    When the meetings concluded, Congressman Jim Matheson and I 
received recommendations from the group regarding the management of 
public lands within the county. We incorporated those recommendations 
into the draft proposal, and released it earlier this year for public 
comment. At our request, Washington County also held two well-attended 
open houses where interested people could examine maps and inquire 
about the proposal.
    Based on the public input we received in our offices, including 
several meetings with environmental groups, we made significant changes 
to the proposal and introduced this legislation in July. Although we 
have tried to accommodate many viewpoints, it is impossible to satisfy 
everyone in this process. We have seen that if individuals and groups 
from all sides are willing to abandon the ``all-or-nothing'' approach 
and sit at the table in good faith, progress can be made. The result is 
a balanced and more comprehensive bill. This legislation represents 
significant progress in the long-standing disputes over public land 
management in Utah, and I am proud to sponsor it.
    As an outgrowth of this legislation, Washington County has 
partnered with other organizations to create Vision Dixie, a quality 
growth planning process, to further engage the public on current and 
future county growth issues. I commend them for continuing this 
discussion and encourage the public to participate in this effort.
    I look forward to working with my Senate colleagues this year to 
enact responsible, bipartisan legislation to address these long-
standing issues in Utah.
    Because of this bill's comprehensive nature, I will provide a 
summary of the significant provisions of this legislation.
                                summary
Title I--Land Disposals
    S. 3636 directs the secretary of the interior to sell up to 24,300 
acres in a two-tiered process. Federal land managers based in 
Washington County have already identified 4,300 acres of land for 
disposal, which will be sold after receiving the appropriate federal 
clearances. These acres will make up the first tier of land disposal. 
The first sale will occur within one year after the passage of the 
bill, with at least annual sales thereafter until the final prior to 
January 1, 2013. The second tier of land disposal includes up to 20,000 
acres which may be sold only after being identified by federal land 
managers in cooperation with Washington County through Vision Dixie. 
These lands must be selected from within areas identified on the map, 
excluding wilderness areas, the tortoise preserve, and other areas of 
critical environmental concern. This gives maximum flexibility to the 
local quality growth planning group to select the lands to be sold. The 
secretary of the interior will be authorized to include, where 
appropriate, restrictive covenants on the deeds of transfer to protect 
paleontological, archaeological, or other interests of the United 
States. These sales will not begin until 2011, allowing the quality 
growth process sufficient time to identify appropriate lands.
    The proceeds from the land disposal will fund conservation projects 
and federal and non-federal initiatives within Washington County. 
Projects include, but are not limited to, protection and management of 
the Red Cliffs National Conservation Area; processing of wilderness 
designations; projects relating to parks, trails, and natural areas; 
and trail repair and reconstruction within the Dixie National Forest.
Title II--Wilderness
    S. 3636 designates the addition of 219,725 acres of land to the 
National Wilderness Preservation System. At the recommendation of the 
National Park Service, 123,743 acres within Zion National Park will 
receive wilderness designation. Wilderness designations also include 
93,340 acres of Bureau of Land Management (BLM) land and 2,642 acres of 
Forest Service land. This will increase the percentage of wilderness 
acreage in the county from 3.4 percent to 17.5 percent.
    Washington County has stunning natural areas and I support the 
wilderness compromise in this measure. The bill protects nearly 93 
percent of existing BLM wilderness study areas and includes no hard-
release language. Also the bill designates additional acreage not 
identified by the BLM but selected by the stakeholders within the 
working group. More importantly, this bill ends the gridlock over BLM 
wilderness designations in the state of Utah, and removes uncertainty 
from these areas.
Title III--Wild and Scenic River Designation
    This legislation designates 165.5 miles of the Virgin River and its 
tributaries as Wild and Scenic Rivers, following National Park 
Service's recommendation. This is the first Wild and Scenic River 
designation anywhere in Utah.
Title IV--Utility Corridors and Rights-of-Way
    S. 3636 designates utility corridors in Washington County to meet 
the needs of the growing population. Subject to compliance with the 
National Environmental Policy Act (NEPA), these utility corridors may 
be used for transportation, water lines, or other such necessary 
transmission and utility distribution. The bill addresses the need for 
a transportation corridor around the south and west of St. George, 
diverting traffic from the center of the city by incorporating the 
Habitat Conservation Advisory Committee's unanimous recommendation for 
identifying the Northern Corridor Bypass. This unanimous recommendation 
requires the secretary of the interior to study different routes and 
then designate the appropriate corridor. This process will allow 
science and public input to dictate where the corridor should be 
located. The bill also identifies a pipeline corridor to address the 
county's future water needs.
Title V--High Desert Off Highway Vehicle Trail
    S. 3636 authorizes the secretary of the interior to designate a 
system of existing motorized trails for off highway vehicle (OHV) use. 
The bill gives the secretary two years from the passage of the bill to 
complete a travel plan identifying the appropriate existing routes to 
include in the trail system, making sure to allow for public 
participation in the final decision. The legislation does not authorize 
the creation of any new trails for incorporation in the trail system. 
By identifying this trail in an environmentally-sensitive way, we 
create an opportunity for managed and responsible OHV use on the 
heavily-used west side of the county.
Title VI--Red Cliffs National Conservation Area
    S. 3636 creates the Red Cliffs National Conservation Area, giving 
permanent protection to the endangered desert tortoise. The current 
habitat management plan will expire in 2016.
                               conclusion
    The Washington County Growth and Conservation Act of 2006 is the 
only viable solution to the county's current challenges. It's based on 
Nevada precedent, which passed the Congress unanimously and has worked 
extremely well to meet their growth needs. We brought stakeholders 
together, solicited public comment on the proposal, made revisions 
based on these comments, and now we bring it to the Congress for its 
consideration. I ask for your support on this bill--it will responsibly 
manage growth while putting conservation measures in place that will 
protect our natural treasures for future generations.
    Thank you, Mr. Chairman and Senator Wyden, for holding this hearing 
today. I look forward to working with you and your staff to address any 
concerns you might have.
                                 ______
                                 
   Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator from Utah
    Mr. Chairman, let me first thank you and the members of the 
committee for holding this hearing today.
    I am pleased that Washington County Commissioner Alan Gardner will 
be giving his testimony this afternoon. Alan is one of Utah's most 
seasoned and wise public officials, especially as it relates to 
difficult public land issues.
    I hope the members of this committee consider carefully his 
comments and keep in mind that unlike land managers and biologists, 
Alan, as county commissioner, must balance all of the various interests 
in Washington County. He has more of a stake in maintaining his 
county's beauty and natural resources than anyone else I know. Yet he 
also must plan for the water, transportation, and recreation needs for 
one of our nation's driest regions and fastest growing populations.
    It is my opinion that Alan Gardner and his companion commissioners, 
Jim Eardley and Denny Drake, are best positioned to find that difficult 
balance among competing interests, because no other decision maker is 
forced to consider all of the interests at stake in planning for the 
future.
    It is the central role these commissioners played in crafting this 
proposal which compels me to support enthusiastically the Washington 
County Growth and Conservation Act. I congratulate Senator Bennett for 
what I consider to be an outstanding job of putting this complicated 
proposal into a sound legislative package, and I am a proud cosponsor.
    Mr. Chairman, let's consider Washington County for a moment. It is 
easily one of the most spectacular settings in the nation. It is host 
to Zion National Park, the Dixie National Forest, the Pine Valley 
Wilderness, Sand Hollow Reservoir, Snow Canyon State Park, beautiful 
sand dunes, plenty of red rock cliffs, an important critical habitat 
reserve for the desert tortoise, and many other valuable natural 
resources.
    For the most part, these resources sit on public lands. Only 16.1 
percent of Washington county is private land, which must be shared by 
the people of the county for their homes and businesses. Consider that 
Washington County's population has doubled every decade since 1970, and 
that during this period the share of private land has not changed 
significantly. Clearly the county has some tough decisions to make, and 
this legislation will go a long way to allowing the county to manage 
its growth wisely.
    Washington County is the driest county in the second driest state 
in the union. This legislation would go a long way to helping to meet 
these critical water needs. The county has a superb record of managing 
its water resources in a way that not only is very efficient, but also 
environmentally friendly, and that would continue with this bill.
    The legislation also addresses the county's growing transportation 
needs by laying out important new transportation corridors that would 
best manage traffic concerns into the future.
    Finally, the bill addresses the future recreational and 
conservation needs of Washington County. The Washington County Growth 
and Conservation Act strikes a careful balance between the need for new 
motorized recreational routes and the establishment of new wilderness 
areas.
    I think what you'll find, Mr. Chairman, is that this bill is about 
finding balance in a very complicated scenario. You'll find that 
opponents of this legislation tend to focus on one particular interest 
and feel free to ignore competing needs in Washington County. They are 
not required to compromise, which is why they are not empowered by the 
population to make these tough decisions.
    Their voices should be heard, though, and I can tell you, Mr. 
Chairman, that I have rarely seen a more public and inclusive policy 
making process than the one that produced the Washington County Growth 
and Conservation Act. Every conceivable interest was represented with a 
seat at the table and included in all of the discussions, which, by the 
way, were open to the general public. These public meetings were 
numerous, in-depth, informative, and non scripted. There are some who 
are unhappy with the outcome, but that is often inevitable with 
difficult issues. All in all, Mr. Chairman, I believe this legislation 
is fair and balanced.
    Again, I thank you for holding this hearing and urge the 
committee's expedited handling of the Washington County Growth and 
Conservation Act.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Jon M. Huntsman, Jr., Governor, State of 
                                  Utah
    Mr. Chairman and members of the committee, I am pleased to submit 
for the record my written testimony in support of S. 3636, the 
Washington County Growth and Conservation Act. This legislation is not 
only important to the citizens of Washington County, Utah, but it is 
important to the entire State of Utah and other Western states. The 
precedent this bill sets for grass-roots collaboration and 
comprehensive planning is an example to all Western rural counties who 
struggle to find a balance between the preservation of special places 
on our vast public lands and the protection of the economic base that 
allows these communities to thrive.
    The Office of the Governor was an original sponsor of the 
Washington County Land-Use Planning Project which led to this 
legislation, and has been supportive of their process from the 
beginning. S. 3636 is the product of a long and intensive effort by a 
broad-based group of people. The end result of this collaboration is 
important both because of the balance it strikes between preservation 
and growth, and also because it takes significant steps to end the 
long-standing stalemate over public lands in the State of Utah.
    Washington County, Utah is experiencing tremendous growth. In 
August of this year, the U.S. Census listed this county as the fastest 
growing county in the United States. In the next ten years, it is 
estimated that the county will almost double in size--from 140,000 
people to nearly 250,000. This presents an extraordinary challenge to 
local leaders, who must find a way to manage and direct this growth.
    Washington County is an extraordinarily beautiful area made up of 
just over 1.5 million acres. About 84% of that land is in some form of 
Federal or State ownership. Nearly one-third of the county is currently 
under some form of special, restrictive management. This legislation 
would increase the amount of lands subject to restriction. It is 
estimated that of the 16% of land in the county that is privately held, 
less than half of that private land qualifies for acceptable 
development. As a result, local leaders are faced with a tremendous 
challenge: huge areas of public lands, some absolutely spectacular, and 
very little private land available to accommodate the thousands of 
people who are coming, and are yet to come, to this area of the State. 
It is a formidable task to try to balance the preservation of special 
places while at the same time endeavor to assure that growth will be 
accommodated in a visionary manner to provide and maintain the high 
quality of life which is unique to the area.
    Clearly, one of the foremost objectives of this legislation is to 
get a handle on growth. Communities in Washington County need the tools 
to direct growth proactively. To this end, and as a natural extension 
of their land--use planning process, County leaders have initiated what 
they refer to as ``Vision Dixie.'' Vision Dixie is a comprehensive 
growth planning effort modeled after the Envision Utah process used in 
some of the major communities on the Wasatch Front to great success. It 
has also been used very successfully in other areas of the country. I 
am especially pleased to see this effort going forth in Southern Utah 
because I served as Chairman of Envision Utah, and I value the work 
they do in helping develop communities to achieve an equilibrium among 
growth, economic development, open space, and preservation of special 
areas. This is the aim of the Washington County effort, and the purpose 
of S. 3636.
    To implement this planning project, Washington County has entered 
into an inter-local agreement with Envision Utah, the Oquirrh 
Institute, the Nature Conservancy, and each community in the County to 
create a county-wide growth footprint. This footprint is intended to 
give the communities a vision for growth, provide standards to define 
how that growth must occur, and provides the ordinances by which those 
standards are accomplished. This process for creating the footprint 
will be very inclusive, and will involve a great deal of public input. 
Quite simply, it provides an opportunity for all the citizens of 
Washington County to design their own future.
    The Vision Dixie process and this legislation are inseparably 
connected. The legislation makes it possible to achieve the aims of the 
growth planning effort, and the Vision Dixie Process directs how the 
elements of the legislation will be applied. One cannot work to its 
fullest effect without the other, and because of the importance of this 
overall effort to the future of Washington County, it is extremely 
important for S. 3636 to pass.
    There are some very important preservation elements in S. 3636. It 
establishes more than 219,000 acres of permanent wilderness, including 
93,780 acres of BLM wilderness, another 2642 acres of Forest Service 
wilderness, and 123,340 acres of wilderness inside Zion National Park. 
It creates the Red Cliffs National Conservation Area for the permanent 
habitat and protection of the endangered Desert Tortoise, and 
establishes 170 miles of the Virgin River as wild and scenic, the first 
in Utah. It would also provide for the creation of the High Desert OHV 
Trail. This trail has been in the planning and development stages for 
several years. It will utilize established roads and trails on the west 
side of the County to create a designated route for the OHV community, 
thus greatly reducing the amount of resource damage that can occur with 
the constantly increasing popularity of Off Highway Vehicles. This 
legislation provides for the trail to be identified in an 
environmentally sensitive manner, and also allows for funding for 
development, monitoring, resource protection, and enforcement.
    I am especially pleased with the manner in which the legislation 
deals with the transference of some areas of public land to private 
use. While this part of S. 3636 is patterned directly after the Clark 
and Lincoln County, Nevada legislation, it has, nonetheless, been a 
very complicated and controversial element of the bill. This section of 
the Washington County legislation has been handled in a most careful 
and appropriate way, with the county-wide growth planning effort, 
Vision Dixie, identifying and directing every sale of land, as well as 
establishing the standards under which any development may occur. I am 
confident that the manner in which these land sales are dealt with in 
this bill will become the standard for similar legislation in the 
future.
    In summary, I applaud the efforts of the Washington County 
Commission, as well as the members of the Land-Use Planning Group. I 
believe their vision and courage will pay substantial dividends in the 
years to come. I am also pleased that this has been a bi-partisan 
effort, with support from all members of our Utah Congressional 
Delegation. This is very important, given the difficult and delicate 
nature of the public land debate in our state. It speaks of the level 
of success which S. 3636 has achieved in balancing difficult and 
sometimes conflicting interests while addressing the needs of the lands 
and the people who use them.
    S. 3636 is a vital and long-awaited first step in our quest to move 
forward in preserving our beautiful public lands. I urge you to give 
your approving vote to this legislation.

    Senator Craig. Senator Bennett, thank you very much for 
those opening comments and also a general explanation of the 
procedure you have gone through so we appreciate having that 
information for the committee record.
    Now let me turn to my colleagues from Nevada. Should I 
operate as if we were in the 109th still or the 110th?
    [Laughter.]
    Senator Reid. 109th.
    Senator Craig. All right. With that in mind, you're still 
in the minority, Harry.
    [Laughter.]
    Senator Craig. And I'll turn to Senator Ensign for his 
opening comments and then to our new majority leader, for his 
comments.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. Thank you for 
holding this hearing. My comments will be brief. I appreciate 
all the work that this committee does and has done in the past, 
helping us with our legislation. Senator Reid and I have worked 
tirelessly. I really should say that our staffs have worked 
tirelessly because they are the ones that do most of the work.
    They have and it's both our staffs here in Washington as 
well as our staffs in Nevada, sitting down with all of the 
stakeholders, everybody from the environmental groups, the 
local governments, developers, power companies, water 
companies, Federal, State and local governments--everybody 
involved, sitting down at the table and it is this special 
relationship where the local folks come up with local solutions 
that has paid our legislation work in the past and that's 
exactly what we've done here.
    We actually did town hall meetings out in White Pine County 
on this bill, just like we did on the Lincoln County lands 
bill. The hallmark of these pieces of legislation is no one 
ever gets everything that they want but in the end, it's what 
everybody can kind of live with and then they always look back 
on the legislation and turn around and say, you know, that 
actually turned out to be a lot better than we thought it was 
going to be and it's funny, because all sides end up saying the 
same thing about it. And the legislation that we have before us 
today builds on what we have done in the past.
    White Pine County has over 90 percent of its land owned by 
the Federal Government. It's where my grandmother was born, 
obviously many, many years ago and so it is a real special part 
of the State. It's where Great Basin National Park is located 
and some wonderful people reside there. What we've done is, 
we've sat down and not only identified about 45,000 acres of 
land for development, we expanded the Ely Shoshone Tribal 
Lands. We expanded some State parks and we expanded some 
sensitive wildlife areas. We protect the Great Basin National 
Park. We enhance, in the bill, recreation and tourism 
opportunities in a pretty economically depressed county.
    We also improve Federal lands with fuel reduction and 
wildlife habitat restoration.
    We also did some amendments to the Southern Nevada Public 
Lands Management Act, which are also good for the Federal lands 
as well as our State.
    The administration has come out against and they've 
expressed some opposition to this legislation. I want to 
address that very quickly. It really just has to do with 
budgets. They think that a lot of the money should go into the 
Treasury to help reduce the deficit and that's their 
perspective on this. While I appreciate wanting to reduce the 
deficit, we all know that if this money went into the Treasury, 
it would not go to deficit reduction, it would just go to other 
projects around the country.
    We have carefully crafted, in looking at other examples in 
Western States, for instance, oil and gas revenue in Western 
States, 50 percent of the money goes to the Federal Government, 
50 percent is the State government. That's fair and it has been 
worked out over time. Well, the money that has been raised in 
Nevada--we have carefully crafted--we make sure that 50 percent 
of that money is spent on Federal lands and 50 percent of it is 
spent on either State or county or on some other projects that 
we have in our State. Five percent of the money goes to the 
General Education Fund and other things but it's a 50/50 ratio 
that is very consistent with what we do in other parts of the 
Western United States and we've done that purposely to make 
sure that it follows that model.
    We also have to point out historically that our legislation 
followed the Burton-Santini Act back in the early 1980's and so 
it is very consistent with residents and we think it just 
builds on what we have built in the past. There is a lot of 
local cooperation. We're still just tweaking the legislation 
just a little bit, a little more local input on it but overall, 
we think we have a pretty good piece of legislation.
    I want to thank my colleague, Senator Reid and Neil Kornze 
of his staff along with my staff, John Lopez and Kevin 
Kirkeby--they've done a great job on this legislation.
    [The prepared statement of Senator Ensign follows:]
    Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada
    Thank you, Mr. Chairman for holding this hearing today. I 
appreciate your personal assistance in scheduling a hearing on the 
White Pine County Lands Bill at this late date in the session, and for 
allowing your staff to travel to White Pine County earlier this year.
    Mr. Chairman, White Pine County, Nevada, is located in rural 
eastern Nevada. My great grandparents settled in White Pine County 100 
years ago, so it is a very special place to my family and me. White 
Pine County is one of the most beautiful places in my state. It is home 
to Nevada's only national park, Great Basin National Park, with 
stunning peaks and glaciers. The citizens of White Pine County are 
fiercely independent and resilient. They have a great love for this 
rugged and diverse land.
    This bill is the product of bipartisan cooperation and it 
represents a fair compromise between Senator Reid and me on a number of 
issues relating to the protection of White Pine County's natural 
resources. White Pine residents have spent over two years meeting with 
a number of stakeholders to work through difficult issues. No one and 
no group has been left out of this decision making process, and all 
parties agree that it has been a fair process.
    While not perfect, this measure strikes an appropriate balance 
between economic development, privatizing federal lands, and 
designating wilderness areas. On whole, the White Pine County 
Conservation, Recreation, and Development Act of 2006 is a good piece 
of legislation and it should be passed.
    White Pine County, Nevada, has fewer than 10,000 residents. The 
county has seen more prosperous times. The closure of mines has been 
hard on the local economy. Additionally, the federal government manages 
a high percentage of land in the county which makes it difficult to 
foster growth. The bill seeks modest changes to the land ownership 
pattern to allow White Pine County to grow and increase its tax base, 
and gives residents some modest tools they need to prosper. We have 
also provided the same tools to the Ely Shoshone Tribe. We accomplish 
these goals through land disposal, natural resource and wildlife 
conservation, tourism development, additional protection for the 
wondrous Great Basin National Park, recreation opportunities, Nevada 
State Parks expansions, wilderness designation, and a study to 
determine if off highway vehicles should have a designated route 
through the county.
    The White Pine County Conservation, Recreation, and Development Act 
of 2006 is modeled on an innovative law that I co-authored as a member 
of the House of Representatives with former Senator Richard Bryan. That 
measure, the Southern Nevada Public Land Management Act of 1998 
(SNPLMA), is widely regarded as a huge success. Two successor laws I 
wrote with Senator Reid and Congressman Gibbons, the Clark County 
Protection of Lands and Natural Resources Act of 2002 and the Lincoln 
County Conservation, Recreation, and Development Act of 2004, followed 
SNPLMA.
    These county bills for Nevada can and should be replicated in every 
county in Nevada. Many other Western states with large public land 
holdings may benefit from our Nevada model. The premise is simple: not 
all land is suitable for public ownership, and other public lands are 
suitable for increased protection. We settle long-standing wilderness 
issues by designating permanent wilderness areas and release wilderness 
study areas to multiple use. Years of disagreements between developers, 
multiple use advocates, governments, environmentalists, 
conservationists, and other stakeholders are settled by these land 
bills. Bringing together people from diverse interests has actually 
proved to be a very healthy exercise in Nevada; it has fostered a 
spirit of cooperation that will benefit generations of Nevadans to 
come.
    The White Pine County Conservation, Recreation, and Development Act 
of 2006 also proposes significant amendments to the Southern Nevada 
Public Land Management Act of 1998. In some instances, we revise 
provisions in current law that need improvement. We add new expenditure 
categories for projects that will be beneficial to the citizens of 
Nevada and our environment.
    For example, an improvement we make to current law relates to local 
governments in Clark and Lincoln Counties that use parks and trails 
funds in the SNPLMA Special Account. The localities are having 
difficulty building approved parks and trails projects. Local 
governments have to front their own funds and seek reimbursement from 
the Bureau of Land Management to build these projects. In some cases, 
this means millions of dollars that have to be borrowed or taken from 
other programs. To help local governments speed the development of 
parks and trails, we propose to pay local governments up front, 
eliminating a cumbersome reimbursement process. We can still maintain 
the financial integrity of all expenditures.
    Additionally, we have significantly streamlined the affordable 
housing provisions in current law. Our revisions will make federal land 
available at a discount for workforce housing and improve the lives of 
hard working families across the state of Nevada.
    For new expenditure categories, we have taken great care to propose 
using the SNPLMA Special Account for critical needs, and in particular, 
for projects and initiatives that have broad support from the 
environmental and conservation community. We propose a clean water 
project for Lake Mead in southern Nevada and hazardous fuels reduction 
programs for two of the most heavily visited and fire prone areas in 
Nevada: Lake Tahoe and the Spring Mountains. We seek to conserve 
Colorado River water through the buyback of turf from public entities. 
Eighty five percent of the Special Account is now used for 
environmental and recreational purposes. We do not seek to break from 
the purposes for which SNPLMA was established in 1998; doing so would 
be controversial and harm the prospects of the passage of this bill.
    Please allow me to address the Administration's main criticism of 
this bill.
    The Administration wants the land sale proceeds to go back to the 
Treasury to reduce the deficit. I am a fiscal conservative and my 
opposition to excessive government spending is well known. I would be 
the first one to help the Administration in this regard if I thought it 
would make a difference with our deficit. The reality--and everyone 
knows this--is that these dollars will be spent recklessly somewhere 
else if we direct them to the Treasury. Knowing that these dollars will 
be spent elsewhere, I think it is responsible to keep these land sale 
dollars in the county where they are generated so they will actually 
benefit federal lands in that county. This Administration and previous 
Administrations have not dedicated the financial resources necessary to 
protect our federal lands. Congress has not dedicated the resources. If 
it was not for the Nevada Congressional Delegation taking the 
initiative to write these lands bills--they involve a lot of staff 
work, time, and travel--we would not have, for example, $300 million at 
Lake Tahoe to do restoration work on federal lands. I ask that you not 
penalize Nevadans for finding innovative ways to improve public lands. 
Other states who want this Nevada lands money should follow the example 
we have set in Nevada and write their own bills.
    In summary, the White Pine County Conservation, Recreation, and 
Development Act is the culmination of two years of hard work and 
spirited debate. Senator Reid and I, and our staffs, have worked 
together closely and have made visits to and held meetings in White 
Pine County on numerous occasions. We have received thousands of 
comments and useful suggestions from people across Nevada. This bill 
touches every corner of our beautiful state, and I am proud to have 
been part of this endeavor. I look forward to working with my 
colleagues and interested parties to improve this bill as necessary.

    Senator Craig. Senator, thank you very much. Now let us 
turn to Senator Reid.

 STATEMENT OF SENATOR HON. HARRY REID, U.S. SENATOR FROM NEVADA

    Senator Reid. Senator, you've been gracious in the past in 
working with Senator Ensign and me on similar bills and making 
yourself available for hearings much like this one. This is an 
important piece of legislation for eastern Nevada and for the 
entire State and White Pine County is our only national park, 
the Great Basin National Park, which is really a wonder. It is 
representative of everything that is in the Great Basin. It has 
the oldest living thing in the world on it, the bristle cone 
pine trees. It has a glacier. It is just representative of the 
Great Basin and that's why people come from many, many miles. 
It's not easy to get to the Great Basin National Park and yet, 
the visitation is significant.
    The bill is a product, as Senator Ensign mentioned, of a 
long and inclusive process of ranchers, miners, hunters, 
environmentalists, tribal officials, local electives and 
others. Senator, the Clark County and Lincoln County bills--I 
think that speaks volumes. One county has two million or more 
people in it. The other has 5,000 people in it, Clark County 
the two million. Lincoln County about 5,000 people are in it. 
But it's part of the State of Nevada and the legislation that 
we're asking you to approve today results in wilderness study 
areas and creates a mechanism for the BLM to sell land that it 
already has identified for disposal. We expand the Ely Shoshone 
Indian Reservation and add some protections to the lands around 
Great Basin National Park, and make reasonable additions to 
three popular State parks. There are also important divisions 
in this legislation that are needed to modernize the Southern 
Nevada Public Lands Management Act.
    Mr. Chairman, on public radio today--and I listen to public 
radio every day and really admire what they put out but today 
was not one of their best days for a good product. They talked 
about Las Vegas's sprawl. Las Vegas has no sprawl. That is why 
we're building all of these high-rise buildings. There is no 
land to sprawl on. Public radio this morning reported that some 
people are talking about this bill. Why should we add to the 
sprawl?
    As we speak, we have 35 buildings being constructed in Las 
Vegas that go straight up. A few years ago, they would have 
gone out. There's no place to go out. We have no land. 
Approximately 90 percent of the land of the State of Nevada is 
owned by the Federal Government. Forty percent of the air space 
is controlled by the Federal Government. How much more do they 
need?
    White Pine County is still here. More than 94 percent of 
the White Pint County is owned by the Federal Government. A 
little over 5 percent is private land. Is it asking too much in 
a county that is 95 percent Federal land, to put up a few acres 
for private ownership? I don't think so.
    Does that mean that White Pine County is going to have 
urban sprawl?
    We've worked on these bills. This bill, as partners, 
Senator Ensign and I. He was able to bring constituencies to 
the table that I couldn't and vice versa. What we ended up with 
is legislation forged out of careful and deliberate compromise. 
That is what legislation is all about. No one gets everything 
they want in this bill but we believe that everyone will 
benefit from what we have put forward here today.
    This is a special place. Elk herds. As I've mentioned, the 
bristle cone pines, North America's southern most glacier, 
Lehman Caves. This legislation is important to the people of 
White Pine County.
    Some have criticized our legislation as a harmful precedent 
because it might be followed by other States around the West. I 
don't think that's a very good reason to object to the bill. I 
am proud of the work that we did in our Clark County lands bill 
with Senator Ensign. My only concern is maybe we didn't do 
enough but we did as much as we could. There is no other State 
in the union like Nevada. The situation in Nevada is unique. 
Since we became a State in 1864, the Federal Government has 
been our neighbor in every direction and now the direction is 
even up. I repeat--40 percent of the air space is controlled by 
the Federal Government. Ninety percent of the land, 
approximately, is managed by Federal agencies. No other State 
faces this situation.
    The State with the next highest percentage of Federal land, 
I believe, would be Utah or Alaska and they don't break the 70 
percent mark. Senator Ensign and I went to Ely not too long ago 
to talk to people there in that little community at a very 
inconvenient time for them--convenient time for Senator Ensign 
and I. We had 150 or 200 people show up in that little, small 
community and we got a lot of feedback, most of it very 
positive.
    One of the key messages we heard that day is that years of 
work have gone into this effort and they are ready to see this 
legislation completed. I don't know what to say about the 
administration opposing this bill, other than saying we are the 
legislative branch of government and we have as much right to 
move legislation forward as they have to oppose it and I would 
hope that they would be more reasonable.
    I feel confident that this is good for my constituencies. I 
think it is good for the West and I would hope that we can get 
this bill moved and reported as quickly as possible. Thank you, 
Mr. Chairman.
    Senator Craig. Well, Senator, thank you. All Senators 
assembled, thank you all for being here. The committee is 
pleased to accommodate you as we attempt to move this 
legislation forward. We have a roll call vote underway on the 
floor, the Bingaman amendment.
    Senator Reid. Mr. Chairman, I failed to ask. May I have my 
full statement made a part of the record?
    Senator Craig. Without objection, it will be a part of the 
record.
    [The prepared statement of Senator Reid follows:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    Mr. Chairman, thank you for taking the time to consider our 
legislation today. As you know, the White Pine County bill is the third 
in a line of major public lands bills that Senator Ensign and I have 
crafted together. We greatly appreciated your support for the Clark 
County bill in 2002 and the Lincoln County bill in 2004. Each of these 
pieces of legislation has ensured protection for some of Nevada's most 
incredible and untouched wild areas while also making economic 
development possible in our urban and rural communities.
    The White Pine County bill, like those before it, is the product of 
a lengthy and inclusive process. Meetings and ground tours focused on 
improving public land management in eastern Nevada have been taking 
place for over 5 years. County Commissioners, ranchers, 
environmentalists, tribal officials, off-highway vehicle advocates, 
federal land managers, city officials, hunters and many others have 
contributed to this legislation during that time.
    There is no doubt that this bill is ambitious. In addition to 
protecting more than 544,000 acres of backcountry as wilderness, it 
initiates a 3-year study of possible off highway vehicle routes, 
provides for the reasonable expansions of the Ely Shoshone Indian 
Reservation, Cave Lake State Park, Charcoal Ovens State Park, and the 
Steptoe Valley Wildlife Management Area. It also creates a process for 
gradually increasing the amount of private land in White Pine County, 
provides essential funding for landscape-scale habitat restoration 
work, and adds important protections to the lands surrounding Great 
Basin National Park.
    The legislation also contains important improvements to the 
Southern Nevada Public Lands Management Act (SNPLMA). Passed into law 
in 1998, SNPLMA has brought essential resources to Nevada for the 
acquisition of environmentally sensitive lands and the enhancement of 
key public lands like the Desert National Wildlife Refuge, the Red Rock 
National Conservation Area and the Lake Tahoe Basin. Today we are 
proposing alterations that will help adjust SNPLMA to the changing 
dynamics of the country's fastest growing area.
    Some will point out that this type of comprehensive public lands 
legislation is unusual--and it is. There's a good reason for that. 
Unlike any other state in the union, 87 percent of the land in Nevada 
is controlled or managed by the federal government. In White Pine 
County the number is closer to 94 percent and encompasses some 5.7 
million acres under federal management by the Bureau of Land Management 
(BLM), the Forest Service, the National Park Service and the Fish and 
Wildlife Service.
    To put these numbers into perspective for people who have never 
visited Nevada or the wide open spaces of the West, this one county is 
bigger than the entire state of New Jersey. It is also larger than 
Massachusetts, New Hampshire, Rhode Island, Connecticut, Delaware or 
Hawaii. And in almost all of those states the percentage of federal 
land is in the single digits.
    Our citizens and visitors benefit greatly from open access to these 
vast public lands, but at the same time our towns are frequently boxed 
in by federal land and our counties are severely limited in the tax 
revenues available to them because of the large federal holdings. This 
situation requires that the Nevada congressional delegation play an 
active role in helping our communities meet their changing needs and 
provides an important opportunity to protect and improve our most 
sensitive public lands. By addressing these issues on a county-by-
county basis we feel that we are better able to strike a fair balance 
between conservation, growth and other competing interests.
    Like similar legislation that we have worked on in recent years, we 
do not expect anyone to endorse every title in this bill. When it comes 
to the topics of growth, conservation and stewardship in rural Nevada 
there are many strong and often opposing views. We believe that this 
legislation offers a solid middle ground and a path forward for the 
people of White Pine County.
    Again, thank you, Mr. Chairman, for allowing this opportunity 
today. We believe this legislation is a tough compromise that deserves 
your support. Below I will provide some background on each of the 
titles in our bill:
Title I--Land Sales
    The first title in this bill creates a mechanism to increase the 
amount of privately held land in white Pine County. Currently, 94 
percent of the land in the county is managed by federal agencies. By 
increasing the total amount of private land in White Pine County, we 
create opportunities for growth and economic development that will also 
allow the county to provide greater support to its residents through an 
expanded tax base.
    Our bill calls for up to 45,000 acres of land currently managed by 
the BLM to be made available for sale in reasonable increments. Each 
year a minor portion of the total acreage will be made available for 
public auction after a joint selection is made by the county and the 
BLM. As part of the land sale authority, the county has the power to 
halt the annual disposal of land if it deems that action to be 
appropriate or necessary.
    There have been some concerns raised that the number of acres 
authorized for sale in this legislation is higher than the total number 
of acres listed as suitable for disposal in the forthcoming Resource 
Management Plan (RMP) for this area. I want to be clear that the 45,000 
acre figure in our legislation is not, as some fear, a directive to the 
BLM to find additional lands to be sold above and beyond what is 
already deemed to be suitable for disposal in the RMP. This higher 
number simply creates a framework for land sales under the existing RMP 
and any acreage, up to the designated number, that the BLM might 
identify for disposal through regular order in future plans.
    Similar to the Lincoln County bill, the funds raised from land 
sales under this authority are directed towards essential conservation 
efforts and for the implementation of various mandates in this bill, 
including an off highway vehicle trail study, designation of new 
wilderness areas, and the conveyance of lands into trust for tribal 
use. A minor portion is also made available to the county for essential 
uses.
Title II--Wilderness
    I am very proud of the work we've done on the wilderness portion of 
this legislation. Working closely with ranchers, hunters, the federal 
agencies and the White Pine County Commission, we've been able to 
identify over 544,000 acres that are suitable for protection as 
wilderness. At the same time, 67,000 acres of BLM wilderness study 
areas are set to be released.
    Twenty years ago I started work on another wilderness bill that 
included lands in White Pine County. Two wilderness areas in White Pine 
County came out of that process--Mount Moriah and Currant Mountain. At 
that time, the very idea of wilderness was still unfamiliar to many 
Nevadans and was seen by some as cause for alarm. I'm proud to say that 
today the situation is quite different. A great number of people in 
White Pine County have now embraced wilderness and the ways in which 
wilderness designation can compliment, and even improve, the land on 
which they have hunted, hiked and grazed for generations.
    Since the introduction of this bill we have heard from many 
hunters, ranchers, miners and other concerned citizens about various 
minor boundary adjustments. We take this input seriously and are 
working to ensure that everyone's voice is heard. For instance, based 
on feedback we've received, boundaries along the west side of the 
proposed Schell Creek Range Wilderness Area were placed one-tenth of a 
mile uphill of the Ranger Trail and 30 feet from the boundary of 
private land that runs north of Cave Lake over to Success Summit. These 
are small points when we discuss them here, but they can make a world 
of difference on the ground.
Title III--Transfers of Jurisdiction
    The third title of this bill makes two transfers of land between 
Federal agencies that will improve public land management in White Pine 
County. The first is a transfer of approximately 645 acres from the BLM 
to the Fish and Wildlife Service, to be managed as part of the Ruby 
Lake National Wildlife Refuge. The land became an inholding after the 
Fish and Wildlife Service purchased land surrounding the BLM parcel.
    The second transfer of roughly 117,000 acres from the Forest 
Service to the BLM is land that currently surrounds the Great Basin 
National Park in a donut shape. Under the present arrangement, the 
National Park Service, the Forest Service and the BLM manage an awkward 
patchwork of land. In some areas all three agencies have holdings 
within the span of a single mile. This division of management and labor 
makes proper stewardship complicated and inefficient. Of the land 
proposed to be transferred from the Forest Service to the BLM, roughly 
50,000 acres will be withdrawn from mineral and land laws and 70,000 
acres will be designated as the Highland Ridge Wilderness Area.
Title IV--Land Conveyances
    Title IV provides for the conveyance of land to two existing state 
parks and a state wildlife management area. The Charcoal Ovens State 
Park will receive approximately 640 acres of BLM land to expand its 
current holdings. This land is already managed by the state through a 
Recreation and Public Purposes lease. Cave Lake State Park will also 
receive a conveyance of Forest Service land to help improve management 
of this popular area. More than 100,000 visitors travel to this park 
each year. Our conveyance is designed to expand the park boundaries to 
encompass areas on Forest Service land that have become popular camping 
and overflow areas, but which the state park's full-time rangers do not 
have the authority to patrol and manage. Because of serious budget and 
staff constraints, the Forest Service has also proved unable to 
properly manage this area. We have worked closely with the state to 
address their management needs while keeping the conveyance of Forest 
Service land to a minimal size. In August I toured this site and the 
proposed boundaries and believe them to be sound.
    This title also directs the conveyance of roughly 6,200 acres of 
BLM land to the State of Nevada for an expansion of the Steptoe Valley 
Wildlife Management Area. These additions will maximize management 
options for this area while also creating a safety buffer between 
hunters and future residential and commercial development.
    In addition to these conveyances of land to the State, the bill 
also provides for two small but important conveyances that will provide 
expanded economic opportunity for White Pine County. These include up 
to 200 acres for the expansion of the White Pine County Industrial Park 
and up to 1,500 acres for the planned expansion of the White Pine 
County Airport. Any funds collected from the lease, sale or conveyance 
of either the industrial park or airport lands will be directed for 
public uses.
Title V--OHV Trail Study
    The fifth title builds on the designation of the Silver State Off 
Highway Vehicle Trail in Lincoln County by authorizing a 3-year study 
for a possible extension of the trial into and through White Pine 
County. If the Secretary of the Interior, working with local citizens 
and other stakeholders, is able to identify a route for the trail that 
would not significantly impact wildlife, natural or cultural resources, 
an extension of the Silver State Trail will be designated at the 
conclusion of the study. We believe that this proposal carefully 
balances the interests of the off road community, those concerned with 
conservation values, and those who currently use the land for grazing 
and similar uses.
Title VI--Tribal Conveyance
    Perhaps no issue addressed by this legislation has been more 
discussed and debated than the conveyance of BLM land to be held in 
trust by the United States for the Ely Shoshone Tribe. Currently, the 
tribe holds 100 acres in two separate parcels within Ely city limits. 
For 3 years meetings have taken place in White Pine County to discuss 
possible configurations and areas for a tribal expansion. Local 
residents and interested parties have expressed strong feelings on all 
sides of this issue, and our proposal is stronger as a result of this 
dialogue.
    The Ely Shoshone Tribe--one of many Western Shoshone tribal 
communities in Nevada, Utah, Idaho, and California--has about 500 
members, most of whom live in the city of Ely. Like many tribes, the 
Ely have a number of modest commercial enterprises and provide a range 
of governmental, health and educational services to its members, 
including a language preservation program that brings youth, members 
and tribal elders together.
    This bill transfers roughly 3,500 acres in four separate parcels 
into trust for the benefit of the Ely Shoshone Tribe. Over half of this 
acreage is contained in one parcel to the west of Ward Mountain. This 
larger area is designated exclusively for traditional tribal uses, such 
as ceremonial celebrations and gatherings and pine nut picking.
    The conveyance also includes two parcels to the south of Ely and 
one approximately 10 miles north of McGill on highway 93. These lands 
are available to be used by the tribe for residential and commercial 
purposes. Importantly, the tribe and the county have both pledged their 
intention to work together to overcome any outstanding concerns related 
to zoning, infrastructure and other issues related to the development 
of these lands.
    The placement of these conveyances will allow the tribe to be a 
partner in the growth and economic development of White Pine County 
while also ensuring that the city of Ely has sufficient room to grow 
south along highway 93. We have taken special care to ensure that 
existing developments, like the KOA, have room to expand.
    This conveyance represents a tough compromise between many 
important interests. Some have proposed that the tribe should receive 
in excess of 20,000 acres of land in and around Ely. Others have fought 
to block the tribe from receiving a single acre. We do not expect that 
the conveyance in this bill will please anyone completely, but we do 
believe it is a fair compromise that addresses the main concerns of all 
the concerned parties.
Title VII--Rangeland Restoration
    Title VII of the bill addresses the invasion of non-native species 
and the unnatural encroachment of pinon and juniper pine in eastern 
Nevada by making funds from the Southern Nevada Public Land Management 
Act special account available for the implementation of the Eastern 
Nevada Landscape Restoration Project in White Pine and Lincoln 
Counties. In addition to funding this vital program we have authorized 
the Secretaries of the Interior and Agriculture to work with the 
Eastern Nevada Landscape Coalition and the Great Basin Institute in 
carrying out landscape-scale restoration efforts necessary to restore 
the health of eastern Nevada's rangelands.
    In the interest of understanding and fully addressing the ecosystem 
changes that are taking place all across the Great Basin, this title 
also authorizes a feasibility study for an interagency research 
facility and experimental rangeland in eastern Nevada.
Title VIII--Amendments to the Southern Nevada Public Land Management 
        Act
    Since the passage of the Southern Nevada Public Land Management Act 
(SNPLMA) in 1998, thousands of acres of BLM land have been auctioned in 
southern Nevada. These sales have produced significant funding for 
conservation efforts, enhancements to our most prized public lands, and 
the acquisition of sensitive lands throughout our State.
    Now, 8 years after its passage, we are seeking to update this 
legislation so that it continues to serve the full interests of the 
people of Nevada, our public lands, and the federal agencies that 
administer the programs funded by the original legislation. Here I 
highlight some of the key changes.
    In this bill we provide funding for two separate 10-year hazardous 
fuels reduction programs, one for the Spring Mountains and one for the 
Lake Tahoe Basin including the adjacent lands in the Carson Range in 
Washoe and Douglas Counties and Carson City. The federal government has 
made a major investment to restoring Lake Tahoe and the surrounding 
basin in recent years. The hazardous fuels reduction program we propose 
is necessary to protect that ongoing investment and to protect the 
lake. A major fire in the basin would set back water clarity and other 
conservation efforts many years, and perhaps decades.
    We also provide funding for the implementation of the Clark County 
Multispecies Habitat Conservation Plan, make Washoe County eligible for 
the acquisition of a popular open space area, and make funding 
available to help improve the water quality in Lake Mead and to provide 
a sustainable future for the Las Vegas Wash.
    In order to make SNPLMA more manageable for the agencies and 
municipalities that administer the special account and its many 
programs, we have included authority that allows all federal agencies 
that carry out SNPLMA projects to get reimbursed for their direct 
costs. We have also provided an important authority for the BLM to use 
SNPLMA funds to properly clear and protect vacant parcels in the Las 
Vegas Valley from dumping.
    One of the key provisions in this title calls for the Department of 
Interior to distribute funds for approved SNPLMA projects no later than 
60 days after a transfer of funds is requested by the recipient. 
Currently, after a SNPLMA project has been awarded by the Secretary of 
Interior, the recipient is not able to access the funds except as a 
reimbursement. What this means is that a recipient must raise 
sufficient funds to cover the cost of the approved project, spend those 
funds, and then seek a reimbursement. This system creates unnecessary 
delays and results in increased construction costs. It also causes 
confusion in the annual federal budgeting process by creating the false 
appearance of substantial funds on the federal books when those funds 
have, in fact, already been obligated.
    Another important change that we make to SNPLMA is a complete 
rewrite of the legislation's affordable housing title. While language 
was included in the original legislation that allows for land to be 
acquired at less than fair market value for the development of 
affordable housing, it took the BLM over 4 years to promulgate the 
guidelines for implementing this provision. Since that time no eligible 
party has successfully used these guidelines to secure land and build 
affordable housing anywhere in Nevada.
    With an estimated 170,000 housing units needed in southern Nevada 
for affordable and workforce housing in the next 10 years, immediate 
action is needed. As a result, we have struck the largely unworkable 
language from the original legislation. We have replaced it with an 
authority allowing all legitimate interested parties to work with the 
BLM to pursue land for the development of affordable and workforce 
housing. We also take a further step and require that any parcel of 
Federal land over 200 acres in size that is auctioned in the Las Vegas 
Valley a minimum of 5 percent of the housing units be designated for 
affordable and workforce housing.
    We feel that there is a unique opportunity within the framework of 
SNPLMA to address affordable housing needs in southern Nevada and we 
stand ready to work through any outstanding issues with this provision.
Title IX--Great Basin Heritage Route
    Title IX calls for the creation of the Great Basin Heritage Route. 
I am pleased to report that in the time since the introduction of this 
bill, another legislative vehicle containing this language reached the 
president's desk and it has been signed into law.
                               conclusion
    In sum, Mr. Chairman, the White Pine County Conservation, 
Recreation and Development Act of 2006 is a far-reaching and complex 
piece of legislation. By making forward looking improvements to public 
land management and the stewardship of our shared natural resources, we 
believe we have crafted a bill that will serve the best interests of 
the people of White Pine County, eastern Nevada and our entire State.
    I thank the Chairman for allowing us to appear before his committee 
today. I look. forward to working with the committee to move this 
legislation forward.

    Senator Craig. I don't know what the immediate future looks 
like. It doesn't appear--at least it is not yet announced that 
there are stacked votes.
    Is it 3 o'clock? Well, I'm going to ask everyone to cool 
their heels. We will put the committee in recess and I'll vote 
early and often and in this case, it is legal and be back here 
to reconvene the committee. Those who have come to testify on 
these two pieces of legislation, the committee will stand in 
recess.
    [Recess.]
    Senator Craig. Thank you all very much for your patience. 
Let us move on with this hearing and I will call the first 
panel.
    Chad Calvert, Principle Deputy Assistant Secretary, Land 
and Minerals Management, Department of the Interior, along with 
Joel Holtrop, Deputy Chief, National Forest System, USDA. 
Gentlemen, if you would come forward, please.
    Thank you much. Chad, if you would proceed, we would 
appreciate it.

     STATEMENT OF CHAD CALVERT, PRINCIPLE DEPUTY ASSISTANT 
  SECRETARY, LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Calvert. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today on S. 3636, the Washington County 
Growth and Conservation Act and S. 3772, the White Pine County 
Conservation, Recreation and Development Act. The 
administration supports the goals of both of these bills 
because they will help resolve many local land tenure issues. 
Our concerns with the bills are particularly limited to revenue 
allocation and distribution and to some technical issues that 
we believe can be fixed here in this Committee.
    These concerns are more fully discussed in my written 
statement so I will just touch on some highlights here and I 
would be happy to answer questions you have.
    The Washington County bill and the White Pine County bill 
would help resolve many public land issues. We have stated our 
support for the Members of Congress to work with local 
government and interested parties to resolve longstanding 
issues surrounding the wilderness study areas and other 
controversial land use problems.
    With regard to the Washington County bill, title I of the 
bill would provide for disposal of roughly 25,000 acres of 
public lands out of BLM management and into private ownership. 
The Department supports the general proposition of making some 
public lands available for community growth where it is 
necessary and appropriate but we would urge Congress to modify 
this bill to allow for public process and identification of 
lands identified under section 102(b)(2). We trust in that 
process and it actually has been proposed in the White Pine 
County bill.
    Title II of the bill would designate more than 217,000 
acres of wilderness on Park Service and BLM lands in Washington 
County. It would release roughly 11,000 acres back to multiple 
use management, 92,937 acres of wilderness would be on BLM 
lands, 123,500 acres of wilderness on National Park Service 
lands and 2,600 acres of land in the Forest Service. As we have 
routinely stated, Congress has the sole authority to designate 
public domain lands to be managed permanently as wilderness and 
this administration supports these efforts in this legislation.
    The legislation would also amend the Wild and Scenic Rivers 
Act by adding approximately 170 miles of segments of the Virgin 
River and its tributaries within and adjacent to Zion National 
Park and to the Wild and Scenic Rivers system. The Department 
supports the designation of these segments.
    Section 401 of the bill addresses a number of issues 
related to utility corridors, transportation corridors and 
rights-of-way grants for water-related facilities. It is our 
understanding that most of these corridors are existing 
corridors. Our greatest concern is that one of the areas 
identified for a flood control reservoir is in the Fort Pearce 
area near the Arizona State line. We have noted the possibility 
that historic Fort Pearce could be impacted by that 
designation. The BLM suggests there are other potential sites 
for flood control along the Fort Pearce wash further upstream. 
We would like to work with the Committee to modify this 
language to provide for some planning prior to identification 
and conveyance of public lands for this purpose.
    The Red Cliffs National Conservation Areas designated by 
title VI would be the first NCA in the State of Utah. Each of 
the NCAs designated by Congress and managed by the BLM is 
unique. However, for the most part, they have certain critical 
elements. These elements are included in this bill and we 
support this designation in this legislation.
    With regard to White Pine County, title I provides for a 
process to dispose of up to 45,000 acres of public lands out of 
BLM management and into private ownership. We support the 
proposition of disposing of public lands to provide for 
community growth where appropriate and to identify these lands 
through a public process.
    This bill would designate a number of wilderness areas 
within White Pine County, including over 284,000 acres of BLM-
managed lands and 260,000 acres managed by the Forest Service. 
In addition, nearly 68,000 acres of Wilderness Study Areas 
managed by the BLM would be released for multiple use. The 
administration supports the efforts of the Nevada delegation to 
arrive at boundaries through consensus and compromise.
    Title III provides for administrative jurisdiction 
transfers from the BLM to the Fish and Wildlife Service and 
from the Forest Service to the BLM, both of which we support 
because we believe that they will improve manageability. Title 
IV provides for the conveyance of Federal lands for State and 
county parks, which we support insofar as they affect the BLM-
managed lands.
    The Ely Shoshone Tribe currently has a reservation totaling 
approximately 100 acres in two separate parcels. This bill 
would add four additional pieces of land totaling 3,500 acres 
to the reservation.
    The largest of the parcels, over 2,000 acres, is reserved 
for ceremonial uses. The Department supports increasing the 
Tribe's land base but the Government does not generally hold 
property improvements in trust and this section should be 
modified to reflect that.
    With regard to the amendments to changes in the Southern 
Nevada Public Lands Management Act--the administration opposes 
adding more uses for money in that account. The new purposes in 
this bill would provide an additional authorization to use 
money for Great Basin restoration, local water conservation and 
development projects, local recreation opportunities and 
hazardous fuels reduction projects. The administration believes 
funding for these projects should go through the normal 
budgeting process where they can be better evaluated in terms 
of Federal priorities and the President's budget.
    Finally, the Department does not support replacing the 
existing affordable housing provisions in the new standards. 
The BLM has made progress working with local governments and 
other Federal agencies under the existing standards and we are 
concerned that changing those standards now will complicate 
that process.
    With regard to the special accounts that would be 
established for revenues in both the White Pine County bill and 
the Washington County bill, the administration believes that 
all American taxpayers should receive some benefit from the 
sale of public lands and we would like to work with the 
sponsors and the committee to determine an appropriate 
percentage of proceeds to return to the Treasury. The 
administration is also opposed to provisions that require 
interest to be deposited in the special accounts as the 
Department of Treasury advises us to require them to borrow 
money from other accounts to pay the interest.
    I appreciate having the opportunity to present these views 
and we stand ready to assist in resolving the issues raised in 
my testimony. I applaud the work of the delegations and look 
forward to moving both pieces of legislation forward.
    [The prepared statements of Mr. Calvert on S. 3636 and S. 
3772 follow:]
    Prepared Statement of Chad Calvert, Principal Deputy Assistant 
  Secretary, Land and Minerals Management, Department of the Interior
                                S. 3636
    Thank you for the opportunity to testify on S. 3636, the Washington 
County Growth and Conservation Act of 2006. This bill attempts to 
resolve a wide range of public land issues in Washington County, Utah. 
We strongly support the efforts of the Utah delegation to resolve the 
longstanding issues surrounding Wilderness Study Areas (WSAs) and a 
number of other public land issues. The Department of the Interior 
supports the goals of the legislation, but opposes provisions that 
require lands to be sold, regardless of whether they have been 
identified for disposal. Furthermore, the Administration believes that 
all taxpayers should receive some benefit from land sales. We have 
concerns with the bill's revenue distribution and will work with the 
Committee during the legislative process to determine an appropriate 
percentage of proceeds to be returned to the Treasury. The Department 
views this legislation as a good approach to resolving some of the 
identified public land issues in Washington County, Utah and wants to 
continue working with the sponsors and with other interested members of 
Congress on some aspects of the bill.
                               background
    Washington County, Utah, located in the southwest corner of the 
State bordering Nevada and Arizona, covers nearly 2,500 square miles, 
and has been one of the fastest growing counties in the U.S. With a 
population of only about 10,000 in the mid-1960s, today Washington 
County has over 100,000 residents. At the same time, more than 75 
percent of the County is Federal land, managed by the Bureau of Land 
Management (BLM), the U.S. Forest Service (USFS), and the National Park 
Service (NPS). In addition, the County includes lands held in trust by 
the Federal government for the Shivwits Indian Tribe and lands owned by 
the State of Utah. How those lands are managed is a critical issue to 
the people of Washington County; this bill addresses a wide range of 
land management policies.
    A number of provisions of this legislation have the potential to 
impact the Shivwits Indian Tribe with their reservation in southwestern 
Washington County. The Department would urge the sponsors to resolve 
any remaining issues with the Tribe regarding traditional access and 
other cultural and religious issues.
    The bill as introduced references maps without dates. However, we 
have been informed by the sponsors of the bill that it is their 
intention to reference the three regional maps dated July 18, 2006, and 
created by the BLM at the request of Senator Bennett. Therefore, this 
testimony is based on those maps.
Title I--Land Disposal
    Title I of S. 3636 provides for the disposal of nearly 25,000 acres 
of public lands out of BLM management and into private ownership. The 
Department supports the general proposition of making some public lands 
available for community growth where it is necessary and appropriate, 
but cannot support requirements to dispose of a specific amount of 
public lands that may not be suitable for disposal.
    Under S. 3636 the disposal of land would take place in three 
phases. Disposal for the first two phases is by auction and, for phase 
three, by auction or through exchange. In the first phase, lands are to 
be disposed of within the first year after enactment of the bill 
(described in section 102(h)(I)(A)(i) as ``First Directed Sale'' 
lands), and include 1,125 acres of BLM-managed land specifically 
identified on the map in 15 separate, mostly smaller parcels. The 
majority of these lands have been preliminarily identified by the BLM 
for disposal through the 1999 St. George Resource Management Plan 
(SGRMP). The local BLM had previously reviewed these lands for cultural 
and historic issues, threatened or endangered (T&E) species conflicts 
and other potential values that could preclude a conveyance out of 
federal ownership, and believes that sale of these lands can be 
accomplished. Surveys and appraisals will be required; therefore an 18-
month window, rather than the one year contemplated in the bill, would 
be more realistic.
    In the second phase, the lands to be disposed of within the five 
years following the first disposal outlined above (described in section 
102(b)(1) as ``Directed Sale Lands'') include approximately 3,262 acres 
specifically identified in one small and two large parcels. Most of 
these lands had been preliminarily identified for disposal through the 
SGRMP. However, that identification was only preliminary. The local BLM 
has been made aware of conflicts on these lands, which include cultural 
resources as well as the presence of T&E species. Section 102(i) of the 
legislation anticipates these problems by allowing the Secretary of the 
Interior to place restrictive covenants on lands sold in order to 
protect the interests of the United States, including cultural or T&E 
species. The language gives the Secretary sufficient discretion and we 
do not oppose it.
    Finally, the third phase includes lands to be disposed of not 
before 2010 (described in section 102(b)(2) as ``Lands Eligible for 
Consideration Under Section 102 Disposal''). This includes over 372,000 
acres from which at least 20,000 acres are to be identified for 
disposal and sold or exchanged (no upper limit is established by the 
legislation for disposal lands). The selections of the specific parcels 
are to be reached jointly by the BLM and the County. The legislation 
specifically excludes from consideration any lands that are designated 
as wilderness by this Act, the National Conservation Area designated by 
this Act, or any areas of critical environmental concern (ACECs).
    I would note that without additional legislative direction, the BLM 
will look to the Federal Land Policy and Management Act (FLPMA) for 
guidelines to determine the suitability of lands to be disposed. In 
this case, the BLM has not yet identified 20,000 acres as suitable for 
disposal in this area and believes it may be difficult to identify that 
many acres that are suitable pursuant to FLPMA and in developable 
areas. For example, there is a high concentration of listed threatened 
or endangered species on BLM-managed land within Washington County and 
four of the ten listed species are endangered plants that depend on 
public land habitat to avoid extinction. Similarly the density of 
unique and special cultural resources in the identified area is 
exceptionally high. We recognize that the Department has discretion on 
the selection of lands for disposal, but point out this may conflict 
with the apparent non-discretionary target stated in Section 102(b)(2). 
The Department could not support this third phase unless the bill is 
modified to give BLM the flexibility to establish a discretionary 
disposal target through a public process.
    In addition to these concerns with the disposal language, we also 
have concerns with language on the use of sales revenues. Section 103 
of S. 3636 addresses the disposition of the proceeds from the sale of 
lands directed in section 102. Specifically, it directs that 15 percent 
of the proceeds be distributed to State and County entities, while 85 
percent would be retained by the Federal government. Among the allowed 
uses of the Federal government's share are: reimbursement of costs to 
prepare the lands for sale, acquisition of State and private inholdings 
within the NCA proposed by Title VI, various conservation projects on 
Federal land in Washington County, and other costs related to 
implementation of the Act. Section 103(b) authorizes interest to be 
earned on amounts deposited into the special account. As stated above, 
we'd like to work with the Committee to address our concerns with this 
section.
    In addition, the Administration does not support section 103(b), 
which allows the land sales account to earn interest. The Department of 
the Treasury strongly opposes such provisions, which effectively 
require the Treasury to borrow more funds to pay this interest.
    We would like the opportunity to address a few technical, but 
nonetheless significant, issues. For example, section 102(g) would 
withdraw over 375,000 acres in Washington County from the public land 
laws, the mining laws, mineral leasing laws, and mineral materials 
laws. Notably, this would preclude mineral materials sales for items 
such as sand and gravel--critical for many infrastructure needs on an 
unnecessarily broad swath of land. We would suggest modifying this 
language to allow BLM to use its general segregation and withdrawal 
authority once lands have been identified for disposal.
Title II--Wilderness Areas
    The bill would designate a number of wilderness areas within 
Washington County including approximately 123,504 acres of wilderness 
to be managed by the National Park Service within Zion National Park, 
approximately 92,937 acres of wilderness to be managed by the BLM in 13 
individual areas, and 2,643 acres of Forest Service wilderness. In 
addition, the bill would release 11,370 acres of BLM-managed lands from 
Wilderness Study Area status and would return them to the multiple 
public uses authorized by the Federal Land Policy and Management Act 
(FLPMA).
    The BLM-managed lands that would be designated wilderness by S. 
3636 include areas of rugged beauty, solitude, and important wildlife 
habitat. In the northeastern part of the County, the proposed Deep 
Creek and Deep Creek North wilderness areas consist of sheer canyon 
walls dropping to dramatic year-round rivers. Hanging gardens with 
wildflowers compete with a variety of raptors; including bald eagles 
and giant California condors, for the hiker's attention. The steep and 
rugged Hurricane Cliffs form the most outstanding feature of the 
proposed Blackridge Wilderness. Soaring in elevation by 2,000 feet in 
under a mile, the area is a magnet for hikers, hunters and 
photographers.
    In the southeast, Canaan Mountain's rugged topography includes 
peaks and colorful vermilion cliffs which form the southern gateway to 
Zion National Park. The scenic vistas available from these peaks 
increasingly attract recreationists.
    Within the Red Cliffs National Conservation Area (NCA) proposed by 
Title VI of the bill, lie the proposed Cottonwood Canyon Wilderness on 
the east and Red Mountain Wilderness on the west. The Cottonwood Canyon 
Wilderness (and the adjoining Forest Service-managed Cottonwood Forest 
Wilderness) forms the spectacular ``front range'' between the city of 
St. George to the south and the Pine Valley Mountains to the north. 
Within minutes of downtown St. George, this area is prized for its 
primitive recreational opportunities. It lies within the Red Cliffs 
Desert Reserve, which has been federally designated as habitat to 
protect the threatened desert tortoise. It is also home to peregrine 
falcons and state-listed species such as the Gila Monster. The aptly 
named Red Mountain Wilderness provides a scenic backdrop to the 
communities of Ivins and Santa Clara and is a popular destination for 
local citizens.
    The bill also designates the Cougar Canyon Wilderness located in 
the northwest corner of Washington County. Abutting the Nevada state 
line, this wilderness area would connect with the Tunnel Spring 
Wilderness in Lincoln County, Nevada, designated by Public Law 108-424. 
The area is dominated by wooded canyons and low mountain peaks and its 
designation would form a more manageable unit across state lines.
    We applaud the hard work of the sponsor and other members of the 
Utah delegation in reaching consensus on BLM wilderness designation and 
WSA release. Congress has the sole authority to designate lands to be 
managed permanently as wilderness and we believe these areas are 
manageable as such. There are some technical issues related to Title II 
that we would like the opportunity to clarify. We would also like the 
opportunity to work with the sponsor and the Committee on possible 
minor boundary adjustments to ensure efficient manageability.
    S. 3636 would also designate 123,743 acres of Zion National Park as 
wilderness. The lands proposed for wilderness designation are similar 
to those that were included in a proposal to recommend wilderness for 
the park that was originally transmitted to the President on June 5, 
1974, by then Secretary of the Interior Rogers CB Morton and in the 
2001 General Management Plan (GMP) for the park. The 1974 proposal 
recommended designation of 120,620 acres of the park as wilderness.
    Differences in the acreage figures between the 1974 transmittal and 
S. 3636 are the result of land acquisition in the park that has taken 
place since 1974, acquisition of water and grazing rights, and 
termination of non-conforming uses. Additional lands within the park 
consisting of approximately 9,000 acres, but located in Kane County, 
have also been recommended for wilderness designation and were included 
in the 1974 transmittal and the 2001 GMP. Although the Department 
supports the wilderness designation for the park included in S. 3636, 
we suggest that the bill be amended to include this additional, 
previously recommended wilderness so that all the lands proposed for 
wilderness designation within the park are designated.
    The four small units surrounding Zion National Park vary in size 
from 32 to 663 acres. These are logical extensions of the proposed 
wilderness areas within Zion National Park and are appropriate for 
wilderness designation. The legislation transfers administrative 
jurisdiction for the largest of these parcels, Watchman Wilderness, to 
the National Park Service but leaves the other three isolated pieces of 
wilderness with the BLM. Transferring all three of these small 
parcels--Beartrap Canyon Wilderness (40 acres), Goose Creek Wilderness 
(98 acres), and Taylor Creek Wilderness (32 acres)--to the National 
Park Service could make land management more efficient and would reduce 
confusion for the public. Transfer of these lands to Zion will improve 
their management and enhance the opportunities for visitor enjoyment of 
these special areas.
Title III--Wild and Scenic River Designation
    The legislation amends the Wild and Scenic Rivers Act by adding 
approximately 170 miles of segments of the Virgin River and its 
tributaries within and adjacent to Zion National Park to the Wild and 
Scenic Rivers system. Seven of the segments are partially or wholly on 
BLM-managed lands while the remaining 32 segments are wholly within 
Zion National Park. All of the segments of the rivers that are 
recommended for designation as wild, scenic, or recreational rivers 
were found eligible and suitable for inclusion within the Wild and 
Scenic River System through the Zion National Park 2001 GMP and through 
the BLM St. George Field Office Resource Management Plan completed in 
March 1999. The Department supports the designation of these segments.
Title IV--Utility Corridors and Rights-of-Way
    Section 401 of the bill addresses a number of issues related to 
utility corridors, transportation corridors and rights-of-way grants 
for water-related facilities.
    The utility corridors established under section 401(a) total over 
900 linear miles at a width of approximately 1/2 mile in most 
locations. The corridors are intended to be used for utilities, water 
infrastructure, and transportation purposes. While many of the miles of 
corridors cross BLM-managed public lands and Forest Service-managed 
lands, large segments also cross private land, Indian tribal land, and 
land within Zion National Park. The proposal indicates seven segments 
that cross the Shivwits Indian Reservation. In addition, some of the 
corridors on the map appear to be duplicative. We believe a close and 
careful review of these corridors needs to be completed before this 
legislation proceeds to markup. We note that the Secretary is allowed 
to collect funds from the users of these corridors for cost-recovery, 
which we support.
    In addition, the Secretary is charged with identifying a 
transportation corridor either through or around the Red Cliffs NCA 
designated by Title VI of this bill. Location of a transportation 
corridor in this type of sensitive area could be problematic or 
controversial. The Department would comply with NEPA and would proceed 
in full consultation with all affected Federal, state and local 
interests on this study. We appreciate the legislative language being 
clear on this point.
    Finally, Title IV establishes ten areas totaling 8,844 acres as 
rights-of-way for water-related projects including reservoirs, canals, 
wells, storage and other related facilities. The areas range in size 
from 39 acres to two large areas of 1,770 and 5,408 acres. We have a 
few general concerns and one specific concern with these rights-of-way 
grants.
    Under Title V of FLPMA the BLM has the authority to grant rights-
of-way for a wide variety of uses including: roads, powerlines, 
pipelines, communications sites and reservoirs. The applicants for 
these rights-of-way pay both administrative cost recovery fees as well 
as rentals. In the case of linear rights-of-way, rent is determined by 
a published schedule. Rent for aereal rights-of-way is based on 
appraised value. Municipal utilities are charged rent if their 
principal source of revenue is customer charges.
    In general, the legislation appears to allow the BLM to charge 
administrative cost recovery for these grants; however it does not 
allow the BLM to charge rent. We believe it is appropriate that the 
legislation either allow for the payment of rent, or provide for the 
outright purchase at appraised value of these lands by the water 
district. In addition, the grants for use are made in perpetuity. If 
the rights-of-way are not provided for outright purchase, we believe it 
would be more appropriate to make these easements dependent on their 
actual use and approval by any State or Federal agencies and for the 
life of the facility--so as not to permanently encumber the public 
lands for projects that may never be developed.
    Our greatest specific concern is that one of the areas identified 
for a reservoir is in the Ft. Pearce area near the Arizona state line. 
A reservoir or flood control project on this site could inundate 
historic Ft. Pearce which is a National Historic Register site, as well 
as parking areas, a well-used designated OHV trail, interpretive 
displays and other important cultural sites including rock art panels. 
We believe that there are potential sites for flood control along the 
Ft. Pearce wash further upstream that would result in far less negative 
impacts to the resources. We would like to work with the Committee to 
identify a better site.
Title V--High Desert OHV Trail
    Title V directs the Secretary to develop a travel plan within two 
years of enactment of this legislation to designate an OHV trail in 
Washington County. The trail is to be established on existing roads and 
trails. This trail has the potential to be a significant draw for 
tourism and will allow visitors and residents another way to experience 
and enjoy their public lands while hopefully minimizing OHV use outside 
of designated trail networks. We support the development of this trail. 
The agencies would like to combine the final travel plan and the 
management plan into a single document and would request the sponsor 
extend the time for' developing the plan to three years.
Title VI--Red Cliffs National Conservation Area
    The Red Cliffs National Conservation Area (NCA) would be the first 
NCA in the State of Utah. Each of the NCAs designated by Congress and 
managed by the BLM is unique. However, for the most part, they have 
certain critical elements; these include public land, mining and 
mineral leasing law withdrawal, OHV-use limitations, and language that 
charges the Secretary to only allow those uses which further the 
purposes for which the NCA is established. Furthermore, NCA proposals 
do not diminish the protections that currently apply to the lands. The 
Red Cliffs NCA proposal honors this spirit and the Department supports 
its designation.
    The proposed Red Cliffs NCA would overlay the existing Red Cliffs 
Desert Reserve which was designed as a part of the Washington County 
Desert Tortoise Habitat Conservation Plan (HCP) adopted in 1996. The 
HCP protects important Desert Tortoise habitat while also allowing 
continued development in St. George and nearby communities. As 
directed, the BLM has acquired nearly 8,000 acres of State and private 
inholdings within the Reserve from willing sellers.
    In addition to providing important habitat for the recovery of the 
desert tortoise and other listed species such as the Shivwits milkvetch 
and the Woundfin Minnow and Virgin River Chub, the proposed NCA is a 
popular area for recreationists. Over 130 miles of trails provide 
excellent opportunities for hikers, mountain bikers, and equestrians 
while ensuring compatibility with the species' recovery. The boundaries 
of the proposed NCA include nearly 44,000 acres of BLM-managed land.
    There are significant cultural and historic resources within the 
NCA as well as the natural resources described in the legislation. We 
recommend that cultural, historic and paleontological resources 
protection be added to the purposes for which the NCA is established.
                               conclusion
    We would like the opportunity to work with the sponsors and the 
Committee to address the issues we have raised in our testimony along 
with some technical amendments. We applaud the hard work of the members 
of the Utah Congressional delegation on this legislation and we look 
forward to working with you to move the legislation forward.
                                S. 3772
    Thank you for the opportunity to testify on S. 3772, the White Pine 
County Conservation, Recreation, and Development Act of 2006. This bill 
attempts to resolve a wide range of public land issues in White Pine 
County, Nevada. We strongly support the efforts of Senators Ensign and 
Reid to resolve the longstanding issues surrounding Wilderness Study 
Areas (WSAs) and a number of other public land issues. The 
Administration supports many of the goals of the legislation but 
opposes the bill as written. We have concerns with the bill's revenue 
distribution and will work with the Committee during the legislative 
process to determine an appropriate percentage of proceeds to be 
returned to the Treasury. We also oppose Title VIII regarding the 
changes in the distribution of revenues under the Southern Nevada 
Public Land Management Act (SNPLMA), Public Law 105-263, and have 
concerns with the specific language of the proposed expansion of uses 
of SNPLMA funds and proposed revisions to SNPLMA's affordable housing 
provisions.
                               background
    White Pine County in eastern Nevada covers a sprawling 8,900 square 
miles with a population of just under 9,000 persons. The county seat of 
Ely and surrounding towns are home to the overwhelming majority of 
county residents. White Pine's high desert is truly wide open space. 
Ninety one percent of the county is owned by the Federal government, 
including 77 percent managed by the Bureau of Land Management (BLM), 
totaling nearly 4.4 million acres. Additional lands are managed by the 
Forest Service and the National Park Service through the Great Basin 
National Park.
Title I--Land Disposal
    Title I of S. 3772 provides for a process to dispose of up to 
45,000 acres of public lands out of BLM management and into private 
ownership. We support the general proposition of disposing of public 
lands to provide for community growth as appropriate, and we support 
identifying these lands through a public process.
    The bill calls for the potential disposal of lands that have been 
preliminarily identified for disposal by the BLM through its land use 
planning process. The Ely Resource Management Plan (RMP) is intended to 
be finalized in the spring of next year. The bill provides for the 
disposal of lands identified in this upcoming plan as well as 
subsequent amendments to the RMP. We support this disposal process as 
it allows for full public involvement in determining which lands are 
best transferred from public to private ownership. Section 101(h) 
provides that sales of the land shall begin one year following 
enactment of this Act. We recommend that this be modified to one year 
following completion of the Ely RMP. The BLM would undertake to 
complete all cultural and resource clearances, as well as appraisals 
and surveys, before any lands could be offered. for sale. In addition, 
specific decisions on which of lands already identified for disposal 
would be sold would be determined jointly by the BLM and the county, 
thus allowing the BLM to exclude any lands with newly discovered 
conflicts.
    We have concerns with the bill language on the use of sale 
revenues. Section 102 of S. 3772 addresses the disposition of the 
proceeds from the sale of lands directed in section 101. Specifically, 
it directs that 15 percent of the proceeds be distributed to State and 
county entities, while 85 percent would be retained by the Federal 
government. Among the allowed uses of the Federal government's share 
are: reimbursement of costs to prepare the lands for sale, the 
development and implementation of a multi-species habitat conservation 
plan for the county if determined necessary, and other costs related to 
implementation of the Act. Section 102(b) authorizes interest to be 
earned on amounts deposited into the special account. As stated above, 
we would like to work with the Committee to address our concerns with 
this section.
    In addition, the Administration does not support section 102(b), 
which allows any amounts deposited in the special account to earn 
interest. The Department of the Treasury strongly opposes such 
provisions, which effectively require the Treasury to borrow more funds 
to pay this interest.
Title II--Wilderness Areas
    The bill would designate a number of wilderness areas within White 
Pine County, including over 284,000 acres of BLM-managed lands and 
nearly 260,000 acres managed by the Forest Service. In addition, nearly 
68,000 acres of WSAs managed by the BLM would be released from WSA 
status and interim protection of their wilderness values under section 
603 of the Federal Land Policy and Management Act (FLPMA). Release will 
return these lands to non-wilderness multiple use. The BLM currently 
manages over 152,000 acres of WSA in White Pine County.
    The eight proposed wilderness areas to be managed by the BLM 
represent a broad range of topography. Mount Grafton at nearly 11,000 
feet soars over southern White Pine County and is the home for ancient 
bristlecone pines. High elevation basins in the Goshute Canyon area 
surrounded by massive peaks are filled with beautiful spring and summer 
wildflowers that add color to the dramatic landscape. Large open areas 
interspersed with pinyon and juniper provide excellent habitat for 
wildlife including mule deer, elk, and upland game birds such as sage 
grouse, blue grouse, and quail.
    Opportunities abound throughout the proposed wilderness areas for 
primitive and unconfined recreation, including hunting, fishing, 
hiking, caving, and camping. Backcountry visitors will have the chance 
to witness nature close up, whether on towering limestone cliffs, in 
beautifully decorated wild caves or within a soothing Aspen grove.
    The BLM supports the efforts of the Nevada delegation to arrive at 
boundaries through consensus and compromise. Congress has the sole 
authority to designate lands to be managed as wilderness and we believe 
these areas are manageable as wilderness. We would like the opportunity 
to work with the sponsors and the Committee on technical issues, 
including possible minor boundary adjustments to ensure the greatest 
manageability.
Title III--Transfers of Administrative Jurisdiction
    Section 301 of S. 3772 transfers approximately 645 acres of land 
from BLM management to the U.S. Fish and Wildlife Service for inclusion 
in the Ruby Lake National Wildlife Refuge. These lands are an inholding 
within the existing National Wildlife Refuge and are currently managed 
by the U.S. Fish and Wildlife Service under a memorandum of 
understanding with the BLM. This transfer would not alter any current 
uses of the lands and we fully support this transfer.
    Section 302 transfers approximately 117,000 acres from Forest 
Service management to BLM management, of which 62,500 acres will be 
part of the 70,000-acre Highland Ridge Wilderness area and the 
remaining 54,440 acres will become part of a new BLM-managed 
``withdrawal area.'' Some of the lands identified for transfer surround 
the Great Basin National Park in southeastern White Pine County 
(largely those identified as the ``withdrawal area'') while the 
Highland Ridge Wilderness lies to the south of Great Basin National 
Park. Administrative boundaries in this area are complex, with three 
Federal agencies providing management in one mountain range. This 
transfer would improve efficiency for the public and for regional 
resource management.
    The 54,440 acre ``withdrawal area'' envisioned by the bill would 
allow motorized and mechanized vehicles on roads and trails designated 
for this use and withdraw the lands from public land disposal and 
mining laws, as well as the mineral and geothermal leasing laws. All 
cooperative agreements currently in place would be continued by the 
BLM.
Title IV--Public Conveyances
    Section 401 provides for the conveyance of Federal land to the 
State of Nevada and White Pine County for three separate public parks 
and/or wildlife and natural resource areas. In all three cases, the 
state of Nevada would pay all costs associated with the transfers, and 
the bill includes a reversionary clause for the lands to revert to the 
Federal government if they are used for purposes other than those 
described in the legislation.
    Specifically, the BLM would transfer over 6,000 acres for the 
expansion of the Steptoe Valley Wildlife Management Area just southeast 
of Ely. The lands to be transferred surround the current 6,500-acre 
Wildlife Management Area. The Steptoe Valley Wildlife Management Area 
plans an expansion of the Commins Reservoir. This transfer would allow 
that expansion which will benefit the regional economy through improved 
hunting and fishing opportunities.
    Second, the bill proposes to transfer 658 acres from the BLM to the 
State of Nevada for the expansion of the Ward Charcoal Ovens State 
Park. South of Ely, the Ward Charcoal Ovens State Park is a popular 
recreation area with, at its centerpiece, six beehive-shaped historic 
charcoal ovens. Constructed in 1873, they began as a method of 
converting pinyon and other woods to charcoal for use in smelting 
operations and later saw a variety of other uses, including hideouts 
for stagecoach bandits. The lands to be transferred from the BLM are 
currently under a Recreation & Public Purposes (R&PP) lease to the 
State and this provision would simply transfer those lands. Transfer of 
these lands will allow for the fuller interpretation of local mining 
history and we support their transfer.
    The bill also proposes to transfer Forest Service lands for the 
expansion of Cave Lake State Park. We defer to the Forest Service 
regarding this provision.
    Section 402 provides for the conveyance to the county of not more 
than 1,500 acres for the expansion of the White Pine County Airport and 
not more than 200 acres for the expansion of the White Pine County 
Industrial Park. While the legislation does not specify which acres are 
to be transferred, the BLM in Nevada has been working cooperatively 
with White Pine County to identify both of these parcels and transfer 
of these lands. We generally could support this conveyance, but we 
believe the legislation should require that the county pay fair market 
value for these lands. Also, we would like to work with the sponsors 
and the Committee to identify the location of these parcels on a map. 
While the legislation transfers the lands without consideration, if the 
county sells, leases, or otherwise conveys the land, any proceeds would 
be distributed according to the 85/15 formula established in Title I of 
this bill. As discussed previously, we have concerns with the bill's 
revenue distribution and will work with the Committee during the 
legislative process to determine an appropriate percentage of proceeds 
to be returned to the Treasury.
Title V--Silver State OHV Trail
    Title V directs the Secretary of the Interior to complete a study 
of routes for the Silver State Off Highway Vehicle Trail. Following the 
study, the Secretary shall designate the trail if it is consistent with 
certain principles set out in the legislation, including that it is a 
continuation of the Silver State trail previously designated under 
Public Law 108-424 and that it will not have significant negative 
impacts on the natural and cultural resources. This trail has the 
potential to be a significant tourism attraction and will allow 
visitors and residents another way to experience and enjoy their public 
lands. We support the development of this trail, but we do not support 
using land sale funds to pay for these activities but instead prefer to 
go through the regular budgetary process.
Title VI--Transfer of Land to be held in Trust for the Ely Shoshone 
        Tribe
    The Ely Shoshone Tribe currently has a reservation totaling 
approximately 100 acres in two separate pieces. S. 3772 proposes to add 
four additional parcels of land, totaling 3,536 acres to the 
reservation. The largest of the four parcels, over two thousand acres, 
is reserved for ceremonial uses.
    Under the bill, the Federal government would take those lands, 
including improvements and appurtenances, into trust for the tribe. 
While the Department supports increasing the Tribe's land base, it 
opposes the title as written.
    The Department takes land, not improvements, in trust for a tribe. 
The Department does not have a trust obligation for improvements that 
are permanently fixed to real property. Therefore, ``, including any 
improvements on, and appurtenances to, the land'' in section 6(a) 
should be struck from the bill.
    In addition, the Department is concerned that title VI is not clear 
regarding which lands would be taken into trust for the Tribe. We 
recommend that a legal description of the land to be taken into trust 
be included in the legislation, rather than just being referenced on a 
map. This will ensure that there is no confusion regarding which lands 
are to be taken into trust.
Title VII--Eastern Nevada Landscape Restoration Project
    Title VII provides for the implementation and enhancement of the 
Eastern Nevada Landscape Restoration Project. The mission of the 
Eastern Nevada Landscape Restoration Project is to restore the dynamic 
and diverse landscapes of the Great Basin for present and future 
generations through collaborative efforts. These healed, diverse 
landscapes will be a result of restoration achieved and maintained with 
naturally occurring disturbances such as fire, in combination with 
other management prescriptions, including traditional uses.
    Under the bill, the Southern Nevada Public Land Management Act 
(SNPLMA) account would be the source of funding for the Eastern Nevada 
Landscape Restoration Project. We oppose the expansion of the funds' 
uses beyond the currently authorized uses in SNPLMA.
Title VIII--Amendments to the Southern Nevada Public Land Management 
        Act of 1998
    The Southern Nevada Public Land Management Act (SNPLMA) established 
a process for the orderly sale of Federal lands in the Las Vegas 
Valley. Under SNPLMA, 85 percent of the proceeds from land sales are 
deposited in a special Federal account for various uses including: the 
acquisition of environmentally-sensitive lands; the creation of parks, 
trails, and natural areas; capital improvements; conservation 
initiatives; multi-species habitat conservation plans; water studies; 
and Lake Tahoe restoration projects. Five percent of the proceeds are 
paid to the State of Nevada General Education Fund and 10 percent are 
paid to the Southern Nevada Water Authority.
    The revenue generated from SNPLMA land sales has greatly exceeded 
anticipated levels. To date, SNPLMA land sales have totaled nearly 
13,000 acres and have generated $3.032 billion in revenue and interest. 
Of this amount, approximately $436 million has been paid to the State 
of Nevada General Education Fund and the Southern Nevada Water 
Authority, while approximately $2.596 billion has been deposited in the 
Federal special account. Of the amount deposited in the special 
account, approximately $2.092 billion is available to the Secretary of 
the Interior to fund land acquisitions; capital improvements; 
conservation initiatives; parks, trails and natural areas; multi-
species habitat conservation plans; and Lake Tahoe Restoration 
projects. To date, approximately $2.120 billion, or 95 percent, of the 
funds available to the Secretary for these projects have been 
authorized for expenditure.
    Title VIII of S. 3772 proposes a number of changes to the use of 
SNPLMA's special account and use of the deposit in the Federal account 
from Federal land sales. Section 803 of Title VIII expands the use of 
the special account for specified projects and initiatives that benefit 
resources, improve infrastructure, and accommodate growth in Nevada. 
These projects include:

  <bullet> implementation of the multi-species habitat conservation 
        plan for Clark County, Nevada;
  <bullet> payments to the Southern Nevada Water Authority for 
        implementation of the ``Cash for Grass'' water conservation 
        program;
  <bullet> payments to the Southern Nevada Water Authority for water 
        quality improvement projects for the Las Vegas Wash, the Las 
        Vegas Bay, and Lake Mead;
  <bullet> development of parks by the State of Nevada in Clark County;
  <bullet> expansion of SNPLMA's parks, trails, and natural areas 
        provision to include the acquisition of the Ballardini Ranch in 
        Washoe County, Nevada, for a county park; and
  <bullet> development and implementation of a ten-year multi 
        jurisdictional hazardous fuels reduction and wildfire 
        prevention plan for the Lake Tahoe Basin and the Spring 
        Mountains.

    Other changes in Title VIII allow the BLM and other Federal 
agencies to more efficiently implement SNPLMA. Those changes include 
reimbursement for costs associated with clearing, protecting, and 
arranging for a sale, lease, conveyance, or disposal under SNPLMA, as 
well as expediting the transfer of funds to local entities. Finally, 
Section 804 of Title VIII rewrites the affordable housing provisions 
contained in SNPLMA that currently provide for the development of 
affordable housing in Nevada.
    The Administration opposes the proposed changes to SNPLMA. We 
oppose the reallocation of revenues that would provide a greater share 
of revenues to local entities such as the Southern Nevada Water 
Authority. We also have concerns with other provisions affecting the 
BLM portion of receipts, such as the low-income housing provisions, and 
the expansion of the kinds of activities on which BLM would be 
authorized to spend land sale proceeds.
    In addition, we oppose payments from the special account to the 
Southern Nevada Water Authority for the water conservation and water 
quality improvement initiatives that are proposed in sections 803(1)(x) 
and (xi) of Title VIII of the bill. As we have noted, SNPLMA already 
provides for the payment of 10 percent of revenue generated from land 
sales to the Southern Nevada Water Authority for local water projects. 
To date, these payments have totaled approximately $282 million, and 
additional revenue is guaranteed with future land sales.
    Finally, while we support the intent of making housing available to 
low-income families and individuals in the burgeoning southern Nevada 
area, we cannot support the affordable housing provisions included in 
section 804 of Title VIII. As written, we believe the legislation may 
actually discourage the development of affordable housing due to some 
of the administrative processes that are included.
    Over the past few years, the BLM has worked closely with other 
Federal agencies and local entities to implement the affordable housing 
provision contained in the existing subsection 7(b) in SNPLMA. The BLM 
is currently implementing the first affordable housing project in Clark 
County, Nevada under SNPLMA, and we understand that the State has plans 
for several other projects in both Clark County and Carson City, 
Nevada. The BLM has clear procedures in place to implement the SNPLMA 
affordable housing provisions and recently issued policies that 
increase the discount rates for land sales for such sales. The current 
law's requirements that BLM, the U.S. Department of Housing and Urban 
Development (HUD), and local and state governments have principal roles 
in affordable housing has been a fundamental reason for the progress to 
date. Changing these provisions of SNPLMA now may undermine our 
progress and complicate our efforts. We would like the opportunity to 
work with the sponsors and the Committee to resolve these concerns.
Title IX--Great Basin Heritage Route
    Finally, we note that the provisions relating to the Great Basin 
Heritage Route were part of S. 203, which was signed by President Bush 
on October 12, 2006, and became Public Law No. 109-338. For this 
reason, we recommend that Title IX be removed from the bill.
                               conclusion
    We would like the opportunity to work with the sponsors and the 
Committee to address the issues we have raised in our testimony along 
with a host of smaller, more technical and managerial amendments. We 
applaud the hard work of Senators Ensign and Reid in attempting to 
resolve a number of difficult public lands issues and we look forward 
to further refinement of this legislation.

    Senator Craig. Thank you very much.
    Now we'll turn to you, Joel. Please proceed.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, thank you for the opportunity to 
provide the Department's views on the bills that are on the 
agenda today. I will limit my remarks to those portions of each 
bill related to the National Forest System lands and will defer 
to the Department of the Interior on provisions relating to the 
lands managed by the Bureau of Land Management.
    Regarding S. 3636, in addition to provisions primarily 
affecting the BLM, this bill would establish 2,642 acres of 
National Forest Service System land as the Cottonwood Forest 
Wilderness, prescribe certain management objectives in the 
wilderness and provide for other management planning and 
conservation projects.
    The Department does not oppose the proposed wilderness 
designation. The bill includes various provisions regarding 
management within wilderness. The Department prefers to follow 
the provisions of the Wilderness Act of 1964 in administering 
wilderness.
    The Forest Service currently subjects proposed uses in 
wilderness to review on a case-by-case basis, allowing for 
cooperatively working with partners to balance use in 
compliance with the act.
    The Department does not oppose the provision that would 
require the Secretaries to enter into a cooperative agreement 
under which the State or its designee would carry out wildlife 
management activities in wilderness areas. The Forest Service 
recently signed a cooperative agreement with the Association of 
Fish and Wildlife Agencies and the BLM that outlines policies 
and guidelines for fish and wildlife management in wilderness 
areas, including protocols for managing non-conforming uses. 
This national agreement provides a mutually agreed upon method 
to address management issues and it would be our preference to 
develop any State agreement in accordance with it, to maintain 
a consistent approach.
    Regarding S. 3772, this is a complex land management bill 
with multiple provisions related to the Forest Service and BLM 
lands in White Pine County, Nevada. The Department recognizes 
that the bill sponsors have conducted extensive outreach and 
worked with several communities of interest in developing the 
various titles in the bill.
    Title II would designate 259,908 acres of wilderness on 
National Forest Service lands. The Department generally 
supports these wilderness designations although we have 
concerns that some of the boundaries would make the areas 
difficult to manage and could result in conflicts between 
motorized and non-motorized users. These areas include those 
that have pass-through and cherry-stemmed roads, that have 
small islands of land surrounded by wilderness that lack 
wilderness characteristics, and that split administration 
between the Forest Service and BLM.
    We would like to work with the committee and bill sponsors 
to modify the proposed wilderness boundaries.
    For the most part, the Department does not object to the 
standard wilderness provisions in the bill.
    However, the Department objects to or does not support 
provisions in title II regarding aircraft use and water 
development projects in wilderness for wildlife management. The 
Department should have the discretion whether to review and 
approve any potential aircraft landings or water development 
installation cooperatively with partners.
    This approach allows for administration of the National 
Wilderness Preservation system in accordance with the 
Wilderness Act of 1964 and is consistent with the National 
Cooperative Agreement with the Association of Fish and Wildlife 
Agencies.
    The Department also objects to the title II provision 
regarding a cooperative agreement between the State of Nevada 
and the Bureau of Land Management for wildlife management.
    Portions of this agreement are not consistent with Forest 
Service wilderness management policy and the Forest Service is 
not a party to this agreement.
    Title III would transfer administrative jurisdiction over 
117,528 acres from the Forest Service to the BLM. This transfer 
would consolidate the administration of land surrounding the 
Great Basin National Park from two agencies to one, eliminating 
a ring of National Forest System land surrounding Great Basin 
National park, which is in turn, surrounded by BLM lands. The 
current situation makes the lands difficult to manage because 
of inconsistent management objectives and is a source of some 
confusion to the public.
    Although the Department generally does not support the 
transfer of National Forest System lands without compensation 
or reciprocity, in this case, the transfer makes sense from an 
administrative standpoint. Because the transfer will provide 
for consistent management under continued Federal stewardship 
with continuation of existing uses, the Department does not 
object to it.
    Title IV would convey an unspecified amount of National 
Forest Service land to the State of Nevada for no consideration 
to expand Cave Lake State Park. The Department opposes the 
transfer of land to the State for no consideration.
    Thank you for the opportunity to discuss both of these 
bills and I'm happy to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the Department's views on the bills which are on 
the agenda today. I will limit my remarks to the provisions of each 
bill related to National Forest System lands and will defer to the 
Department of the Interior on provisions relating to the lands managed 
by the Bureau of Land Management.
                                S. 3636
         Washington County Growth and Conservation Act of 2006
    This bill pertains to various aspects of Forest Service (FS) and 
Bureau of Land Management (BLM) lands in Washington County, Utah. It 
would authorize conveyance of BLM lands and provide for the 
distribution of the proceeds for various public purposes described in 
the bill including implementation of provisions of the legislation. The 
bill would establish new wilderness areas, including 2,642 acres of 
National Forest System land as the Cottonwood Forest Wilderness, 
provide for trail maintenance, travel management planning, and 
conservation projects, establish the High Desert Off Highway Vehicle 
Trail, and prescribe certain management objectives in wilderness areas 
designated in this bill.
    The Department does not oppose the proposed designation of 
approximately 2,642 acres of National Forest System Land as a component 
of the National Wilderness Preservation System to be known as 
``Cottonwood Forest Wilderness,'' although we have concerns regarding 
some of the bill's provisions.
    The Department does not oppose this wilderness designation. The 
area is scenic, rugged, and has a rich diversity of narrow canyons that 
provide the public with excellent opportunities for solitude and 
primitive recreational experiences. The area is also special by virtue 
of its location adjacent to a desert tortoise reserve. In addition, the 
area is contiguous to BLM land that would be designated as the 
``Cottonwood Canyon Wilderness.'' However, while the Dixie National 
Forest has determined that the area is suitable for wilderness, it 
expects to recommend that the area be managed as ``Backcountry Area'' 
in its proposed revision to the forest plan. The proposed management 
scheme differs from wilderness because it would allow a mix of 
motorized and non-motorized recreation to take advantage of the unique 
recreation opportunities that exist in the area.
    The Department also requests an amendment to the bill to correct an 
error in Title II Wilderness Areas. The bill defines the term 
``Secretary'' as the Secretary of the Interior. Accordingly, under 
section 202(a), the Secretary of the Interior would manage the area of 
National Forest System lands designated as the ``Cottonwood Forest 
Wilderness'' by section 201(a)(5).
    The bill includes various provisions regarding management within 
wilderness. The Department prefers to follow the provisions of the 
Wilderness Act of 1964 in administering wilderness. For example, the 
Department objects to section 202(d)(4)(B), which would remove the 
President's discretion to authorize water resource development projects 
in wilderness, as provided in the Act. The Department also objects to 
the provisions in section 206(c), which would permanently authorize the 
State's use of aircraft in wilderness for wildlife management purposes, 
and 206(d), which would authorize wildlife water development projects. 
The Forest Service currently subjects proposed uses in wilderness to 
review on a case-by-case basis, allowing for cooperatively working with 
partners to balance use in compliance with the Act.
    Section 206(f) would direct the Secretaries to enter into a 
cooperative agreement under which the State or designee of the State 
would carry out wildlife management activities in wilderness areas 
designated by this title. The Department does not oppose this 
provision. The Forest Service has recently signed a cooperative 
agreement with the Association of Fish and Wildlife Agencies and the 
Bureau of Land Management that outlines policies and guidelines for 
fish and wildlife management in wilderness areas, including protocols 
for managing nonconforming uses (titled ``Policies and Guidelines for 
Fish and Wildlife Management in National Forest and Bureau of Land 
Management Wilderness'' and dated June 2006). It demonstrates a common 
understanding between the States and Federal agencies. The agreement 
also allows for similar State-specific agreements if needed. The 
Department believes that this national agreement provides a mutually 
agreed upon method to address management issues, and it would be our 
preference to develop any State agreement in accordance with it to 
maintain a consistent approach.
    Section 501 would direct the Secretaries to jointly complete a 
travel plan that identifies routes for the High Desert Off-Highway 
Vehicle Trail, would require the Secretaries to jointly designate the 
trail after the completion of the travel plan, and would direct the 
development of a management plan, and monitoring of the trail. The 
Department does not oppose the trail designation, although it is 
concerned about the costs of repairing constructing the trail. Work on 
this trail has not been a priority for the Forest. The Department is 
also concerned about the requirement to develop a management plan. The 
Forest is conducting forest-wide travel management planning to be 
completed in 2007. The management plan required by the bill could be 
duplicative of the current travel management planning process and could 
circumvent that process which would take into account public comment 
and balancing interests to provide an integrated plan for the forest as 
a whole.
                                S. 3772
White Pine County Conservation, Recreation, and Development Act of 2006
    S. 3772 is a complex land management bill with multiple provisions 
related to Forest Service and Bureau of Land Management (BLM) lands in 
White Pine County, Nevada. The provisions related to the Forest Service 
include establishment and expansions of, and adjustments to designated 
wilderness areas, resulting in nearly 260,000 acres of new National 
Forest wilderness with associated management prescriptions.
    S. 3772 would transfer 117,528 acres of land surrounding Great 
Basin National Park from the FS to the BLM. It would transfer an 
unknown number of acres from the Forest Service to the State of Nevada 
for expansion of Cave Lake State Park. The bill authorizes a study for 
potential creation of the Silver State Highway Off-Highway Vehicle 
Trail and also establishes the Great Basin National Heritage Route. It 
amends the Southern Nevada Public Land Management Act (SNPLMA) to 
provide funding to carry out research and landscape restoration 
projects related to the Great Basin Restoration Initiative.
    The Department recognizes that the bill's sponsors have conducted 
extensive outreach and worked with several communities of interest in 
developing the various titles in the bill. Our comments follow in order 
of the titles.
    Title I relates to disposal of BLM lands, and we defer to the 
Department of the Interior on this and other provisions related to the 
BLM.
    Title II would designate 259,908 acres of wilderness on Forest 
Service lands: five new wilderness areas totaling 240,713 acres, and 
expansion and adjustments to two existing wilderness areas totaling 
19,195 acres. The Department generally supports the wilderness 
designations, although we have concerns that some of the boundaries 
would make the areas difficult to manage and could result in conflicts 
between motorized and non-motorized users. These areas include those 
that have pass-through and ``cherry-stemmed'' roads, that have small 
``islands'' of land surrounded by wilderness, that lack wilderness 
characteristics, and that split administration between Forest Service 
and BLM.
    We would like to work with the committee and bill sponsors to 
modify the proposed boundaries to better align with administrative 
boundaries, to preserve wilderness characteristics, and to reduce the 
potential for conflicts between motorized and non-motorized users.
    Sections 205, 206, and 207 include various wilderness management 
provisions. For the most part, these are standard provisions the 
Department does not object to. However, the Department objects to 
section 204(d)(5)(B), which would remove the President's discretion to 
approve water resource development in wilderness, as provided in the 
Wilderness Act of 1964.
    The Department also does not support section 209(c) regarding use 
of aircraft and section 209(d) regarding water development projects in 
wilderness for wildlife management. The current approach to aircraft 
landings in wilderness subjects proposed aircraft landings to review 
and approval on a case-by-case basis, which allows the Department to 
work cooperatively with partners to balance use in compliance with the 
Wilderness Act of 1964. In similar fashion, the Department should have 
the discretion whether to review and approve any potential water 
development structure or facility prior to installation. This approach 
provides for efficient administration of the National Wilderness 
Preservation System and is consistent with the recently revised 
document ``Policies and Guidelines for Fish and Wildlife Management in 
National Forest and Bureau of Land Management Wilderness'', approved by 
the Forest Service, Bureau of Land Management, and the Association of 
Fish and Wildlife Agencies in June 2006.
    Section 209(f) references a cooperative agreement between the State 
of Nevada and the Bureau of Land Management regarding wildlife 
management activities in wilderness areas designated in the bill. 
Portions of this agreement are not consistent with Forest Service 
wilderness management policy, and the Forest Service is not a party to 
this agreement. Thus, the Department objects to this provision. The 
Forest Service would prefer to continue to work cooperatively with 
others under the above-referenced Policies and Guidelines document, 
which was amended in June 2006.
    Title III would transfer administrative jurisdiction over 117,528 
acres from the Forest Service to the BLM. This transfer would 
consolidate the administration of land surrounding Great Basin National 
Park from two agencies to one, eliminating a ring of National Forest 
System land surrounding Great Basin National Park, which is in turn 
surrounded by BLM lands. The current situation makes the lands 
difficult to manage because of inconsistent management objectives, and 
is a source of some confusion to the public. The transfer would allow 
for a continuation of current uses under existing permits or 
cooperative agreements.
    Although the Department generally does not support the transfer of 
Forest Service lands without compensation or reciprocity, in this case 
the transfer makes sense from an administrative standpoint. Because the 
transfer will provide for consistent management under continued Federal 
stewardship with continuation of existing uses, the Department does not 
object to it.
    For similar reasons, the Department would ask the bill sponsors and 
the Committee to consider two additional transfers of administrative 
jurisdiction from the BLM to the Forest Service to consolidate the 
administration of proposed Bald Mountain and Mount Moriah wilderness 
additions. The transfer would result in land boundaries that are easier 
to survey and manage. We would like to work with the Committee and the 
bill's sponsors on amendments to further this idea.
    Title IV would convey Forest Service land to the State of Nevada 
for no consideration to expand Cave Lake State Park. The amount of 
acreage is left blank in the bill text. The benefits of this transfer 
are not apparent. The Department opposes the transfer of land to the 
State for no consideration.
    Title V authorizes both Secretaries to study routes for the Silver 
State Off-Highway Vehicle Trail. The majority of this proposed route 
would cross Bureau of Land Management lands, and we support working 
with that agency on the study. We defer to the Department of the 
Interior regarding additional statements concerning the earmarking land 
sale funds to pay for the construction of the trail.
    Title VI would transfer land from the BLM to be held in trust by 
the United States for the benefit of the Ely Shoshone Tribe. The 
Department defers to the Department of the Interior on this provision.
    Title VII would authorize funding through the SNPLMA to support the 
Eastern Nevada Landscape Restoration Project, which would restore 
rangeland and other land, including reducing hazardous fuels, in White 
Pine and Lincoln Counties. It would also authorize grants to and 
cooperative agreements with the Eastern Nevada Landscape Coalition and 
the Great Basin Institute for the study and restoration of these lands. 
We defer to the Department of the Interior regarding this Title.
    The Department fully supports efforts to restore landscapes, using 
scientific study to determine the most effective approaches to 
restoration and utilization of woody biomass. A number of efforts are 
currently focused toward this end, including those by the Forest 
Service's Fire Science Laboratory in Missoula Montana, the Forest 
Service Rocky Mountain Research Station, and the interagency Joint Fire 
Science Program.
    Title VIII would authorize the expanded use of funds in the special 
account established under SNPLMA. The Department defers to the 
Department of the Interior regarding the proposed changes to SNPLMA. In 
general, the Administration opposes changes to current land sale 
authorities that do not ensure a significant portion of those proceeds 
are returned to the Treasury to benefit all taxpayers.
    Title IX would establish the Great Basin National Heritage Route. 
We note that this section is now part of Public Law 109-338, enacted 
into law on October 12, 2006. For this reason, we recommend that Title 
IX be removed from the bill. We look forward to working with the 
National Park Service and the local coordinating entity on implementing 
this Heritage Route, particularly where it concerns National Forest 
System lands.
    Thank you for the opportunity to discuss both S. 3636 and S. 3773. 
I am happy to answer any questions that you have at this time.

    Senator Craig. Well gentlemen, thank you both very much. I 
have a couple of questions that we will want answered and then 
I may have additionally ones for the record. We will certainly 
work with both agencies as this legislation moves forward to 
fine-tune it to some of your suggestions.
    Chad, I understand you support the phase I land disposal in 
the Washington County bill. How many acres are included in this 
and what is their principle or their potential value?
    Mr. Calvert. Yes, in phase I, which we call it phase I--
it's actually designed in the bill as the sale of 4,000 acres, 
roughly 1,175 acres have already been identified for disposal 
in the local land use plan.
    Those should be relatively simple to transfer via direct 
sale. We don't actually have an estimate--I'm sorry, 1,125 
acres--we don't have an exact appraisal for the property but 
based on local land use values, it would exceed $20 million, 
$20 to $40.
    Senator Craig. Okay, how do you envision the process to 
identify lands for disposal under phase II and phase III of 
this bill?
    Mr. Calvert. The BLM generally prefers to use the local or 
the land use planning process to identify lands for disposal. 
We do that in order to know what is on the property, to go out 
and do surveys, actual formal surveys of the property prior to 
conveying out of Federal estate. We would envision that we 
would go through that process and it's actually a process that 
is laid out in the White Pine County bill.
    Senator Craig. Okay. What is your estimate now as to how 
this bill will affect current management of public lands in the 
county?
    Mr. Calvert. Are you asking about Washington County, that 
bill?
    Senator Craig. I am.
    Mr. Calvert. It shouldn't affect the management of Federal 
lands in the county to the extent that their designation is not 
changed. Where they have become designated as wilderness, 
clearly they will be managed that way and there is some 
properties that are currently Wilderness Study Areas that would 
become wilderness areas and they are not managed exactly the 
same. So there may be instances where land use would be more 
restricted in those areas where it is conveyed out of the 
Federal estate. We would no longer be managing it. Beyond that, 
the bill itself shouldn't affect the management of remaining 
Federal lands in the area.
    Senator Craig. Joel, I see this bill and I'm talking about 
the Cottonwood Forest Wilderness proposal and the Dixie Forest. 
This bill would legislate a relatively small 2,642 acres of 
wilderness to be called the Cottonwood Forest Wilderness. Is 
this area recommended for wilderness in the current Dixie 
Forest Land Management Plan?
    Mr. Holtrop. The current Dixie Forest Land Management Plan 
is a 1986 plan and it did not recommend any areas for 
wilderness in this area but because it is a 1986 plan, we're 
currently involved in a revision of that and we're pretty close 
to being able to come out with that revision and it is likely 
that there will be some wilderness recommendations in that plan 
in the areas already that have already been determined to be 
suitable for wilderness and there is some deliberations in the 
planning process.
    Senator Craig. Is it possible to keep 2,642 acres in a 
wilderness character?
    Mr. Holtrop. Well, I think in this case, it's possible to 
do so. It would be immediately adjacent to a BLM wilderness and 
I think given, as I understand, the lay of the land there, I 
think it is possible that there is other wilderness nearby as 
well.
    Senator Craig. Okay. I've seen our Utah Forest Organization 
map recommending virtually all of the Pine Valley District of 
the Dixie National Forest to be included in wilderness. The 
Utah Forest Organization is a coalition of a number of groups, 
including Southern Utah Wilderness Alliance, the Wilderness 
Society and the Wild Utah Project and other groups. Could you 
tell me how many acres of the Pine Valley District are proposed 
for wilderness or in inventoried roadless areas?
    Mr. Holtrop. The Pine Valley Ranger District is around 
460,000 acres, of which about 50,000 is already designated 
wilderness. Of the remaining, there is a little over 200,000 
acres that is inventoried roadless area.
    Senator Craig. Okay, so better than half is currently being 
managed as wilderness?
    Mr. Holtrop. Over half is either already designated 
wilderness or is an inventoried roadless area.
    Senator Craig. If the entire district were to be made into 
a wilderness, would there be any need for a district office in 
St. George?
    Mr. Holtrop. Well, obviously we always look at our 
administrative needs based on public and administrative needs 
but the fact that it would all be in wilderness, I don't think 
would automatically lead to a conclusion that there wouldn't be 
a need for an office there. There is a great deal of work. 
There is a workload that comes associated with managing 
wilderness. We have several other district offices around the 
country that are largely or completely wilderness with ranger 
district offices. I am familiar with a few of them out there on 
the Flathead National Forest in Montana, Moose Creek on the Nez 
Perce in Idaho and others around the country. So I don't think 
that designation alone would lead to a conclusion that there 
would need to be a district office in St. George.
    Senator Craig. Gentlemen, thank you very much for your time 
before the committee today. We will work with both of the 
agencies, as I said, to resolve any questions or boundary 
concerns there might be and I appreciate you being here today 
to testify. Thank you both.
    Let me call the second and last panel forward, please.
    We have been joined by the Senator from the State of 
Washington. Senator Cantwell, do you have any comments prior to 
this panel?
    Senator Cantwell. Mr. Chairman, I do have a comment. I will 
submit a statement for the record in hopes that we can get to 
some questions.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Mr. Chairman, and thanks to our witnesses who are here 
today to discuss these two complex wilderness bills.
    Wilderness is certainly a hot topic in the West with bills pending 
in Oregon, Idaho, California, Nevada, and Utah, as well as my home 
state, and I look forward to your testimony today.
    One of the many honors of being a Senator from Washington state is 
working to preserve and build on the legacy of the former chairman of 
this committee, Senator Scoop Jackson. Scoop was one of the architects 
and champions of the 1964 Wilderness Act, and facilitated passage of 
other landmark conservation bills such as the Land and Water 
Conservation Act and the Wild and Scenic Rivers Act. For the millions 
of Americans who enjoy their public lands protected under these laws, I 
thank him for his vision of preserving nature's grandeur in at least 
some parts of our vast nation.
    Besides serving on this important Committee, I have been honored to 
carry on this legacy by cosponsoring with Senator Murray the Wild Sky 
Wilderness Act. Wild Sky passed the Senate in July, 2005 for the third 
straight Congress, only to be held hostage once again in the House. 
Designation of this 106,000-acre wilderness area would protect 
wildlife, promote clean water, and preserve one of the last remaining 
stretches of lowland forest along the west flank of the Cascade 
Mountains.
    Wild Sky is also within a 90 minute drive for over two million 
Washingtonians, providing an accessible hiking experience for my 
constituents and also contributing to local communities. My own state 
enjoys a $200 million per year outdoor recreational industry.
    My constituents today have the same concerns that Scoop Jackson 
had--will they and their children one day have to chance to experience 
and appreciate what nature looks like in its pristine state?
    To see an ecosystem that hasn't changed in thousands or millions of 
years? To see nature ``untrammeled'' by humankind?
    The federal lands system has opportunities for all user groups, 
motorized and non-motorized, but wilderness affords opportunities not 
found on other public lands: a recreational experience free from the 
hustle and bustle, noise, pollution, and crowds that result from cars, 
roads, and other motorized vehicles.
    Wild Sky made clear to me the importance of working with local 
stakeholders and constituencies to craft bills that benefit multiple 
interests without sacrificing the quality of lands designated as 
wilderness. This is a delicate process and compromises are sometimes 
made to garner political support. But I believe we should not 
compromise on the ideals of the Wilderness Act or the environmental 
quality of the region at large.
    It is because of this belief that I'm concerned by concept of 
bundling wilderness protection with the sale or conveyance of public 
lands. Wilderness designation should not be used as a veneer to mask 
other provisions that undermine land conservation measures, or could 
not pass Congress on their own merit. I understand the need for 
counties and cities, especially in the rural west, to consolidate their 
land holdings and make careful decisions to plan for additional 
population and economic growth. But I ask that we consider carefully 
whether existing developable private land is really insufficient for 
this growth.
    The Washington County Growth and Conservation Act would direct the 
Bureau of Land Management to make available no less than 24,300 acres 
of public land for county development projects. The BLM, through their 
normal review process has not identified this land as suitable for 
sale. The required formal public review process has never been 
conducted. On top of this, the County's own chamber of commerce 
estimates that more than 200,000 acres of private land remain available 
for development within the county.
    To me, that leads to the question, what's the rush? Why not allow 
the BLM to proceed with their normal process for identifying and 
disposing of public land under the Federal Land Policy and Management 
Act? Why are we trying to rush this bill in last few days of the 109th 
Congress?
    These are questions I look forward to hearing answered in your 
testimony and would like to explore further over the course of this 
hearing.
    Thank you Mr. Chairman.

    Senator Craig. Thank you very much. Then let us turn to the 
panel. Our panelists today are made up of Brent Eldridge, 
commissioner, White Pine County, Nevada; Jerry Greenberg, vice 
president of The Wilderness Society in Madison, Wisconsin; Alan 
Gardner, commissioner, Washington County, Utah; and Peter 
Metcalf, president, Black Diamond Equipment, Limited, Board 
Member, Outdoor Industry Association, Salt Lake City, Utah.
    Commissioner Eldridge, we'll start with you. If you would 
turn your mic on and please proceed.

          STATEMENT OF BRENT ELDRIDGE, COMMISSIONER, 
                     WHITE PINE COUNTY, NV

    Mr. Eldridge. Thank you, Senator Craig, members of the 
subcommittee, for holding this hearing today on S. 3772, the 
White Pine County Conservation, Recreation and Development Act 
of 2006. On behalf of the White Pine County Commission, I'm 
pleased to be here today to provide our testimony on the bill. 
We appreciate the time and effort the committee and staff, 
Senator Reid and their staff have committed to development of 
this bill.
    I would first like to state that I am a fourth generation 
rancher in White Plain County. My great-grandfather came to the 
area in 1892, got involved in agriculture and for the last over 
100 years, we've been there in ranching and agriculture. I was 
one of the ranchers who first dealt with wilderness in White 
Pine County as an agricultural person and I felt that the one 
area designated on Mount Moriah in the 1980's was adequate. Not 
until I had a chance to ride some other ranges in White Pine 
County with some friends in about 1996, did I realize what was 
happening to our mountains.
    Five friends and I rode the Shell Creek Range, Upper 
Canyon, where I had never been before but my friends had gone 
many times. We found ORV, degradation--that was beyond what it 
should be in our high, fragile mountain and my friend turned to 
me at the time we looked over this meadow that had numerous ATV 
tracks through it. He said, if we're going to save this 
mountain, we have to do something about designation. That's 
when I got heavily involved. I was also subsequently elected to 
the White Pine County Commission and I, for the last 4 years, 
worked very hard at arriving at a recommended bill that would 
serve the needs of all of the people of White Pine County, 
including wilderness advocates.
    White Pine residents have devoted hundreds of hours in our 
efforts to develop our proposal for the public lands bill. Our 
commission and advisory boards have discussed various aspects 
of the potential bill on a monthly basis over the past 2 years. 
We've held workshops, spent hours reviewing maps with ranchers, 
agency staff, recreationists and others interested and 
conducted tours of the proposed projects. We've appreciated the 
working relationship we've developed with the representatives 
of the Wilderness Coalition and we're proud of our citizens and 
their commitment to reach consensus on the many and varied 
issues that rest in the bill.
    The county commissioners asked me to report to you that we 
support the overall concept of a public lands bill. The 
community has five critical issues we would like to see 
addressed in the final version of the bill and we have numerous 
recommendations for minor changes in wording that we are 
submitting with our written testimony. The critical areas of 
concern remaining include one throughout the discussions in the 
proposed bill. The community's primary concern has been the 
need for extension of the water resources studies initiated 
with the BARCASS Project in the Lincoln County Conservation, 
Recreation and Development Act. There is a need for a transient 
water flow, ground water flow model for the Colorado flow 
system and the Great Salt Lake flow system. We believe it is in 
everyone's interests to have the best possible scientific 
information available for public review and comment.
    Two, the community has asked for limited access to the 
Southern Nevada Public Land Management Act capital improvement 
and conservation funds to establish a central Steptoe Valley 
Environmental Enhancement Project. White Pine County has 
experienced substantial residential growth in the central 
portion of Steptoe Valley, due in large part to the influx of 
southern Nevada residents purchasing and building summer and 
retirement homes. In addition to the majority of the use of 
recreation facilities owned by the State of Nevada, including 
the Steptoe Valley Wildlife Management Area and Cave Lake State 
Park comes from southern Nevada residents. We propose the $30 
million in Southern Nevada Public Land Management Act funding 
be set aside for the Central Steptoe Valley Enhancement Project 
for three purposes: renovation of the Comins Lake, a prime 
fishery that supports over 70,000 angler days of activity per 
year, and two, expansion of water and waste water treatment 
facilities to serve the growing residential areas in Steptoe 
Valley, reduce dependence on septic systems and potential for 
contamination of the area and provide adequate water sources 
for fire protection along the Ward Mountain foothills.
    Three, purchase sub-private land that includes sensitive 
habitat, contribute to environmental quality, open space and 
recreation. I'm not going to have time to get to all five 
points. I would just like to express a thank you for the 
opportunity to provide the testimony here and request that you 
look at our testimony in the record.
    [The prepared statement of Mr. Eldridge follows:]
          Prepared Statement of Brent Eldridge, Commissioner, 
                         White Pine County, NV
    On behalf of the White Pine County Commission, I am pleased to 
provide our written testimony on the White Pine County Conservation, 
Recreation, and Development Act, S. 3772. We appreciate the time and 
effort the Committee, its staff, Senators Reid and Ensign, and their 
staff have committed to development of this bill.
    White Pine County residents have devoted hundreds of hours in our 
efforts to develop our proposal for a Public Lands bill. Our Commission 
and advisory boards have discussed various aspects of a potential, bill 
on a monthly basis over the past two years. We've held workshops; spent 
hours reviewing maps with ranchers, agency staff, and recreationists; 
and conducted tours of the proposed projects. We've appreciated the 
working relationship we've developed with the representatives of the 
Wilderness Coalition and we are proud of our citizens and their 
commitment to reach consensus on the many and varied issues addressed 
in the bill.
    The County Commission has asked me to report to you that we support 
the overall concept of a public lands bill; the community has five 
critical issues we would like to see addressed in the final version of 
the bill.
    The critical areas of concern remaining include:

          1. Throughout the discussions in the proposed bill, the 
        community's primary concern has been the need for extension of 
        the water resources studies initiated with the BARCASS Project 
        in the Lincoln Conservation, Recreation, and Development Act. 
        There is a need for transient ground water flow models for the 
        Colorado Flow System and the Great Salt Lake Flow System to 
        fully understand the water resources for both eastern Nevada 
        and western Utah. We do not view the request for additional 
        funding to continue the water studies as antagonistic to the 
        Groundwater Development Project proposed by southern Nevada. As 
        the West deals with the demand for water and the balance 
        between urban and rural needs as well as environmental concerns 
        and economic growth, we believe that it is in everyone's 
        interests to have the best possible scientific information 
        available, developed through the public sector, and available 
        for public review and comment. To date, there are no provisions 
        for additional water studies in the White Pine bill.
          2. The community has asked for limited access to the Southern 
        Nevada Public Land Management Act Capital Improvement and 
        Conservation funds to establish a Central Steptoe Valley 
        Environmental Enhancement project, White Pine County is 
        experiencing substantial residential growth in the central 
        portion of Steptoe Valley due in large part to the influx of 
        southern Nevada residents purchasing and building summer and 
        retirement homes. In addition the majority of the use of 
        recreation facilities owned by the State of Nevada including 
        the Steptoe Valley Wildlife Management Area and Cave Lake State 
        Park comes from Southern Nevada residents. The residential 
        growth and recreation activity do not provide enough additional 
        local tax revenues to address their impacts. We feel it is 
        critical and appropriate to use SNPLMA funding to protect the 
        environment and recreational activity in Central Steptoe 
        Valley. We propose that $30 million in SNPLMA funding be set 
        aside for the Central Steptoe Valley Environmental Enhancement 
        Project for three purposes: 1) Renovation the Comins Lake Dam. 
        The Lake is a prime trout fishery that supports over 70,000 
        angler days' of activity per year and the Department of 
        Wildlife reports that the use is 70 percent from Southern 
        Nevada residents. It is located 6 miles south of Ely and the 
        dam supports a portion of U.S. Highway 50. It has been surveyed 
        by Nevada Department of Transportation engineers and is in need 
        of immediate repair. 2) Expansion of water and waste water 
        treatment facilities to serve the growing residential areas in 
        Steptoe Valley, reduce dependence on septic systems and 
        potential for contamination of the area, and provide adequate 
        water sources for fire protection along the Ward Mountain 
        foothills. 3) Purchase of private land that includes sensitive 
        habitat to contribute to environmental quality, open space, and 
        recreation.
          3. The community has been extremely concerned about the 
        provisions in Title VIII providing hundreds of millions of 
        dollars for projects in both urban areas of the state: the Las 
        Vegas Wash Waste Water Conveyance System, the Southern Nevada 
        Water Authority Cash for Grass Program, the Tahoe Basin 
        Restoration Project, the purchase of private land for a park in 
        Washoe County, and providing Nevada State Parks Division with 
        access to SNPLMA funds for development of parks located in 
        Clark County. At the same time, under the current version of 
        the bill White Pine County would have no access to the SNPLMA 
        account for projects that will benefit the environment and 
        recreational attractions which receive the majority of their 
        use from Southern Nevada residents. Much of the growth 
        currently being experienced by Clark County has been 
        facilitated by the access to federal lands for disposal without 
        the requirement to determine available water resources to 
        support that growth. Now, Southern Nevada Water Authority is 
        seeking to export all of the available water from Spring Valley 
        and much of the available water from Snake Valley to the 
        potential detriment of White Pine County's environment, 
        economic activity in the eastern portion of the County, and the 
        Great Basin National Park. White Pine County residents believe 
        that it is only right that we should have access to a portion 
        of the fund.
          4. The most controversial aspect of the bill for White Pine 
        County has been the Tribal Proposal outlined in Title VI. The 
        proposal would convey hundreds of acres south of Ely to the Ely 
        Shoshone Tribe. Residents in the area feel betrayed by the 
        federal agencies that proposed the specific acreage to the 
        Tribe, because they felt they were assured that the land would 
        not be recommended for development due to environmental and 
        jurisdictional concerns. State agencies have expressed strong 
        concerns that concentrated development on those lands could 
        result in negative environmental impacts to the Wildlife 
        Management Area adjacent to it. The Ely City Council feels 
        strongly that the proposal interferes with the ability for the 
        City to expand. The City Council and County Commission 
        recommended alternatives that would allow expansion of Tribal 
        residential and commercial activity while avoiding the 
        potential for negative environmental impacts. The staff 
        recommendation has been to negotiate with the Tribe to develop 
        an agreement to adhere to County zoning and planning standards. 
        The Tribal Chairman expressed willingness to approach the 
        Council about the potential of an agreement, but it has gone no 
        further. The County Commission asks that the concerns of all 
        citizens of the County be taken into account and the proposal 
        supported by the local governments should be reconsidered.
          5. In outlining the proposed wilderness areas, the County 
        asked that the criteria include avoiding any actively used 
        roads, negative impact to traditional uses of the land, and 
        avoidance of areas with evidence of mineral potential. The 
        Wilderness Coalition honored that request and made every effort 
        to exclude areas with active mining claims. However, the mining 
        industry has recently expressed strong opposition to the 
        proposal to include land in wilderness areas that did not have 
        a full mineral inventory as a Wilderness Study Area. We 
        continue to receive calls from miners and mining companies 
        concerned about claims within proposed wilderness areas. The 
        County Commission would appreciate consideration of language to 
        allow boundaries of proposed wilderness areas to be adjusted to 
        accommodate active mine claims and documented mineral resources 
        that may have been included within the designated wilderness 
        areas.

    The County Commission has additional requests for changes in 
wording throughout the bill that we feel will support the goals of 
conservation, recreation and development.
Title I--Land Disposals
    1. The County supports the disposal of up to 45, 000 acres of land 
but would prefer to increase that amount if possible.
    2. The Ely District Resource Management Plan has not been approved. 
If an approved RMP is required to make ``the land available'' for 
disposal and there is a delay in the approval process, it could mean a 
delay in being able to access the land. Possible changes in wording: 
Page 4, (b) Description of Land, 2) (A) ``In Conformance with approved 
Land Use Plans, (B) Ely Resource Management Plan, (C) A subsequent 
Amendment to the Management Plan.
    3. Allowed uses of the 10 percent to go to the County: add ``Land 
Use Planning'' as well as Natural Resource Planning.
    4. Uses of the Special Account.
          a. Add, any environmental studies and surveying required for 
        the transfer of 200 acres for Industrial Park and Airport 
        expansion to the County.
          b. Processing Wilderness Designations, the bill covers 
        fencing, signage, public education, and enforcement. Is it 
        implied that the funds can be used for writing the wilderness 
        management plans or for monitoring Compliance or should those 
        two activities also be spelled out?
          c. Costs of conveyance of land to the State of Nevada.
Title IV--Pubic Conveyances
    1. The sale of 200 acres of Industrial Park land, at $15,000 per 
acre would result in $3 million in land sales. Using the 85/10/5 
formula, the County would receive $300,000, the state would get 
$150,000 and the Special Fund would get $2.55 million. The additional 
acreage requires streets, water, and sewer services to provide usable 
industrial sites. The land sales have to precede the funding but the 
infrastructure is critical to attract businesses to locate in the park. 
The $300,000 will not cover the development costs, and the County will 
be dependent on grants to try to make the land usable. As written, the 
provision won't help the County provide reasonably priced, full service 
industrial property to help attract new industry.
    2. The Industrial Park Review Board finds that potential buyers are 
more comfortable with buying the property through N.R.S. 244.2815 
instead of a public auction. The bill requires a competitive bid. This 
may make it more difficult to sell the property. It might be beneficial 
to ask if they could consider allowing the County to sell the land 
under the processes allowed through the N.R.S.
Title V--Silver State Trail
    1. Add the language, NEPA processes in place of studies of the 
proposed route.
    2. Add ``Traditional Uses'' as one of the categories of potential 
negative impacts.
    Again, thank you for the opportunity to provide written comment and 
testimony on the proposed bill. I would be happy to answer any 
questions you may have about the process used to develop the County's 
proposals and the concerns remaining in the community.

    Senator Craig. Commissioner, thank you very much for that 
recognition. Your full statement will be a part of the record. 
I will have a couple of questions for you.
    Now let me turn to Jerry Greenberg, vice president of The 
Wilderness Society.

        STATEMENT OF JERRY GREENBERG, VICE PRESIDENT OF 
                     THE WILDERNESS SOCIETY

    Mr. Greenberg. Chairman Craig, members of the subcommittee 
and staff, thank you for the opportunity to testify today. I am 
here representing Friends of Nevada Wilderness, The Nevada 
Wilderness Project, Campaign for America's Wilderness, Red Rock 
Audubon Society and The Wilderness Society.
    First, I would like to thank Senators Ensign and Reid and 
their staffs for the hard work on this legislation. This bill 
has been 5 years in the making and during that time, we 
attended countless meetings and numerous public hearings with 
local officials, ranchers, off-road vehicle users, agency 
staff, sportsmen and women and staff from the congressional 
delegation. Throughout, participants came together in good 
faith to work through some very good, difficult and complicated 
issues and in so doing, have bridged the gap between what had 
been historically polarized viewpoints. This inclusive process 
and hard work has resulted in a bill that would designate 13 
new wilderness areas while adding lands to two existing 
wilderness areas, totaling some 545,000 acres. By any measure, 
this represents significant gains in wilderness protection. Yet 
even as we support these wilderness designations, we also 
believe important areas should be added, specifically the 
central portion of the South Even Range WSA, the Blue Mass 
Mountains and the Antelope Range. We will continue to work with 
local interests and the designation to add these special places 
to the bill.
    With respect to land disposal, we believe that decisions on 
which lands should be identified for sale should be made with 
extensive public involvement. We are pleased that the bill does 
that by deferring to the Bureau of Land Management's current 
land use planning process.
    Through this planning process, the draft Resource 
Management Plan or at least in 2005, identified about 23,000 
acres for potential disposal in White Pine County. Based on 
this, we would recommend that the 45,000 acres in section 
101(b) of the bill be reduced to reflect the acreage figure 
currently identified by the agency.
    With respect to allocation of proceeds from land sales, we 
recognize that Nevada has unique laws regarding such 
allocation. However, we also believe that proceeds from the 
sale of public land should, as a matter of good conservation 
policy, be used primarily for conservation purposes.
    Before closing, I would like to take a minute to address 
the differences between the White Pine County bill and the 
other bill we're hearing today, the Washington County bill. 
Part of my job with the Wilderness Society is to ensure that 
the organization is consistent in its approaches and positions 
on wilderness legislation. In urging passage of White Pine with 
the changes we have requested today, while advocating for 
Washington County not to pass in its current form. I believe we 
are doing exactly that, being consistent. The two bills are 
very different from each other.
    On wilderness, the White Pine bill would designate 545,000 
acres of ecologically critical lands, much of which is under 
threat from inappropriate ATV use and other development. 
Meanwhile, the majority of the wilderness that would be 
designated in the Washington County bill is located within Zion 
National Park and is therefore largely free from development 
threats. At the same time, most of the ecologically sensitive 
lands in the county that are right now under threat from 
inappropriate off-road vehicle use are left out of the bill.
    With respect to land disposal, in both bills, we believe 
the acreage identified is excessive. Having said that, there 
are significant differences in the way the two bills handle 
land disposal. The Washington County bill mandates that the 
lands be sold and moreover, that they be sold outside of the 
public process inherent in the development of a resource 
management plan.
    The White Pine bill does not. Instead, it defers to the 
BLM's current RMP process for determining which public lands 
are appropriate for sale. The Washington County bill would sell 
ecologically important lands, including highly sensitive desert 
tortoise habitat. The White Pine County legislation would not 
sell ecologically sensitive lands.
    Finally a word on the process behind each bill. Virtually 
everyone involved in the discussions leading up to the White 
Pine bill agrees that the process was open, inclusive and fair. 
In Washington County, there is widespread disagreement among 
those who took part about how fair and open the process has 
been. This is one of the main points that I and the president 
of the Wilderness Society have made directly in discussions 
with Senator Bennett and his staff and I do want to acknowledge 
and thank the Senator and his staff for how open they have been 
in talking about our disagreements. I believe there is 
opportunity to continue these discussions in the next Congress 
and find ways to come to agreement.
    In closing, we hope the subcommittee will give our comments 
and suggested bill improvements very serious consideration. 
With the improvements recommended in our testimony, we believe 
that the White Pine County legislation represents significant 
gains for the National Wilderness Preservation System and 
should be enacted without delay. Thank you.
    [The prepared statement of Mr. Greenberg follows:]
       Prepared Statement of Jerry Greenberg, Vice President of 
                         The Wilderness Society
    Chairman Craig, Members of the Committee and staff, thank you for 
the opportunity to testify today. My name is Jerry Greenberg. I am the 
Vice President for Regional Conservation of The Wilderness Society. I 
am here today representing Friends of Nevada Wilderness, The Nevada 
Wilderness Project, Campaign for America's Wilderness, Red Rock Audubon 
Society, and The Wilderness Society.
    Collectively these organizations represent more than 3600 Nevadans 
including members in Thite Pine County and nearly 210,000 citizens 
across the country.
    On behalf of the five organizations, I would like to thank Senators 
Reid and Ensign and their staffs for the hard work that has gone into 
this legislation. Their process has been fair, and they have worked 
hard to listen to the concerns and recommendations from all interested 
parties. I would also like to thank the staff of this Subcommittee for 
visiting White Pine County and touring some of the areas that would be 
designated as Wilderness under this legislation.
    As you know, S. 3772 is a complex public lands bill built upon five 
years of local citizen efforts that addresses a variety of issues in 
White Pine County, Nevada. Although not perfect, this legislation is a 
compromise that addresses a number of competing uses on public lands 
and is product of a true bipartisan effort. With the improvements 
recommended in our testimony, we believe that this legislation 
represents significant gains for the National Wilderness Preservation 
System and should be enacted without delay.
    While I will briefly address each title of the bill, our expertise 
is on the wilderness title of the legislation; therefore I will focus 
the majority of my testimony on that title.
                         title i--land disposal
    We recognize that many rural Nevada counties have communities that 
are surrounded by public lands. White Pine County is composed of about 
95% federally managed land. Out of 5.7 million acres in the county, 
only 195,840 acres (3.4%) are privately owned, with much of this being 
family ranches.
    We are pleased that the bill defers to current law and the Bureau 
of Land Management (BLM) Land Use Planning process for determination of 
which public lands are appropriate for sale in the future. We believe 
that the far reaching planning decisions of determining which public 
lands might be eligible for disposal should be made with extensive 
public involvement as part of the agency's land use planning process 
and carefully consider impacts to communities and natural and cultural 
resources. Over the last several years, there have been extensive 
public meetings regarding the potential sale of public lands in White 
Pine County. From the dozens of meetings we have attended, it seems 
clear that the majority of White Pine County citizens do not want to 
see a massive sell off of their public lands. These lands in public 
ownership are very important to people for a number of reasons, 
including serving as important watersheds, places for camping, hunting 
and fishing, caving, climbing and a broad array of other recreational 
opportunities.
    In our view, another vital component of this bill is its retention 
of current law requiring environmental reviews prior to determination 
of whether or not a sale should take place. It is important to assess 
in detail what values may be found on these public lands, including 
cultural resources, prior to finalizing the determination of which 
lands should be sold.
    Utilizing the planning process referred to above, the Ely BLM Field 
Office draft Resource Management Plan/Environmental Impact Statement 
released in summer of 2005 identified about 23,000 acres for potential 
disposal in White Pine County. As stated, we believe that the agency 
planning process appropriately applied should be the basis for 
determining the extent of any land disposal.
    Thus, we recommend that the 45,000 acres mentioned in Section 101 
(b) be reduced to more accurately reflect the amount of land that might 
reasonably and appropriately be identified for sale through the BLM 
Resource Management Plan or subsequent amendments.
    It is also important to note that the lands identified in the RMP 
for potential disposal are primarily located in the Steptoe Valley and 
contain little to no ecological value. This valley contains the 
communities of Ely, McGill, and Cherry Creek, and is the location of 
the bulk of the county's infrastructure. This includes the airport, 
industrial park, railroad, highway, and transmission corridors.
    With respect to allocation of proceeds from land sales, we 
acknowledge Nevada's unique laws regarding the disbursement of land 
disposal proceeds. However, we believe that proceeds from the sale of 
public land should be used for conservation purposes, as Nevada's 
current laws intend.
                       title ii--wilderness areas
    We believe the wilderness title represents a significant gain for 
conservation and wilderness in this part of the state. In order to 
present a better understanding of the wilderness quality lands found in 
White Pine County, I thought it would be helpful to first begin by 
providing some background information on our wilderness proposal and 
our involvement with the White Pine County Commission and others that 
have been engaged in wilderness discussions over the last several 
years.
White Pine County's Wild Landscape
    White Pine County is located in the eastern portion of the state, 
adjacent to the Utah border. The county consists of approximately 5.7 
million acres of which approximately 95% is federally managed public 
land. Ely, the county seat, is located about four hours north of Las 
Vegas. The areas proposed for wilderness in White Pine County are at 
the heart of the Great Basin, where majestic mountain ranges tower over 
wide valleys of sagebrush.
    This rugged and scenic landscape supports diverse plant and 
wildlife species, including elk, mule deer, cougar, pronghorn, sage 
grouse, a major raptor migration route, and a host of other birds, 
mammals, and reptiles.
Our Involvement in White Pine County Discussions
    Almost 5 years ago, Nevada's congressional delegation asked all 
interested elected officials, groups and individuals, including our 
organizations, to develop and forward proposals for public land 
legislation dealing with White Pine County. At that time, we made a 
decision to engage in discussions and work with interested parties to 
find solutions to protecting the county's wild lands.
    During this process we have submitted the citizens' wilderness 
proposal to the county Public Land Use Advisory Committee, the White 
Pine County Commission and to the congressional delegation. In 
addition, over the last few years we have attended countless meetings 
and numerous public hearings with local elected officials, ranchers, 
off road vehicle user groups, agency staff, sportsmen and women, and 
staff from the congressional delegation to discuss our proposal. We 
have also participated in numerous field trips with various interested 
parties to proposed wilderness areas to view the land firsthand and to 
find solutions to these complicated issues.
Citizens' Wilderness Proposal
    For decades, citizens of Nevada have been inventorying wilderness 
quality lands in the state. Once the congressional delegation shifted 
focus to White Pine County, our organizations compiled existing data 
and began to collect new data in order to create the Citizen's 
Wilderness Proposal for White Pine County. Utilizing this two prong 
approach, we were able to develop a more accurate and up to date 
wilderness proposal for 730,000 acres.
    The wilderness quality lands in the county are managed by two 
federal agencies, the Bureau of Land Management and the National Forest 
Service. Since part of our proposal is based on data collected from the 
land managing agencies we will first describe our proposal for lands 
managed by the BLM.
    It is our belief that the Bureau of Land Management's wilderness 
inventories of the late 1970's were faulty for numerous reasons, and in 
order to develop an adequate wilderness proposal we needed more current 
and accurate information. In 1979, during its eight-month Initial 
Wilderness Inventory, the Nevada Bureau of Land Management used 
``existing information'' and ``inventoried'' roughly 49 million acres 
and immediately dropped 32.9 million acres from further consideration. 
This was a rushed process by any measure. The public was then given 
only 90 days to comment on the decision.
    The Bureau of Land Management then spent six months on 
``intensive'' on-the-ground surveys of the remaining 16.1 million 
acres. Assuming they worked seven days a week, this ``intensive'' 
inventory required Bureau of Land Management personnel to survey 88,462 
acres per day. After this intensive survey, which was cursory at best, 
the agency dropped 11.1 million acres from further consideration. Once 
again, the public was given only 90 days to comment on the decision.
    Given the inadequate results of that rushed process, our coalition 
determined it was necessary to inventory public lands in the county 
managed by the BLM. The Citizen's Proposal for Wilderness in White Pine 
County includes all of the Bureau of Land Management Wilderness Study 
Areas (WSA) that lie partially or entirely in the county. Our 
organizations advocate for the protection of entire WSAs, whether 
recommended or not recommended for wilderness by the BLM. Based on 
field inventories and extensive research, we assert that each of these 
WSAs qualify as Wilderness and merits protection as such.
    In addition to the WSAs, we have included some Bureau of Land 
Management managed lands that were not given WSA status by the agency 
following the Intensive Wilderness Inventory conducted during 1979-
1980. The Coalition has conducted updated field inventories of many 
non-WSA public lands within the last several years and has determined 
that many do qualify for Wilderness based on the criteria of the 
Wilderness Act. Many of these areas recommended for Wilderness 
designation in our Citizens' Proposal were originally dismissed by the 
BLM from further Wilderness study based on flawed criteria and 
rationale, which resulted in the dismissal of significant wild 
landscapes throughout Nevada.
    The other federal agency that manages a significant amount of 
wilderness quality lands in the county is the Forest Service. 
Currently, the Forest Service manages the only two designated 
wilderness areas in the county, Currant Mountain Wilderness, partially 
located in the southwest part of the county, and Mt. Moriah Wilderness 
located entirely within the eastern part of the county. Both wilderness 
areas were designated in 1989. Similar to our review of BLM WSAs, we 
reviewed the boundaries of the congressionally designated wilderness 
areas to verify that the existing boundaries made sense from an 
ecological and management perspective. There are a number of Forest 
Service Inventoried Roadless areas in White Pine County that have 
extremely high wilderness values. Based on our field work, we included 
a number of them in our Citizens' Wilderness Proposal.
    Wilderness values and wildlife habitat do not stop at 
administrative boundaries. When we created our proposal, we based our 
boundaries on ecological and physical features, rather than county 
lines or agency administrative boundaries. Our Citizens' Wilderness 
Proposal for White Pine County recommended Wilderness designation for 
approximately 730,000 acres of public land managed by the BLM and the 
Forest Service.
    Using the latest technology and mapping methods, and with thorough 
research into biological, wildlife, cultural, and economic aspects of 
the landscape, we developed a comprehensive proposal for Wilderness in 
White Pine County. The process for creating this proposal consisted of 
conducting updated field inventories as well as researching current 
data provided by federal land managers, state offices, local citizens, 
and local governments. The field inventory process involved sending 
paid and volunteer field crews out to Eastern Nevada to photo document 
wilderness values as well as man-made impacts on the land and mark 
precise locations on a topographic map using a global positioning 
system (GPS) unit. To date, the field inventory process has yielded 
thousands of photos taken since 2000. The field inventory information 
was then compiled with existing data from other sources including 
people who lived and worked in the area in an effort to minimize 
potential conflicts with other uses and create the best possible 
boundary. Our data was then compared to information and rationale from 
the land managing agencies to help determine the validity of their 
recommendations. Finally, based on updated fieldwork and additional 
research, Wilderness proposal area boundaries were delineated and 
descriptions and Wilderness rationale were documented.
    One of the most heartening wilderness efforts we engaged in was a 
jointly agreed-upon wilderness proposal for the High Schells (Schell 
Creek Range), signed by longstanding ranchers in White Pine County and 
endorsed by our organizations. This cooperative effort began in the 
late winter of 2002, as we discussed the possibility of garnering 
lasting protections for this wondrous mountain range, while finally 
halting the negative impacts to landscape being caused by years of 
irresponsible off road vehicle use. During the spring and summer of 
2003, this collective group of concerned citizens met on a regular 
basis. Together, we traveled every key road and access point, talked 
over important ranching facilities that required continued motorized 
access along with historical uses of valid roads and routes in the 
area. The vast majority of ranchers who.run livestock in the High 
Schells had a direct hand in drawing the agreed upon boundaries. 
Finally, in November of 2003, the group signed a letter supporting a 
new wilderness proposal for the High Schells, and recognized that 
existing grazing rights are permitted under the Wilderness Act, subject 
to such regulations as are deemed necessary by the Secretary. The 
letter further stated that the area should be managed in accordance 
with the Congressional Grazing Guidelines which emphasize that all 
reasonable measures must be taken to minimize the impact of grazing 
activities on wilderness character and to protect other resource 
values. The letter was sent to the Nevada Congressional Delegation and 
given to the White Pine County Commissioners. Although there have been 
minor adjustments made to the boundary of this proposal in order to 
prevent conflicts with snowmobiles and mountain bikes in certain areas 
and to increase hunter access in another area, this effort stands as a 
great example of cooperative conservation action based on 
understanding, respect and trust.
    As a result of this effort, we were able to break down existing 
barriers to communication and bridge the gap between polarized 
viewpoints and work with other ranchers in the area. This work resulted 
in a number of jointly agreed upon boundaries that satisfied many of 
the interested citizens.
Wilderness Designations in S. 3772
    We thank the Nevada congressional delegation for addressing 
wilderness in White Pine County. Additionally, we appreciate their 
willingness to consider our wilderness recommendations from our 
Citizen's Wilderness Proposal.
    As you know, the legislation designates 13 new Wilderness areas and 
makes two significant additions to existing Wilderness areas, totaling 
approximately 545,000 acres (BLM = 285,000 acres; Forest Service = 
260,000 acres). This bill would release approximately 65,000 acres from 
BLM WSA status.
    Although not perfect, S. 3772 would protect a significant amount of 
wilderness and make important additions to the National Wilderness 
Preservation System.
    Some highlights of the areas and resources that would receive 
Wilderness protection under S. 3772 include:

  <bullet> Schell Creek Range Wilderness, consisting of approximately 
        122,000 acres, contains prime wildlife habitat, and popular 
        destination for primitive types of recreation and hunting.
  <bullet> Red Mountain, Bald Mountain, White Pine Range, and Shellback 
        Wilderness Areas, along with additions to the designated 
        Currant Mountain Wilderness comprise an extensive block of 
        relatively intact wild landscapes and wildlife habitat.
  <bullet> Becky Peak, Government Peak, and Bristlecone, are citizen 
        proposed areas with high wilderness values that the BLM failed 
        to include as WSAs during their intensive inventory.
  <bullet> Highland Ridge Wilderness, adjacent to Great Basin National 
        Park, protects a significant amount of wildlife habitat as well 
        geologic and other natural resources.
  <bullet> Mt. Grafton Wilderness, which includes the tallest peak on 
        BLM land in Nevada and which protects low elevation benchlands 
        important to wildlife.
  <bullet> Goshute Canyon Wilderness--the diverse landscape and 
        vegetation of this area is also excellent habitat for several 
        important raptor species including peregrine falcon, bald eagle 
        and American kestrel, and limestone cliffs and caves.

    The legislation makes a technical correction to the Mt. Moriah 
Wilderness, designated in 1989. It is our belief that these technical 
corrections are long overdue. The original Mt. Moriah Wilderness 
boundary erroneously contained portions of well used vehicle routes, 
parking area as well as primitive camping and staging areas for hunters 
and horseback riders. There are other slight adjustments made to allow 
for historical motorized access to range facilities like water troughs 
and pipelines. By working with local ranchers and those involved during 
the development of the legislation in 1989, we were able to come to a 
joint agreement that resulted in support for the technical corrections 
along with adding additional acres to be designated as wilderness in 
the area.
    Recently, mining interests have expressed concerns about small 
portions of certain areas being included in the wilderness proposals 
for White Pine County. Every effort has been made to exclude known and 
active mining areas from these proposals. Some mining groups have 
erroneously claimed that the Wilderness Act requires mineral surveys 
before areas can be designated wilderness. They specifically reference 
Section 4(d)(2) of the Wilderness Act. It is clear to us that Section 
4(d)(2) deals only with already-designated national forest Wilderness 
areas. Perhaps they are mistakenly referring to Section 3(b) of the 
Wilderness Act, which was expressly limited to the study of 34 national 
forest ``primitive areas'' that took place in the late 1960s and early 
1970s. It is very clear that there is no requirement in the Wilderness 
Act that mineral surveys be conducted before Congress can designate 
wilderness areas. Over all of these years, regardless of what party was 
in control, no such requirement has ever been put into law.
Specific Comments regarding the Wilderness Title of S. 3772
    Although we are appreciative of the wilderness designated under S. 
3772, we have some specific comments regarding the Wilderness title. We 
understand that over the years, conditions on the ground can change and 
sometimes these changes require minor boundary adjustments, resulting 
in small gains or losses for wilderness, in order to best protect the 
wilderness resources. We believe that some of the boundary 
modifications can be accommodated. However, we do not support a net 
loss of habitat in legislation due to the inappropriate management of 
an area.
    This happened to the South Egan Range Wilderness Study Area. Much 
of the central portion of the WSA was not included for wilderness 
designation in this bill because illegal vehicle routes were created 
over the last twenty years after the area was designated as a 
wilderness study area. The wilderness values within the South Egan 
Range WSA were to have been managed so as to protect them until 
Congress had the opportunity to determine what should be wilderness. 
Unfortunately, a number of illegally created routes have been created 
within the WSA and have led some to believe that these are 
``historically'' used routes. We believe that some requests put forth 
by local residents and the county to use some of these routes can be 
agreed to. We however, believe that an expanded boundary, closer to the 
original WSA boundary is necessary to prevent further irresponsible off 
road vehicle use and to halt the fragmentation of key wildlife habitat 
and to protect the wilderness characteristics of the area.
    There were a number of other areas worthy of protection that were 
not included in the legislation. We have provided detailed information 
of these areas in our Citizen's Wilderness Proposal. In addition to the 
South Egan WSA, the areas not designated as Wilderness under this 
legislation that are most troubling to us include Blue Mass/Kern 
Mountains and the Antelope Range. The White Pine County Commission has 
repeatedly expressed a need for protecting the incredible scenic values 
of the Blue Mass/Kern Mountain area. We believe it is critical that 
this bill address protection for the Blue Mass/Kern Mountains area. We 
also believe that the wilderness values in the Antelope Range are 
worthy of wilderness protection. We request that these areas be added 
to the legislation and will continue to work with the delegation to 
ensure these places receive the protection they deserve.
    The water rights language found in this legislation closely 
resembles language used in previous wilderness bills and is commonly 
referred to as ``headwaters'' language. Given the fact that many of 
these proposed wilderness areas contain more widely distributed water 
resources they require slightly different language than what has been 
used in previous public lands bills in Nevada. It is important to note 
that this language has been successfully enacted and implemented for 
the Colorado Wilderness Act of 1993 (PL 103-77) and subsequent 
wilderness laws. We feel this language is appropriate and will protect 
the flowing waters and wilderness resources of the areas designated in 
this bill.
    Our organizations recognize certain ``cherrystems'' to allow for 
wilderness boundaries to be brought to lower elevations and to provide 
key access points. However, we also recognize that an abundance of 
``cherrystems'' can accelerate the spread of invasive plants and 
further fragment wildlife habitat. Allowing vehicle access directly to 
natural springs greatly increases the harassment to wildlife using 
these water sources. We strongly believe that in order to best protect 
and lessen harassment and impacts to wildlife, ``cherrystems'' should 
be pulled back at least 0.5 to 1 mile from the water sources. Often, 
``cherrystems'' are proposed as a result of an individual or group of 
people that desire to have motorized access on that particular route. 
Our organizations take pride in working with affected users to find 
common sense solutions that can work for everyone.
    The presence of native wildlife at naturally fluctuating population 
levels is an important component of wilderness character. White Pine 
County, unlike Lincoln and Clark County, contains many natural springs 
and creeks for wildlife thus requiring the installation of fewer 
artificial water sources. In the event that new artificial water 
sources are determined to be necessary, we believe that the 
construction of new ``guzzlers'' should be prioritized outside of 
Wilderness areas.
                  title iii--transfers of jurisdiction
    These transfers of jurisdiction in this title make good sense 
ecologically and from a management perspective. First, we support the 
transfer in this title that would transfer 645 acres of BLM land to the 
Fish and Wildlife Service. This acreage is currently a BLM inholding 
within the southern portion of the Ruby Lake National Wildlife Refuge 
in the northwestern corner of White Pine County. Second, we support the 
transfer of the Forest Service lands totaling about 117,000 acres to 
the BLM. Approximately 70,000 acres would be designated as Highland 
Ridge Wilderness. This transfer would allow for more effective 
management between the Park Service and the BLM instead of having three 
agencies managing a single unit. We believe that it is positive for 
wildlife and habitat management that the remaining 47,000 acres would 
be withdrawn from the BLM's land disposal and mineral laws, and that 
vehicles will be limited to designated routes.
                      title iv--public conveyances
    We are supportive of the conveyances outlined in this title. Most 
of the conveyances are open space to open space conveyances and will 
result in consolidated management of the areas and natural resources 
found within them. Specifically, we believe that the conveyance of 650 
acres of BLM managed lands to Nevada State Parks in order to expand 
Ward Charcoal Ovens State Park, which is currently being managed by the 
State Parks, and the conveyance of 6,281 acres of BLM managed lands to 
the Nevada Department of Wildlife to enlarge the Steptoe Valley 
Wildlife Management area just south of Ely are sensible solutions. We 
are generally supportive of other public conveyances for appropriate 
community needs when the lands do not possess any wilderness qualities 
or sensitive habitat.
            title v--silver state off-highway vehicle trail
    Our organizations encourage a fully transparent decision making 
process independently initiated by the affected land management agency. 
We recognize that this bill provides some protections in the form of a 
study, criteria that must be met prior to designation (e.g., no 
significant impacts), and limits the extent of a trail system. In these 
respects, this bill is an improvement over the Lincoln County 
legislation that legislatively designated a site-specific trail system. 
We would prefer that the agency's obligations for monitoring and 
enforcement were mandatory and fully enforceable. In addition, we are 
concerned that this provision does not adequately address the current 
issues of inappropriate ORV use in the area. It is our belief that the 
BLM should have the opportunity to fully complete a comprehensive 
travel planning process for the district before decisions are made on 
this trail. Lastly, we support adding language to the bill that ensures 
that any proposed trail system will not significantly impact 
traditional uses such as livestock grazing. It is our preference that 
this legislation provide clear congressional direction that the study 
and planning process be conducted in accordance with NEPA requirements.
  title vi--transfer of land to be held in trust for the ely shoshone 
                                 tribe
    We believe that it is important for the native people in White Pine 
County to be fairly treated. Increasing the amount of land by 3,500 
acres to be held in trust for the Ely Shoshone Tribe seems appropriate. 
It is our understanding that the bulk of the land is to be designated 
for traditional and ceremonial uses and that no gaming would be allowed 
on any of the parcels.
        title vii--eastern nevada landscape restoration project
    We support the goals of the Eastern Nevada Landscape Restoration 
Project, which is part of the Great Basin Restoration Initiative. The 
ecological health of our Great Basin ecosystem is important given the 
increasing loss of our native grass and shrub lands to invasive and 
exotic species. It is our understanding that the projects implemented 
by this act would be small in scale and would be conducted in 
compliance with the Ely Field Office Resource Management Plan and the 
National Environmental Protection Act.
 title viii--amendments to the southern nevada public land management 
                              act of 1998
    This title makes amendments to the Southern Nevada Public Land 
Management Act (PL 105-263). The original goal of that legislation was 
to make funds available to mitigate the results of the sale of public 
lands for development in Clark County. As previously stated, we believe 
that the proceeds from the sale of public lands should be used for 
conservation purposes. This ensures that the American public does not 
lose the conservation benefits which they cherish. To the extent that 
these amendments would move the use of these proceeds away from 
conservation benefits we would not be supportive of those changes.
    We are supportive of the amendment to allow Washoe County to apply 
for funds to purchase land (up to 250 acres) of the Ballardini Ranch 
and develop a regional park and natural area. This is an important 
component of the acquisition provision in SNPLMA and in line with its 
purpose.
    In closing, we hope the subcommittee will give our comments and 
suggested bill improvements very serious consideration. With the 
improvements recommended in our testimony, we believe that this 
legislation represents significant gains for the National Wilderness 
Preservation System and should be enacted without delay.

    Senator Craig. Jerry, thank you very much.
    Now let us turn to Alan Gardner, commissioner, Washington 
County, Utah.

  STATEMENT OF ALAN GARDNER, MEMBER, WASHINGTON COUNTY, UTAH 
                     BOARD OF COMMISSIONERS

    Mr. Gardner. Mr. Chairman and members of the committee, my 
name is Alan Gardner and I am a commissioner from Washington 
County, Utah. I am pleased to be here representing the citizens 
of Washington County, Utah. We are a county experiencing 
tremendous growth. The U.S. Census listed us as the fifth 
fastest growing county and the fastest growing metropolitan 
planning organization in the county.
    Nearly 1,000 new residents arrive each month. The county is 
just over 1.5 million acres, of which 84 percent is in some 
form of Federal or State ownership. Over 29 percent of the 
county is currently in some form of special restrictive 
management, including protection for twelve different 
threatened or endangered species. This legislation would add to 
that number.
    I want to publicly thank the entire Utah congressional 
delegation for their support leading to the bipartisan efforts 
you see today. I particularly want to thank Senator Bennett and 
Congressman Matheson for sharing our vision and working to 
advance it here in Congress.
    We opted to be the first county in Utah to begin a 
comprehensive land use planning project, with the goal to 
develop legislation similar to what has been accomplished in 
Clark County, Nevada, our neighbor to the west. The Nevada 
legislation is very attractive to us. Washington and Clark 
Counties share many similar problems. As a result, we 
established a working group with the objective being land use 
legislation and long-term, county-wide growth planning. The 
result was a comprehensive and inclusive process. The group 
scrutinized the county, gathered all available data and covered 
every topic from power and transportation to endangered species 
and wilderness. The data gathered and conclusions reached by 
the working group were forwarded to Senator Bennett and 
Congressman Matheson for development of legislative language. 
Participants were also asked to submit written comments to 
Senator Bennett with their conclusions and suggestions for 
creating legislation based on the data gathered by the working 
group.
    Over the course of the next 12 months following the Nevada 
precedent, the bill we are now discussing was written by 
Senator Bennett's staff in coordination with Congressman 
Matheson's staff. One of our foremost objectives of this 
legislation was to get a handle on growth, to address this and 
as a natural extension of our land use planning process, we 
initiated what we are calling Vision Dixie. Vision Dixie is a 
comprehensive growth-planning effort modeled after the Envision 
Utah process used in some of the major communities on the 
Wasatch Front and in other areas of the country with great 
success. The Vision Dixie process and this legislation are 
inseparably connected.
    The legislation empowers the growth planning process. One 
cannot work to its fullest benefit without the other one 
because of the overall importance of this effort on the future 
of Washington County. It is important that we pass S. 3636.
    The elements of our legislation are very similar to the 
Nevada bill, whose precedent we have followed. It established 
permanent wilderness including 93,340 acres of BLM wilderness, 
another 2,642 acres of Forest Service wilderness and 123,743 
acres of wilderness inside Zion National Park as well as 
expanding the park. It creates 61,000 acres of Red Cliffs 
National Conservation Area for the permanent habitat and 
protection of the endangered desert tortoise and establishes 
nearly 170 miles of the Virgin River as Wild and Scenic.
    There is no hard release language in this bill. There is no 
law being made that prevents discussions or blogs continued 
advocacy. There are elements of this legislation that we are 
not entirely comfortable with as a commission, which I would 
like to mention in my testimony.
    First, in the designation of more wilderness in the county, 
with 29 percent of the county already in some form of special 
designation, adding to that number was not easy. This comes not 
from an anti-wilderness statement but from the sense that there 
must be some practical balance to all things and Washington 
County has already paid a heavy toll in the public land 
preservation arena.
    Second is the failure of this legislation to cherry stem 
the Sawmill Road, which crosses what would become the Canaan 
Mountain Wilderness Area. The road was established in the early 
1900's as an access road to a sawmill based at the cliff edge 
of the Canaan mountains where lumber was lowered many hundreds 
of feet by a cable operation to the valley floor below. It has 
historically been a favorite trail of OHV enthusiasts and 
remains a popular area today.
    Based on recent court rulings, we believe that the road was 
closed illegally and every effort should be made to keep this 
historic road open.
    I would like to make three final points. First, we have had 
a good public process.
    Second, this legislation creates good conservation. There 
will never be full agreement on what should and what should not 
be protected by wilderness designation, species protection, 
etcetera. The process in Utah over the past three decades has 
been one to obstruct and deny. Good conservation, even if it 
falls short of someone's idea of all that could be done, is 
still good conservation.
    And third, Utah needs this bill. The combative nature of 
the Utah Public Lands discussion demands that something be done 
to take a good first step. This legislation is the best effort 
to come out of the State in three decades. To continue to do 
nothing in the face of all of the growth and natural resource 
challenges that we face today would be irresponsible. We must 
move this bill forward.
    And in closing, I would like to again thank Senators 
Bennett and Hatch and Congressmen Matheson and Cannon and 
Bishop for the help they have been and thank the Committee for 
the opportunity to be here today. Thank you.
    [The prepared statement of Mr. Gardner follows:]
Prepared Statement Alan Gardner, Member, Washington County, Utah Board 
                            of Commissioners
    Mr. Chairman and members of the Committee, I am pleased to be here 
representing the citizens of Washington County, Utah. We are a County 
experiencing tremendous growth. In August of this year, the U.S. Census 
listed us as the fifth-fastest growing county in the United States, and 
the fastest growing metropolitan planning organization in the nation.
    Nearly 1000 new residents per month arrive in Washington County, 
drawn by the wonderful natural beauty of the land, the warm climate, 
and the diverse recreational opportunities. The climate is not only 
attractive to the residents and visitors, but also provides a healthy 
habitat for a number of plants and animals, including twelve different 
threatened or endangered species, some found nowhere else in the world. 
Our beloved Zion National Park also draws millions of visitors 
annually. As a result, many different groups rightly feel some 
ownership in the future of our area. Our legislation is an honest 
attempt to balance all of these needs and points of view.
    I have been a Washington County Commissioner since 1996 and am a 
native of the county. My ancestors helped to establish the first 
communities, the first coming in 1855, over 150 years ago. I have a 
deep appreciation for them, and for the work they did and the hardships 
they endured to create the communities which now make up Washington 
County. It is because of this heritage that I have such a strong sense 
of responsibility toward assuring that the future of Washington County 
protects the quality of life which my Grandparents and many like them 
sacrificed to create, and which draws people to our area in such 
incredible numbers today.
    The extraordinarily beautiful area that makes up Washington County 
is just over 1.5 million acres, of which about 84% is in some form of 
Federal or State ownership. Nearly one-third of the county, over 29%, 
is currently under some form of special, restrictive management. Our 
legislation would add to that number. As a result, we are faced with a 
tremendous challenge---huge areas of public lands, some very 
spectacular, on one hand, and less than 10% of our lands available to 
accommodate the thousands of people who are coming, and are yet to 
come, on the other hand. It is a formidable task to try to balance the 
preservation of our special places, while at the same time assuring 
that growth will be accommodated in a visionary manner that provides 
and maintains a high quality of life. We are confident that our 
legislation is an excellent step toward accomplishing this task.
    The residents of Washington County want smart economic growth, a 
strong and sustainable local job base, preservation of our special 
areas, and protection of the high quality of life that makes this place 
special. This legislation establishes policies that will allow us to 
develop a vision for the future, and then gives us the tools to 
accomplish the various elements of that vision.
    I want to publicly thank the entire Utah Congressional delegation 
for their support of this approach. I particularly want to thank 
Senator Bennett and Congressman Matheson for sharing our vision and 
then working to advance it here in the Congress. When we first 
approached our Delegation Members, they quickly grasped the potential 
of pursuing this objective and turned it into the bi-partisan effort 
you see here today.
    Following an offer by then Governor Olene Walker to help facilitate 
working meetings, Washington County opted to be the first county in 
Utah to begin a comprehensive land use planning project. The goal was 
to develop legislation similar to what had been accomplished in Clark 
County, Nevada, our neighbor to the west. Washington County and Clark 
County share many similar problems; extraordinary growth, large areas 
of public lands, many interest groups advocating proposals for public 
management, diverse populations, heavy demands on resources and 
infrastructures, and so forth. The Nevada legislation, which combines 
land preservation with economic development, planning for future 
growth, and innovative ideas for land management, was very attractive 
to Washington County. Consequently, the Washington County 
Commissioners, with the assistance of the State of Utah, put together a 
working group. The purpose of the working group was to hold regular 
comprehensive working meetings with the final objective being land use 
legislation and long term county-wide growth planning. The group was 
made up of people who represented many diverse interests from around 
the county, the state and the region, including individuals with both 
local and national perspectives, such as the Dixie Wildlife Federation, 
Virgin River Land Trust, Outdoor Retailers Association, Southern Utah 
Wilderness Alliance, Sierra Club, Wilderness Society, Blue Ribbon 
Coalition, and many others, including federal agencies as advisors.
    The members agreed at the beginning to adhere to several rules of 
engagement, which included the following: They would remain at the 
table until the process was finished; they would disagree agreeably so 
that a comfortable atmosphere existed for the free exchange of ideas 
and for open dialogue on all the issues; and, each member would keep 
the overall good of the project, the bigger picture, as the focal point 
and foundation of any proposals that were brought to the table.
    From the beginning, the process worked well. The group scrutinized 
Washington County, gathered all available data, and covered every 
topic---from power and transportation to endangered species. Nothing 
was left off the table, and the county worked extensively to reach out 
to the community for expertise and proposals that were not sufficiently 
represented by the working group.
    The result was a very comprehensive and very inclusive process. We 
did not debate each issue, or try to hammer out some compromise deal as 
has been done so unsuccessfully in the past. Rather, the data gathered 
and conclusions reached by the working group were forwarded to Senator 
Bennett and Congressman Matheson for development of legislative 
language. Participants were also asked to submit written comments to 
Senator Bennett with their conclusions and suggestions for creating 
legislation based on the data gathered by the working group. Over the 
course of the next 18 months, following the Nevada precedent, the bill 
we are now discussing was written by Senator Bennett's staff in 
coordination with Congressman Matheson's staff, and in direct 
correlation with the County, members of the working group, and members 
of the public. It was a very carefully developed and well thought out 
process. We wanted all the stakeholders to be involved and their issues 
to be heard, and they were. We were very sensitive to the fact that if 
we were to err, we should err in favor of too much public participation 
rather than not enough. After the proposal was far enough along to 
formally introduce to the public, Senator Bennett and Congressman 
Matheson held a press conference, making maps and draft language 
available to all interested parties. We then held open houses in 
strategic areas in Washington County where we exchanged information and 
set up a process for receiving further comments from the public. As a 
result of those meetings and the correlating comments, a number of 
changes were made to the legislation before it was introduced.
    To summarize, this has been a truly grassroots project. The 
participants, for the most part, have been dedicated to its success 
from the beginning, and the public has had ample opportunity to 
participate in the process.
    As I said, one of our foremost objectives with this legislation was 
to get a handle on growth. It is vitally important that we equip the 
county and the cities and towns in the area with the tools to direct 
the phenomenal influx of people into the area. To this end, as a 
natural extension of our land--use planning process, we have initiated 
what we are calling ``Vision Dixie''. Vision Dixie is a comprehensive 
growth planning effort modeled after the Envision Utah process used in 
some of the major communities on the Wasatch Front to great success. It 
has also been used very successfully in other areas of the country as 
well.
    As the sponsor of this effort, the County has entered into an 
agreement with Envision Utah, the Oquirrh Institute, the Nature 
Conservancy, and all the communities in Washington County in order to 
create a county-wide growth footprint which gives all the communities a 
vision for growth, standards which should define how that growth must 
occur, and ordinances by which those standards are accomplished. This 
process will involve a great deal of public input, adding to the public 
input already provided in our land use planning project. In other 
words, it provides a forum for the citizens of Washington County to 
design their own future.
    The Vision Dixie process and this legislation are inseparably 
connected. The legislation empowers, the growth planning process 
directs. One cannot work to its fullest benefit without the other, and 
because of the importance of this overall effort to the future of 
Washington County, it is very important that we pass S. 3636.
    The elements of our legislation are similar to the Nevada bills 
whose precedent we have followed. It establishes permanent wilderness, 
including 93, 340 acres of BLM wilderness, another 2642 acres of Forest 
Service wilderness, and 123,743 acres of wilderness inside Zion 
National Park. It creates the 61,000 acre Red Cliffs National 
Conservation Area for the permanent habitat and protection of the 
endangered Desert Tortoise, and establishes nearly 170 miles of the 
Virgin River as wild and scenic.
    While there are groups that espouse far more wilderness than is 
included in this legislation, their tactics have produced no permanent 
BLM wilderness in the State of Utah. The passage of S. 3636 would 
change that stalemate. Further, there is no hard release language in 
this bill. There is no law being made here that prevents future 
discussions or blocks continued advocacy. We have done our best to 
include those lands on which there was some level of agreement, and 
have excluded areas where wilderness would make management difficult 
for the endangered desert tortoise or which would not allow for the 
improvement of critical winter habitat for mule deer in cooperation 
with the state of Utah. This area has been devastated by fire for the 
last two years. Neither the tortoise habitat nor the mule deer habitat 
were recommended by the Bureau of Land Management for wilderness 
designation.
    This legislation would also provide for the creation of the High 
Desert OHV Trail. This trail has been in the planning and development 
stages for several years. It will utilize established roads and trails 
on the west side of the County to create a designated route for the OHV 
community, thus greatly reducing the amount of resource damage that can 
occur with the constantly increasing popularity of Off Highway 
Vehicles. Our legislation provides for the trail to be created in an 
environmentally sensitive manner, and also allows for funding for 
development, monitoring, resource protection, and enforcement. Our 
language for this section of the legislation is taken directly from the 
``Silver State Trail'' language in Lincoln County, Nevada.
    The bill also provides for long-term economic development and 
growth planning by establishing corridors for gas, electricity, water, 
and transportation. Following the Nevada pattern, it also provides for 
the disposal of up to 24,300 acres of BLM land in two tiers. The 
proceeds from the sale of these lands would be distributed in the same 
manner and based on the same formula as in Nevada, with 5% going to the 
State permanent school fund, 2% to the County to cover administrative 
costs, 8% to the Washington County Water Conservancy District for 
identified long-term water projects in the County, as demands dictate, 
and in direct correlation with the Vision Dixie planning effort, and 
85% to a special fund for conservation projects identified by the 
legislation, including preservation of critical lands, management of 
wilderness areas, trail repair and reconstruction, and management of 
the Red Cliffs National Conservation Area, among other things. The 
Desert Red Cliffs Reserve, which is home to the desert tortoise, is one 
of the first and most successful habitat conservation plans in the 
country. This legislation will establish the Reserve as a National 
Conservation Area, thus giving permanence to a well-functioning 
conservation partnership. The 61,000 acre reserve still contains in 
excess of $400,000,000 of non-federal lands that yet need to be 
acquired by the United States. Funding from land sales allowed by S. 
3636 could help address this problem, while also helping to provide 
habitat protection for many other species around the county as well.
    This section of the legislation, dealing with land sales, is the 
area that has generated the most criticism, and conversely, has 
received our most intensive effort in response to public input. We have 
tried to diligently and responsibly to address public concerns in how 
this would be accomplished. The first tier of 4300 acres, to be sold 
over a period of at least five years, is already identified by the BLM 
in their Resource Management Plan as suitable for disposal. In response 
to concerns from the public, we have added two layers of further 
protections for these directed sale lands: First, we have given the BLM 
an extra year to further scrutinize these lands before they are made 
available for sale, and, second, we have included covenant language 
that assures that if something of national importance is discovered on 
any lands offered for sale, the site would have to be protected.
    The second tier of up to 20,000 acres, will only be made available 
for sale if it is identified in the Vision Dixie growth planning 
process as being very important to the overall county growth footprint, 
and then would be sold in sensible increments over a period of 10 to 20 
years, or longer. The Washington County Growth and Conservation Act 
makes it possible for the Vision Dixie growth planning team to actually 
develop a countywide growth vision and then identify lands that should 
be developed as part of that countywide growth footprint. Whatever the 
end product is, the fact remains that this legislation equips the 
Vision Dixie Project Administrators with the ability to select those 
lands which best fit the ideals created by the growth planning team and 
then make them available for directed development as appropriate. 
Without the legislation, the planners would be seriously handicapped in 
their efforts to direct growth, create open space, and protect precious 
areas while at the same time assuring the high quality of life that 
draws people to this area.
    There are elements of this legislation which we are not entirely 
comfortable with as a Commission, and which I would like to mention in 
my testimony. The first area of concern is in the designation of more 
wilderness acres in the County. With 29% of the County already in some 
form of special designation, adding to that number has been a difficult 
pill for the County to swallow. This comes not from any anti-wilderness 
sentiment, but from the sense that there must be some practical balance 
to all things, and Washington County has already paid a heavy toll in 
the public land preservation arena. Consequently, while some are 
calling for more wilderness, we believe that it could have been less, 
given the circumstances.
    The second area of discomfort comes from the failure of this 
legislation to cherry-stem the Sawmill Road which crosses what would 
become the Canaan Mountain Wilderness Area. The road was established in 
the early 1900s as an access road to a sawmill based at the cliff edge 
in the Canaan Mountains, where lumber was lowered many hundreds of feet 
by a cable operation to the valley floor below for transport. It has 
historically been a favorite trail for OHV enthusiasts, and remains a 
popular area today. Based on recent court rulings, we believe that the 
road was closed illegally, and should have been cherry-stemmed in this 
process. While we have remained sensitive to the concerns surrounding 
this road, we would like to make the point in this testimony that it 
remains an area of concern for the Washington County Commissioners as 
well as for other stakeholders who have been involved in this effort. 
We believe that every effort should be made to recognize this problem 
and keep this historic road open.
    I would like to make three final points, if I may.
    First, we have had ample process. As you know in working with the 
public, someone always finds reason to complain; especially when they 
don't get everything they want. This has been a careful, deliberate 
process of collaboration during which we have tried in every way 
possible to draw interested stakeholders into the design of the end 
product. It is an honest effort to move forward in a long-standing 
stalemate. Given the outstanding conservation features of this 
legislation, it is disappointing that we can't emphasize our areas of 
agreement and move forward, rather than, once again, cry foul about the 
few areas where we disagree. We seem continually to be forced into a 
situation where someone's idea of perfect legislation becomes the enemy 
of excellent legislation. S. 3636 is not perfect legislation, but it is 
by every standard excellent.
    Second, as I have indicated, this legislation creates good 
conservation. There will never be full agreement on what should and 
what should not be protected by wilderness designation, species 
protection, and so forth. The process in Utah over the past three 
decades has been to obstruct and deny. Good conservation, even if it 
falls short of someone's idea of all that should be done, is still good 
conservation. To prevent its implementation because it falls short of 
the goals of certain single focus groups seems narrow-minded. We 
believe that any step towards good conservation is a good step, and 
this legislation is a major step in the right direction.
    And third, Utah needs this bill. The combative nature of the Utah 
public lands discussion demands that something be done to take a good 
first step. This legislation is a very good first step, and represents 
the best effort to come out of our state in three decades. To continue 
to do nothing in the face of all the growth and natural resource 
challenges that we face would be irresponsible. We must move forward, 
and S. 3636 will allow us to finally do just that.
    Summarily, I would once again like to thank Senators Bennett and 
Hatch, and Congressmen Matheson, Cannon, and Bishop for their wonderful 
help and support in the development of this legislation. I would also 
like to thank the members of the Committee today for this opportunity 
to testify in support of S. 3636. I ask for your earnest consideration 
of this legislation, and believe that it will establish a strong 
precedent in Utah for collaboration and public process in public land 
matters in the future.
    Thank you.

    Senator Craig. Commissioner, thank you very much for that 
testimony.
    Now last to testify is Peter Metcalf, president, Black 
Diamond Equipment, Limited. Welcome before the committee.

STATEMENT OF PETER METCALF, PRESIDENT, BLACK DIAMOND EQUIPMENT, 
  LTD, BOARD MEMBER, OUTDOOR INDUSTRY ASSOCIATION, SALT LAKE 
                            CITY, UT

    Mr. Metcalf. Thank you, Mr. Chairman, for the opportunity 
to testify about the Washington County Growth and Conservation 
Act. My name is Peter Metcalf. I'm a Utah resident, the 
president and founder of Black Diamond Equipment, a Utah-based 
outdoor equipment company with annual sales over approximately 
$60 million per year, with over 300 Utah-based employees as 
well as global operations.
    Black Diamond chose to relocate to Salt Lake in 1991, 
primarily because of its immediate proximity to wilderness 
quality public lands. With this experience, I've served on the 
executive board of the Economic Development Corporation of Utah 
as well as on Governor Huntsman's task force on the outdoor 
recreation economy and I've been honored with the Ambassador of 
the Year Award by the Salt Lake Visitors and Convention Bureau 
for my contributions to the State's visitation economy.
    I'm also here today in my capacity as director and vice 
chair of the Outdoor Industry Association. OIA is a national 
trade association whose mission is to ensure the growth and 
success of the outdoor industry. The outdoor industry is made 
up of over 4,000 businesses with half a million employees, 
generating $33 billion in sales every year. They have a twice-
a-year trade show in Salt Lake City, which is by far the 
largest State host each year and we are there because of the 
immediate access to the high quality public lands.
    The Outdoor Industry Association opposes this legislation 
because the bill falls far short of truly protecting our public 
lands and balancing the needs of the region. We ask that the 
bill be withdrawn and reworked to allow for more public review 
and improvements.
    Washington County, as we know, is home to Zion National 
Park, however this is but one piece of the county's spectacular 
wild landscape. Many lands outside the park deserve protection 
as well, especially now as the landscape is under pressure from 
the region's intense population growth. Over half of the 
legislation's proposed wilderness is located within Zion 
National Park, which are largely protected from threats while 
only a fraction of the wild BLM land outside the park, which 
are vulnerable to threats, would be protected. Many stunning 
and desert expanses near Zion and the Mojave have been 
excluded. This legislation would leave out many treasured local 
canyons, forests, and mountain landscapes that are presently 
protected.
    The OIA strongly urges sponsors of this legislation to 
protect all the regions preserving wild lands. These areas are, 
in part, what makes Washington County unique and a desired 
place to live, to work, to recreate.
    We are concerned with this legislation because when it 
promotes the sale of up to 24,000 acres of public land in a 
region already struggling to preserve open space and faced with 
sprawl and diminishing opportunities for close-to-home 
recreation. The BLM has already disposed of 18,000 acres nearly 
in the past 10 years. We urge the Committee not to create the 
expectation that Utah's public lands should be sold to ensure 
funding deficits, especially if those lands have provided 
significant recreation or cultural values.
    Third, their numerous rights of way utility corridors and 
then authorizes the BLM to create a county-wide off-road 
vehicle trail yet it fails to develop any balanced recreation 
plan in the region or the means to enforce it.
    High quality public lands such as those found in Washington 
County are critical to our industry. Active outdoor recreation 
is increasingly a strong and vital part of our Nation's 
economy, especially in rural areas. The economic impact is 
impressive. Outdoor recreation contributes $730,000 billion to 
the U.S. economy, several billion in Utah and 6.5 million jobs 
nationwide. Clearly, recreation and public lands play a very 
special and critical role in our economy.
    In addition, we know that active outdoor recreation 
improves the health of Americans. Studies cite that 25 percent 
higher health care costs for those people who are physically 
inactive. While 80 million Americans currently use outdoor 
activities as their main form of exercise.
    Protecting the public lands that support outdoor recreation 
is critical to establishing and sustaining balance, economic 
ecosystems across the Nation, especially in the West. We urge 
the committee to look at ways that communities can maximize the 
benefits from our public lands rather than simply selling them 
off for private development.
    Many Utahans care deeply about this region, as do I but 
feel that this legislation falls far short. A June 21 statewide 
poll showed that 89 percent of Utahans think public hearings 
should be held in different locations around Utah before this 
legislation is voted on. This has not happened. Even in 
Washington County, the local sentiment is split. Since OIA and 
Black Diamond have taken an active position in attempting to 
stop this legislation, we have been amazed at the ground swell 
of enthusiastic feedback from customers that is nearly 
unanimous in its support of our work.
    So in conclusion, we suggest that the sponsors of this 
legislation withdraw it. We urge the subcommittee to find a 
more sustainable approach to public land management. As Stewart 
Brand has written, ``Natural systems are priceless in value and 
nearly impossible to replace but they are cheap to maintain. 
All you have to do is defend them.'' For one of Utah's largest, 
most vibrant and sustainable economic sectors, active outdoor 
recreation, Mr. Brand's insights resonate.
    ``We must defend that which cost us nothing to create but 
will cost us all so dearly to lose.'' Thank you.
    [The prepared statement of Mr. Metcalf follows:]
     Prepared Statement of Peter Metcalf, President, Black Diamond 
  Equipment, Ltd., Salt Lake City, UT, Board Member, Outdoor Industry 
                              Association
                              introduction
    Thank you for the opportunity to testify before this subcommittee 
about the Washington County Growth and Conservation Act, S. 3636. My 
name is Peter Metcalf. I am a Utah resident and the president and 
founder of Black Diamond Equipment, a Utah-based outdoor equipment 
company with annual sales of approximately $60 million per year with 
over 300 Salt Lake City based employees, another 30 in Europe and 50 
more employees in Asia.
    I am also appearing before the committee today in my capacity as a 
member of the board of directors and vice-chair of the Outdoor Industry 
Association (OIA). OIA is a national trade association whose mission is 
to ensure the growth and success of the outdoor industry. The outdoor 
industry is made up of over 4000 businesses with 500,000 employees in 
all 50 states, generating $33 billion in sales every year. Last year, 
159 million Americans participated in outdoor recreation, with the 
greatest numbers in the gateway sports of hiking, biking, camping and 
paddle sports. OIA's member companies include Yakima, Mountain 
Hardwear, The North Face, Cascade Designs, Vibram USA, Johnson 
Outdoors, REI, Eastern Mountain Sports, JanSport, Smartwool, 
Timberland, Columbia Sportswear, Black Diamond Equipment, GoLite, 
Vasque/Redwing and more. Attached is a letter concerning the Washington 
County Growth and Conservation Act to the Committee from thirty-one 
retailers in the outdoor industry.
    I appreciate that the sponsors of the legislation have attempted to 
craft legislation to address the needs of communities and public lands 
in southwestern Utah. This legislation has sparked a helpful discussion 
about the future of Washington County and our public lands. I am 
encouraged to know that a local planning effort, known as Vision Dixie, 
is underway. The local planning process is dearly needed and I hope 
this continues, however, the Washington County Growth and Conservation 
Act is premature before completion of the local planning.
    The OIA opposes this legislation because we are concerned that the 
bill falls short of truly protecting our public lands and balancing the 
needs of the region. Our recommendation is that the bill be withdrawn 
and reworked to allow for more public review and improvements. It is 
our hope that such a process may ultimately lead to a bill that could 
be more fully supported by Utah citizens and all citizens who care 
about our public lands.
             wilderness and the outdoor recreation industry
    Many Americans may not know of Washington County by name, but many 
Americans do know of this region's spectacular landscape protected 
within Zion National Park. Zion National Park is but one piece of the 
county's spectacular wild landscape. Many lands outside the park 
deserve protection as well. At the same time, the landscape is clearly 
under pressure from the region's intense population growth. The OIA has 
taken a position in opposition to this legislation because we are 
concerned about the specific impacts this bill would have on public 
lands and recreation opportunities in Washington County. We also have 
concerns about this legislation as a matter of public policy.
    First, we are concerned that the legislation fails to protect many 
wild public lands in Washington County that truly deserve protection. 
The legislation designates roughly 220,000 acres of wilderness across 
Washington County. Much of the proposed wilderness (120,000 acres) is 
located within Zion National Park. Unfortunately, only a fraction of 
the wild Bureau of Land Management (BLM) land outside the park would be 
protected under this legislation. Many stunning canyons and desert 
expanses near Zion National Park or in the Mojave Desert have been 
excluded by this bill. Similarly, the bill would add less than 3,000 
acres of Forest Service wilderness despite the fact that the county is 
home to over 380,000 acres of Forest Service land. Just 50,000 acres of 
Forest Service wilderness is currently protected in the region. The 
legislation would actually strip Wilderness Study Area protection from 
over 15 square miles of now protected lands. On a whole this 
legislation would leave out many treasured local canyons, forests, and 
mountain landscapes.
    The OIA supports the protection of wilderness and strongly urges 
sponsors of this legislation to protect all of the region's deserving 
wild lands. These areas are, in part, what makes Washington County 
unique and a desired place to live, work and recreate.
                          selling public land
    We are also deeply concerned that this legislation would allow the 
sale of significant amounts of public land and direct those sale 
proceeds toward funding local and federal government projects. Under 
Title I of this legislation, as much as 24,300 acres of public land in 
a single county could be sold off for development. As I understand from 
the Bureau of Land Management, the agency has already disposed of 
roughly 18,000 acres of BLM land in the past ten years. Still this 
legislation calls for more disposal of public lands in Washington 
County. We are concerned that this legislation promotes the sale of 
public land in a region already struggling to preserve open space and 
faced with diminishing opportunities for close-to-home outdoor 
recreation opportunities.
    The legislation earmarks two percent of land sales proceeds to the 
County for administrative services, eight percent to the Water 
Conservancy District, five percent to the state for education, and the 
remaining eighty-five percent to various federal projects in Washington 
County. On a national perspective, we are deeply concerned that this 
legislation sets a dangerous precedent of selling federal lands owned 
by all Americans to fund local and federal government projects. We are 
sympathetic to local. governments which face funding shortfalls, 
however, we urge the committee not to create the expectation that our 
public lands should be sold to meet short-term funding deficits.
                       conservation gains at risk
    The legislation contains numerous provisions that promote 
development of public lands without an appropriate balance for 
conservation of at-risk wild lands. The bill establishes hundreds of 
miles of corridors for utility lines, highways, and pipelines. Public 
lands would also be dedicated to water development and dam sites. The 
legislation also authorizes the BLM to create a county-wide off-road 
vehicle trail, yet the bill fails to consider other types of 
recreational use of the landscape or the need to develop a long term 
travel management plan on public lands in the county.
    The outdoor industry depends upon the long-term protection of our 
public lands and has worked to help achieve protection of lands that 
outdoor users can enjoy. As the outdoor industry has grown over the 
years, this industry has increasingly worked to reinvest in our public 
lands and enhance the public's enjoyment of open spaces. We are 
concerned that this legislation would turn back the progress protecting 
our public lands that many outdoor retailers have sought to achieve 
over the years. Further, if this approach is repeated across the 
nation, many lands across the American West or beyond could be at risk 
of being sold.
               local communities and the outdoor industry
    The failure to protect wild lands in Washington County could have 
direct economic and cultural consequences to the communities in the 
region. Active outdoor recreation is increasingly a strong and vital 
part of our nation's economy, especially in rural areas.
    This year, Outdoor Industry Foundation, with the support of many 
other trade groups including the travel industry, completed the 
industry's first study quantifying the contribution of active outdoor 
recreation to the U.S. economy. We looked at eight activity categories: 
bicycling, camping, fishing, hunting, paddling, snow sports (including 
downhill skiing, snowboarding, cross-country/nordic, snowshoeing), 
hiking and backpacking (including mountaineering/canyoneering), and 
wildlife viewing. With the support of Secretary of the Interior Dirk 
Kempthorne and Utah Governor Jon Huntsman, we released the findings 
this summer and the numbers are impressive.
    Active Outdoor Recreation contributes:

  <bullet> $730 billion to the U.S. economy
  <bullet> Generates $289 billion annually in retail sales and services 
        across the U.S.
  <bullet> Touches over 8 percent of American's personal consumption 
        expenditures more than 1 in every 12 dollars circulating in the 
        economy
  <bullet> Generates $88 billion in annual state and national tax 
        revenue
  <bullet> Supports nearly 6.5 million jobs across the U.S.

    The bottom line is that recreation and public lands play a special 
and critical role in our economy.
    Active recreation and public lands offer other benefits as well: 
The study also shows that outdoor recreation is a primary vehicle of 
transferring wealth from our wealthier urban/suburban parts of the 
states to rural areas. It's a way of taking the dollars and casting 
those dollars to the areas where they are needed most.
    In addition, we know that outdoor recreation improves the health of 
Americans. Studies cite 25% higher health care costs for those people 
who are physically inactive. An OIF research project titled Exploring 
the Active Lifestyle examined ``how, when and why active Americans 
become active'' and it showed that 8 out of 10 active Americans feel 
that they are happier, have better family relationships and less stress 
in their lives when they are active. And 80 million Americans currently 
use outdoor activities as their main form of exercise.
    Protecting the public lands that support outdoor recreation is 
critical to establishing and sustaining balanced local economic 
ecosystems across the nation, especially in the West. We urge the 
committee and sponsors of this bill to look at ways that communities 
can maximize the benefits from our public lands, rather than simply 
selling them off for private development.
                     local and state-wide concerns
    Finally, I want to take a brief moment to explain how this bill is 
being received in Utah. It is nearly impossible to miss the widespread 
concern about this legislation throughout Utah. Many Utahns, including 
myself, care deeply about this region, but feel that this legislation 
falls short. A June 21st statewide poll showed that eighty-nine percent 
of Utahns think public hearings should be held in different locations 
around Utah before the legislation is voted on in Washington, DC. This 
legislation has not gone through the needed public review. Even in 
Washington County, the local sentiment is split. Three city councils 
have passed resolutions opposing the bill, four have passed resolutions 
in support, one city council has opposed a resolution for the bill, and 
four have taken no action. Over forty letter-to-the-editors against the 
bill have been published in Washington County newspapers. The Salt Lake 
Tribune has run three editorials and many LTE's opposing the 
legislation.
                               conclusion
    In closing we suggest that the sponsors of this legislation 
withdraw this legislation so that there can be more public review and 
opportunities for improvements. Many Utahns have concerns with the 
legislation and want a better public process. We believe that our 
public lands ought to be protected for the enjoyment of current and 
future generations. Instead of proposing to sell off our public lands 
for private development, at a time that many communities in the west 
are taxing themselves to use public money to buy private land to 
prevent its development, we urge the subcommittee to find a more 
sustainable approach to public land management and addressing the 
funding needs of the local and federal government. As Stewart Brand has 
written: ``Natural systems are priceless in value and nearly impossible 
to replace, but they are cheap to maintain. All you have to do is 
defend them.''
                                 ______
                                 
   Statement of American Alpine Institute, Ltd.; Adventure 16; Black 
  Diamond Equipment Ltd; Broudy/Donohue Photography; Cascade Designs; 
 Chaco, Inc.; Champaign Surplus Store, Inc.; Cloudveil Mountain Works, 
  Inc.; Earth Games; Great Outdoor Provision Co.; Hi-Tec Sports USA, 
Inc.; HOWADESIGN; Keen Footwear; Kelty; Mercury Advertising; MoonFoto; 
OnTarget Public Relations LLC; Outdoor Industry Conservation Alliance; 
    Pack Rat Outdoor Center; Patagonia; Pineneedle Mountaineering; 
Retailers of the Outdoor Industry; SNEWS LLC; Travel Country Outdoors; 
 The Base Camp; The Elephant's Perch; The Forest Group; Tibetan Trader 
  Inc.; Ute Mountaineer; Wild River Outfitters; and Wilderness Sports
    Dear Senator Domenici, Senator Bingaman, and the members of the 
committee, we are writing to express our opposition to S. 3636, the 
Washington County Growth and Conservation Act of 2006.
    Our companies operate in the outdoor industry, which generated 
retail sales of $33.3 billion in 2005. Our customers depend on 
protected public lands as destinations to use the products we make and 
sell.
    We have a special interest in Utah's public lands due to the 
spectacular beauty and recreational opportunities found there. The 
State of Utah also serves as the location for our industry's twice 
yearly trade shows, which bring roughly $30 million into Utah's economy 
each year.
    S. 3636 would substantially rewrite federal laws controlling 
southwestern Utah's public lands in ways that could harm the public's 
ability to climb, hike, camp, watch wildlife, hunt, fish, and sightsee 
in these special places.
    First, S. 3636 would convey thousands of acres of public lands near 
Zion National Park and the Mojave Desert into private hands. In the 
process, the bill could divert hundreds of millions of dollars in 
federal proceeds from public land conservation to support local 
development, a fundamental shift from current policy. By creating this 
loophole, S. 3636 provides a dangerous incentive to liquidate our 
nation's natural heritage. We urge you to oppose selling public lands 
to subsidize local projects and government budgets.
    Second, though we generally support new wilderness designations for 
the recreational benefits they provide, we are concerned about the 
wilderness component of this legislation. S. 3636 fails to preserve the 
most vulnerable and unprotected lands in Washington County: especially 
the ecologically rich Mojave Desert region. The bill also rolls back 
Wilderness Study Area protection now in place for roughly 9,500 acres, 
or 14 square miles of BLM land.
    Finally, S. 3636 would require that the BLM establish a new system 
of off road vehicle routes, despite the BLM's inability to manage 
existing use. We are concerned these designated routes would attract 
more off road vehicle use to proposed wilderness areas and wildlife 
habitat.
    We urge you to improve this legislation to safeguard our public 
lands, or alternatively to stop its passage. Thank for considering our 
concerns about S. 3636.

    Senator Craig. Peter, thank you very much. Because of the 
time, I will not ask all the questions that we have prepared. 
We may submit some of them to you in writing for your response.
    Commissioner Gardner, let me turn to you. Being that we've 
just finished discussing the Utah bill, I understand there has 
been a fair amount of negative press about the bill. In 
particular, I was a bit surprised that papers like the New York 
Times and the Los Angeles Times wrote very negative articles 
and editorials on the bill in the process. Is that a correct 
observation?
    Mr. Gardner. That is a correct observation. However, as you 
read the articles that have been written, you can see the words 
that SUA has presented to them, that they mirror identical a 
lot of the local things that initially came out, that SUA came 
out with against the bill in Washington County. So it is just 
an effort by them to bring it to a higher scale.
    Senator Craig. So am I to assume that neither of the papers 
came to the location and examined the location and made 
observations from that?
    Mr. Gardner. The LA Times did come and visit the area. The 
New York papers, Boston--didn't come to the area. We submitted 
comments to them after the articles came out and nothing was 
published in the papers.
    Senator Craig. Well, Mr. Metcalf's testimony leaves the 
impression that there is very little, if no local support for 
the bill. How would you respond to that, commissioner?
    Mr. Gardner. Well, we just had an election there and the 
commissioners on the board that has been very involved in this 
was elected with about 75 percent majority vote. So I would 
think that there is some support for the bill in the county.
    Senator Craig. In this election, was it a significant 
issue?
    Mr. Gardner. It wasn't a big issue. It was brought up and 
discussed by the Democratic candidate and the other candidate 
that was opposed. There were three people in that election and 
it was discussed in the election.
    Senator Craig. Okay, Mr. Metcalf, in listening to your 
testimony and Commissioner Gardner's, I would think we were 
talking about almost two different pieces of legislation. It is 
my understanding that your group had a representative 
participate fully in all the various meetings leading up to the 
bill and that an individual actually made a statement in 
support of the final agreement, is that correct?
    Mr. Metcalf. That is not quite correct. We have a wide 
membership. If we do have a member who did participate in that, 
in the process but not as an official representative of OIA.
    Senator Craig. And OIA had no official representative 
participating?
    Mr. Metcalf. That is correct.
    Senator Craig. Okay. Would you find it acceptable if it 
were more clearly stated in the bill that the land for disposal 
will be identified by including the Vision Dixie planning and 
by involving public input through BLM planning processes?
    Mr. Metcalf. Certainly the fact that there has not been a 
Vision Dixie process in the front end of this is very 
problematic. The way to create a quality--a good quality of 
life of vision for the future that creates a community with a 
medium and long-term economic future is to engage in a 
thoughtful planning process like they do and then determine 
which lands need to be sold, which lands need to be held onto 
and also give consideration to which lands need to have 
permanent wilderness designation and that has not occurred yet.
    Senator Craig. You state that only a fraction of the public 
lands will be protected and my staff and I in looking at this 
find that nearly a fourth of the Federal lands in the county 
will be designated wilderness and more than half are protected 
by other designations. One only needs to look at the map and 
I've looked at the map to see how much of the Federal land is 
already set aside in some form of protective designation in 
southern Utah. I guess my ultimate question is then, how much 
is enough?
    Mr. Metcalf. Well sir, when you talk about lands being 
protected and in Federal hands--that also includes lands that 
can be used for lumbering. It's lands that can be used for off-
road----
    Senator Craig. I'm not talking about multiple use, I'm 
talking about National Park Service systems, wildernesses, 
designated non-use or roadless areas, where those kinds of 
commercial activities cannot go on. That is what we find by the 
maps, is designed in this particular county. Is that not 
accurate?
    Mr. Metcalf. Well, let me say this. I'm not an expert on 
what percentage of the land should be preserved or not. It's 
not a numbers game from our perspective. It's a matter of there 
are some spectacular lands, canyons, mountains, plateaus, 
mesas, desert areas that are beautiful from a recreational 
standpoint that are not getting protected and we believe they 
deserve protection. When we look at the amount of Federal lands 
down there, it's a very small percentage that we're really 
talking about.
    Senator Craig. Since your organization is a national 
organization, am I correct to assume that you have similar 
concerns and therefore oppose the Nevada legislation or have 
you expressed an opinion on it?
    Mr. Metcalf. We have not expressed an opinion on the Nevada 
legislation.
    Senator Craig. Thank you very much. Commissioner Eldridge, 
from your written testimony, it appears there are still a few 
issues that the county would like to see addressed if possible. 
Besides these few issues, is the county satisfied with what 
would come out of the bill and is the county going to benefit 
by those actions?
    Mr. Eldridge. Yes. The county is satisfied with the 
progress thus far, the terms of this bill. It does feel--as I 
mentioned, there are a few things that we feel should be added 
or amended but overall, the county supports this bill.
    Senator Craig. Have you made those areas of interest to you 
available to the committee?
    Mr. Eldridge. I believe they are in our written testimony, 
yes.
    Senator Craig. Okay. I thank you for that. Mr. Greenberg, 
in your written testimony, you described the BLM wilderness 
inventory as faulty and limited to two separate 90-day public 
comment periods. You went on to describe a Citizen's Wilderness 
Proposal. What kind of public process did the Citizen's 
Wilderness Proposal use and how long was the public comment 
period on that one, do you recall?
    Mr. Greenberg. As a citizen's effort, it really is very 
open and very public and it went on for some time. So in a 
sense, while there is no formal public input or process like an 
agency would have, it was one where very many people could get 
involved, did get involved and we were open to as many people 
wanting to get involved as possible and so we very much looked 
for the public to be involved. In that sense, it was very much 
a public process.
    Senator Craig. How many acres total were identified in the 
Citizen's Proposal?
    Mr. Greenberg. It was 730,000 acres, sir.
    Senator Craig. Are there other ways to protect these lands? 
And with a well-deduced designation?
    Mr. Greenberg. As you know, sir, there are a number of 
different ways you can protect land. In this case, wilderness 
is the right protection for these lands. Things such as off-
road vehicle use, wilderness is one of the best tools, in fact, 
to help ensure that those lands are not damaged from 
inappropriate use. There are, of course, places where it is 
appropriate. Wilderness, it is not.
    Senator Craig. Your group appears to have accepted the idea 
of land disposal in Nevada while wilderness groups, including 
the Wilderness Society, seem to strongly object to this concept 
in other states. In fact, statements have been made by other 
members of the Wilderness Society that no public land should be 
disposed of, such as right next door in Utah. Why is this so? 
Why can you accept that in Nevada but you cannot accept it in 
other places in the Nation?
    Mr. Greenberg. Well, we actually see the land disposal as 
being excessive in both bills and we've said so. We do believe 
there can be a place for land disposal. It needs to go through 
the right processes, it needs to be a public process and it 
really should be tied to specific sorts of needs and issues 
before the public good and these things we've stated 
consistently across all bills. So we're hoping that we can 
continue to work on the White Pine legislation and improve 
those aspects of the land disposal, that we have been 
consistent in our statements about that.
    Senator Craig. Okay. Well, gentlemen, to all four of you, 
thank you very much for your patience today before the 
committee. Oh, I'm sorry. Maria, I'm very sorry. I apologize. 
Before I make my concluding statement, let me turn to the 
Senator from the State of Washington who has been patient.
    Senator Cantwell. Thank you, Mr. Chairman. I will submit a 
longer statement for the record, too and I certainly appreciate 
you holding this hearing. As a Senator from Washington sitting 
in Scoop Jackson's seat in the U.S. Senate, I feel a particular 
focus to this issue, since he was the author of the 1964 
Wilderness Act. I certainly want to make sure that we are 
continuing in the good stead of making sure that Wilderness 
Acts proceed with the right level of oversight and 
communication, given the delicate political balance that they 
often are. Mr. Chairman, I want to thank you for your long 
support for the Wild Sky Wilderness bill, which I will mention, 
has passed the Senate several times and back and forth but 
we've not been able to pass both bodies at the same time, which 
leads me to the question about what's the problem in this 
particular proposal as we've gone through many things of 
dotting the i's and crossing the t's in Washington State on 
something that I think is a lot less controversial.
    Here's my question. This process obviously, of selling 
Federal land that seems to be married in this bill, a 
Wilderness Act but yet circumventing the BLM process of selling 
Federal lands, is obviously, as you were alluding to, a little 
bit short-cutting the process of stakeholders and others and 
their discussion of the impacts of selling that Federal land. 
So what precedent are we setting here and what are some of the 
problems of doing that, that we should be specifically 
concerned with, as this bill moves out of this committee?
    To either Mr. Greenberg or Mr. Metcalf and I'm happy to 
hear from Mr. Gardner, if he wants to chime in.
    Mr. Greenberg. Speaking about White Pine County, the 
legislation doesn't tie it to a RMP process. So that's on the 
White Pine side. On the Washington County side, we are very 
much concerned that it is, in fact, not tied to an RNP public 
process where the land could, in fact, be identified in a 
proper way, understanding what the resources and values are, 
both natural and cultural. So that is a very big issue for us 
on the Washington County bill, absolutely.
    Senator Cantwell. What about the--in general, whether that 
process is there. Historically, obviously, the BLM process is a 
long process and so you think having legislation that has a 
review process in it spelled out is good enough? Or the White 
Pine versus the Washington County or would you prefer that we 
do it the old fashioned way of having a wilderness bill and 
then having any Federal lands sold through the BLM process.
    Mr. Greenberg. Certainly if we were writing the 
legislation, we would be writing wilderness legislation and 
allowing the BLM to do its job through the land disposal 
process that it has.
    Senator Cantwell. Why is that preferable?
    Mr. Greenberg. There are laws in place to handle disposal 
and tens of thousands of acres, in fact, are being disposed of 
year by year, by year. It does happen. It allows the public a 
chance to be involved but that is where the White Pine 
legislation actually is helpful because it still ensures the 
public will be involved and it's very critical to us that 
that's a core value that the public is, in fact, involved. So 
it allows for the resources rather than actual or cultural to 
be identified, for there to be discussion about that, to 
understand what the management implications are. There is a 
whole process, history and tradition by which that can take 
place. To the degree that a piece of legislation is going to 
address it--the more that it is used to that, adheres to that, 
the less problem we have with it.
    Senator Cantwell. I guess I'm concerned, as a member of 
this committee, where this process leads to in various 
wilderness bills moving forward. It becomes a standard norm. Is 
this really what we want to become a standard norm? Certainly I 
don't think Washington County is the way we want to do it and I 
would even suggest that in this particular case, it's setting a 
precedent and process and procedure that I think we need to 
think of the pluses and minuses of doing it this way versus the 
safeguards that we have in the normal process.
    Mr. Metcalf, do you have any comment?
    Mr. Metcalf. I think speaking on behalf of OIA, we share 
your concerns. We also recognize that certain political 
realities in the times we live in and we are keen to see 
wilderness bills that preserve wild recreational areas, 
preserved and if one needs to engage in some kind of land 
dispersal, then we are open to that as it's been done in White 
Pine County. The concern is really in Washington County, is 
number one--that it is departing from existing law and 
practices and it's a huge concern. How will it change next time 
and second, the lands being disposed of aren't even identified 
at this point in time. It's not as if we have some specific 
lands that we've all agreed have no cultural, recreational or 
other value. Instead, it's sort of more the cookie jar approach 
of let's just pick up to 25,000 acres. We need the funding and 
we'll sell the south without identifying it and then we'll tie 
in it with some paltry amount of lands being preserved. That is 
a big concern for us.
    Senator Cantwell. Mr. Gardner?
    Mr. Gardner. Yes, thank you. I appreciate the opportunity 
to comment on that as far as the Washington County bill goes. 
The 4,300 acres that are identified in the first phase of that 
sale have already had their cultural clearances and all of 
these--they've already been through the process, they've 
already been cleared for sale and they consist mostly of 
isolated parcels of BLM ground that have been hard for them to 
manage. The additional part that is identified in the bill, 
from up to 20,000 acres to be sold, is going to be identified 
in our Vision Dixie process, the planning process, public 
process we're going through at this time. And it is my 
understanding that they still, even then, will have to go 
through a BLM plan amendment and through the normal channels to 
actually get that ground to sale purposes. It would be merely a 
method of identifying ground that the local communities feel 
would be of benefit to them and as Mr. Metcalf mentioned in his 
statement, in the past 10 years, there has been 18,000 acres of 
BLM land sold in Washington County. What he failed to mention 
is that there has also been 18,500 acres of ground that BLM has 
acquired, of private ground and there is yet in our Habitat 
Conservation plan that would be a national conservation area. 
In this bill, there is yet about 7,500 acres in there that has 
yet to be acquired by BLM that currently at this time, as a 
conservative estimate, has a value in excess of $400 million.
    So there are two sides to the issue of selling and 
acquiring BLM ground.
    Senator Cantwell. So you would oppose any attempt to 
improve this wilderness bill that is similar to the White Pine 
legislation that at least puts the process more on track at the 
same time? The process of selling Federal lands?
    Mr. Gardner. I think our process is a very similar process 
to what White Pine has and what Lincoln and Clark County have 
already been in the process of doing.
    Senator Cantwell. Mr. Chairman, I will submit further 
questions for the record but I do remain concerned about this 
process from a precedent-setting perspective. I think there was 
one other time that we had a precedent set in 1998. So I'll 
review those and come back to the committee. But I think from a 
perspective of the complexity that wilderness bills are, we are 
adding a new level of complexity in the selling of Federal 
lands in a unique process. So perhaps we can have more 
oversight as a committee on this, from a large perspective in 
addition to the individual bills that we will be discussing. 
Thank you.
    Senator Craig. Senator, I appreciate that dialogue. I think 
it is very constructive. One of the things that I think this 
committee and those of us who've attempted to designate 
wilderness areas have found over the last decade, is a near-
impossibility of doing so, largely because everybody wants to 
adhere absolutely to the 1963 Act and we know that what might 
have worked in 1963 and in large parcels of those that seem to 
be immediate and easily identified, is the case. But as we 
become more complicated in identifying those and as landlocked 
counties need to grow a little bit because of the pressure that 
is on them or economies are struggling because of certain 
changes in public policy, I think it is a worthy point of 
discussion.
    I've taken the public position that I'm opposed to the sale 
of public lands and have been rather vocal about it except in 
those rare occasions where we can collectively and in a public 
way, identify and do so and what seems to be happening--I've 
got a couple of bills emerging out of Idaho now that local 
environmental groups have agreed to and ranchers and off-road 
vehicle people and the whole combination have come to a 
compromise on because they are a balance. They are not just 
wilderness. They are a little bit of grazing relocation, maybe 
some grazing buy-out, maybe some public land that is taken 
private because of landlocked communities and those kinds of 
things.
    And I'm not suggesting this is the path into the future but 
I am suggesting that the 1963 Act as we know it has pretty well 
stalled out. It is very difficult today to designate wilderness 
and wilderness alone. If you're listening to all the publics 
involved. And I think it seems to be that case in Idaho. I 
think that's probably the problem in Utah and it's also the 
concern in Nevada, in part. And of course, the State of 
Washington and the State of Idaho are nowhere near as 
landlocked federally as is the State of Nevada, especially but 
Utah has a similar configuration. So it is a struggle and it is 
one that is worthy of the dialogue you're talking about because 
I'm not sure we move further ahead if it's no to everything 
except absolute designation of wilderness. If that comes, it 
comes in very small parcels usually. It can't be connected in 
the comprehensive and associated with others and at least it 
hasn't been, except in rare occasions, so that is a worthy 
dialogue for all of us to have as we try to move some of these 
stalled out designations and in my State, the roadless area 
review, RARE-2, should have been resolved a decade or two ago. 
I tried mightily for a couple of times. It didn't work because 
of the absoluteness of those who were the advocates of and now 
I have my colleagues trying to strike a balance. We'll see how 
far we get but that is important.
    Gentlemen, again thank you for your time and your testimony 
and there may be questions coming your way as it relates to 
these two pieces of legislation.
    I know the Senators involved are quite intent on causing 
them to move if they can. So we will work with you and with the 
agencies involved to make them as good as possible. Thank you 
all.
    The committee will stand adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Secretary Kempthorne to Questions From Senator Cantwell
                   concerns over sale of public lands
    Question 1. I understand that the area around Washington County 
contains many archaeological sites, cultural places, and habitat for 
endangered species and that it will be difficult to identify lands 
suitable for sale in a manner that does not compromise these valuable 
resources. I understand that the Bureau of Land Management (BLM) and 
the Forest Service's normally identifies lands suitable for sale during 
periodic revision of land use plans under section 202 of the Federal 
Land Policy and Management Act (FLPMA). This revision process includes 
public involvement, tribal involvement, considers multiple uses, uses 
an interdisciplinary scientific approach, protects areas of critical 
environmental concern, relies on an inventory of public lands and 
resources, considers present and potential uses, considers the scarcity 
of values involved, weighs short term and long term benefits, provides 
for compliance with pollution laws, and coordinates activities with 
other federal agencies. Under section 203 of the FLPMA, land sales are 
to be made only after section 202 consideration and only then if the 
Secretary determines that lands to be sold meet criteria consisting of 
(1) the lands are difficult or uneconomical to manage as public lands, 
(2) the land was previously acquired for a purpose no longer required, 
or (3) sale of the land serves public objectives. Has the 
Administration determined whether or not 25,000 acres of publicly held 
land, in addition to the 18,000 recently identified by the BLM, exist 
in Washington County that are suitable for sale under the existing 
criteria in section 203 of the FLPMA? Have these lands been identified, 
and if so how was the public involved in the identification process?
    Answer. Of the lands identified in Section 102(b)(1), the Bureau of 
Land Management (BLM) has identified, conducted National Environmental 
Policy Act (NEPA), and completed related clearances on 1,125 acres. The 
remaining 3,175 acres have been identified for disposal in the 
applicable land use plan, but NEPA and related clearances is not 
complete. Regarding the 20,000 acres referred to in Section 102(b)(2), 
the BLM has not identified any of this land for disposal in the 
applicable land use plan. The Administration recommended making this 
identification subject to the FLPMA process you noted.
    Question 2. If this bill were to pass, how will the Administration 
be able to ensure public involvement in the process as required under 
existing law?
    Answer. If S. 3636 were to become law, the BLM would look to the 
specific provisions of the legislation, such as those requiring 
compliance by qualified bidders with local planning and zoning laws, 
including revisions to County plans adopted after passage of the Act, 
as well as other relevant laws, and provisions in the Federal Land 
Policy and Management Act (FLPMA), for direction on how to proceed.
    Question 3. If this bill is enacted, how can the Administration 
ensure that land sales do not come in conflict with areas designated as 
critical for recovery of endangered species?
    Answer. Section 102(i) of S. 3636 allows the Secretary of the 
Interior to place restrictive covenants on parcels of lands to 
``protect the interests of the United States.'' This would allow a 
restrictive covenant prohibiting, for example, any surface disturbance 
if that were necessary to protect endangered plant species.
    Question 4. I understand that the Washington County bill contains 
blanks for the map references, but that BLM has prepared unofficial 
maps. Who directed you to produce these maps, and what process was used 
for their development, given requirements under existing federal law 
like the Federal Land Policy and Management Act (FLPMA)?
    Answer. The BLM prepared maps as a service for S. 3636 at the 
request of the sponsor. The BLM regularly provides this service at the 
request of Senators and Members of Congress. These maps reflect the 
specific requests of those members but do not reflect the support or 
opposition of the Department of the Interior for a particular 
legislative proposal. All such maps are dated and clearly marked that 
they are prepared at the request of a particular Senator or Member of 
Congress.
  adminstration opposition to legislatively-directed public land sales
    Question 5. I understand from your testimony that the 
Administration objects to provisions within S. 3636 requiring the sale 
of public lands. I also understand that last year the Bush 
Administration tried to revise a law that passed in 1998, the Southern 
Nevada Public Lands Management Act, that set the precedent for 
redirecting public land sale funds for specifically legislated county 
conservation or development projects. I believe these legislatively-
directed federal land sales are a key issue in several of the 
wilderness bills pending before Congress. Therefore could you expand on 
the Administration's objections to land sale provisions in these bills?
    Answer. The Administration believes all taxpayers should benefit 
from the sale of federal lands, and that there should be a limit on the 
amount of federal funds retained for mandatory spending not subject to 
regular oversight through the appropriations process. The 
Administration has not objected to the sale of public lands where they 
have either first been identified for disposal pursuant to FLPMA, or 
would be identified for disposal through a public process provided for 
in the legislation. With regard to the land sale provisions in S. 3636, 
we have recommended changes to allow for flexibility and a public 
process.
    Question 6. What criteria does the Administration use when 
determining whether they oppose any particular federal land sale 
proposal?
    Answer. The Department of the Interior generally looks to BLM's 
primary authorizing statute, FLPMA, for guidance in evaluating various 
land sale proposals. BLM is delegated the authority to sell federal 
lands that have been identified for disposal through the public 
planning process provided under Section 202 of FLPMA, and BLM generally 
considers this public process to be highly valuable. The criteria used 
by the Secretary to assess the merits of disposal for certain parcels 
of land are provided in Section 203 of FLPMA, and BLM generally takes 
into account the same factors when assessing legislative land sale 
proposals.
    Question 7. If the amount of revenue from federal land sales going 
to local entities is restricted to a certain level, does that change 
the Administration's support for a particular proposal? I understand 
total revenues from the proposed Washington County land sales could 
exceed $1 billion.
    Answer. The Administration believes all taxpayers should benefit 
from the sale of federal lands. The Administration's views on the 
appropriate revenue division in the sale of federal lands is reflected 
in our 2007 proposed budget. In that request, we proposed to amend the 
Federal Land Transaction Facilitation Act (FLTFA), P.L. 106-248, to: 
(1) allow BLM to use updated management plans to identify new areas 
suitable for disposal, (2) allow a portion of the receipts to be used 
by BLM for restoration projects, (3) return 70 percent of the net 
proceeds from these sales to the Federal Treasury, and (4) cap DOI 
receipt retention at $60 million per year. The Administration's 
proposal to amend FLTFA would continue to dedicate a portion of BLM 
land sale proceeds for high-priority land acquisition projects 
elsewhere.
    Question 8. Does the Administration believe that there should be a 
connection between the acreage proposed for disposal and the 
demonstrated need for specific lands by local communities?
    Answer. Yes. The Administration supports the general proposition of 
making some public lands available for community growth where it is 
necessary and appropriate, but cannot support the requirement to 
dispose of a specific amount of public lands that may not be suitable 
for disposal.
    Question 9. Do you consider the areas to be protected reflective of 
Administration wilderness priorities in Nevada and Utah?
    Answer. The 1964 Wilderness Act and Section 603 of FLPMA make it 
clear that Congress has the sole authority to designate and permanently 
manage BLM lands as wilderness. The Administration's responsibility 
outside of the public planning process is to respond to and comment on 
wilderness legislation. The BLM-managed areas proposed for designation 
under S. 3636 and S. 3772 meet the requirements of the Wilderness Act 
of 1964, and the Administration supports Congress in designating them 
as wilderness. BLM would like to work with the sponsors and the 
Committee on possible minor boundary adjustments to ensure efficient 
manageability.
    Question 10. Are there any wilderness quality federal lands 
nationwide currently slated for disposal?
    Answer. There is no definition of ``wilderness quality federal 
lands.''
    The Department of the Interior manages designated wilderness under 
the administration of three agencies: the National Park Service, The 
United States Fish and Wildlife Service, and the Bureau of Land 
Management. Neither the Park Service nor the Fish and Wildlife Service 
are actively disposing of lands within their jurisdiction.
    The BLM disposes of limited amounts of land under conditions 
identified in approved land use plans. These are typically small tracts 
of public land located close to population centers. The BLM never 
identifies for disposal lands that are designated either as wilderness 
or as wilderness study areas.
                   flexibility in the wilderness act
    Question 11. While the 1964 Wilderness Act prohibits commercial 
activities, motorized access, or roads and structures, the Act does 
provide considerable flexibility for activities that do not conform 
with these general restrictions. I understand that several dozen 
previously enacted wilderness bills allow otherwise prohibited 
activities in some circumstances. Activities such as allowing a local 
government to maintain access to a watershed, or limited boating use in 
certain lakes. How do these allowable activities, which are based on 
the Wilderness Act exceptions, differ from what is being proposed by 
the legislation under consideration at today's hearing?
    Answer. The nonconforming uses allowed under S. 3636 and S. 3772 
are similar to exemptions contained in previously enacted laws. 
Historically, certain wilderness laws have contained special provisions 
needed to respond to activities specific to an individual wilderness. 
Likewise, S. 3636 and S. 3772 provide some exemptions to The Wilderness 
Act. Special provisions include: allowing the State to use aircraft to 
manage wildlife and feral horses and burros, requiring the Secretary to 
authorize wildlife facilities when specific conditions are met, and 
allowing installation and maintenance of climatological data collection 
devices as if the areas were not designated wilderness.
                                 ______
                                 
    Responses of Jerry Greenberg to Questions From Senator Cantwell
                     compromise wilderness packages
    Question 1. Unfortunately, the politics of wilderness designation 
seem to have grown more contentious over the last few years, despite 
growing recognition of the social and economic benefits of preserving 
our nation's last remaining pristine areas. This could be in part due 
to pressures of population growth in the West, the rise in popularity 
of off road vehicle use, and difficult economic conditions present in 
many rural counties. These challenges became apparent to me over the 
course of working with my colleagues in Congress to pass the Wild Sky 
Wilderness Act. I learned through that process that by involving local 
stakeholders in an open and transparent process it is possible, to 
develop a wilderness package that everyone can agree on. However, I 
note that we did not have to try and include lots of special provisions 
that legislate specific rights for various interest groups, including 
revenues linked to federal land sales. Mr. Greenberg, could you please 
comment for me on your views of striking the right balance between 
compromise and protection in wilderness designation bills? Do these 
bills strike that balance?
    Answer. The question of how to achieve the right balance in public 
lands bills is indeed a difficult one with no obvious answers. This is 
especially true in recent years as more and more Americans move near to 
and/or recreate on the public lands, resulting in heavier, more 
intensive use, and more competing demands on the land than ever before. 
Particularly noteworthy is off road vehicle use, which barely existed 
on the public lands as little as two decades ago. Today, the number of 
vehicles has exploded, and due to their very nature and the fact that 
they have largely been unmanaged, they are found in more and more 
places, including remote backcountry areas. The explosion in numbers 
has led to widespread damage and increasing conflict among many 
different public lands users.
    Yet, off road vehicle use is but one example of a growing list of 
recreational uses that can lead to disagreement and conflict. Add to 
this, other growing demands such as a highly accelerated energy 
development program and it becomes clear why public land management, 
including wilderness protection, has grown more complex, difficult, and 
in many cases contentious over time.
    As for the White Pine County legislation, S. 3772, it is important 
to recognize that it is not a wilderness bill. Rather, it is a bill 
that attempts to deal with multiple public lands issues facing White 
Pine County. The Nevada congressional delegation has decided that 
instead of addressing each and every public lands issue facing each 
county in Nevada in a piece-meal fashion they would address them in one 
legislative effort on a county-by-county basis. That being said, we 
have made a decision to engage in conversations at the local level to 
advocate for deserving areas to be protected.
    The White Pine bill is a good example of legislation that attempts 
to balance various needs. To begin with, the bill would designate 
545,000 acres of ecologically critical lands under threat from 
inappropriate ATV use and other development, a significant gain for 
land protection by any measures. And while there are aspects of the 
land disposal provision we want to see changed, the legislation would 
ensure that lands identified for disposal go through the Resource 
Management Plan process. Finally, virtually everyone involved in the 
development of the legislation feels that the process was open, 
inclusive, and fair.
    On the other hand, the Washington County legislation, in our minds, 
is an example of legislation that does not strike a fair and balanced 
solution. A majority of the land that would be designated as wilderness 
is located within Zion National Park and therefore already mostly free 
from development threats. Conversely, tens of thousands of acres of 
wilderness lands at risk from ATV use and other threats would be left 
unprotected. With respect to land disposal, the legislation mandates 
that land be sold outside of the public process inherent in the 
development of a Resource Management Plan. Lastly, there is widespread 
disagreement among those who participated about how fair and open the 
process has been.
    In summary, it is our opinion that S. 3772 does strike a fair 
balance in addressing these complex public lands issues. However, the 
Washington County legislation (S. 3636) does not.
    Question 2. How would you characterize the overall quality of 
wilderness protection offered by the Washington County bill?
    Answer. The Washington County bill does provide additional 
protections to lands and waters within Zion National Park by 
designating nearly 124,000 acres of wilderness and numerous miles of 
Wild and Scenic River designations within the park. While these lands 
and waters are deserving of protection, they are already well protected 
from development pressures and inappropriate motorized recreation by 
the national park designation. In contrast, the public lands managed by 
the Bureau of Land Management (BLM) and U.S. Forest Service within 
Washington County, which are at risk from unmanaged off road vehicle 
(ORV) use, mining, logging and other development activities, are 
largely left unprotected.
    The Utah Wilderness Coalition and citizens of Utah have identified 
approximately 300,000 acres of BLM public lands that qualify for 
wilderness designation within Washington County. Over 200,000 of these 
acres are left out of the Washington County bill, including nearly 
70,000 acres of the lands previously identified by the BLM as potential 
wilderness. In 1999, the BLM finalized a survey of lands proposed for 
wilderness designation in America's Red Rock Wilderness Act. In 
Washington County, the BLM identified a number of qualifying wilderness 
areas that would not be protected by the bill, including: Cougar 
Canyon, the Narrows, Joshua Tree, Beaver Dam Wash, Red Mountain, 
Orderville Canyon, Deep Creek, the Watchman, Goose Creek, Spring Creek 
Canyon, Black Ridge, Canaan Mountain, Parunuweap Canyon, Moquith 
Mountain, and Upper Kanab Creek.
    While the Washington County bill would designate approximately 
93,000 acres of BLM land as wilderness, 80,000 acres of this proposal 
are already protected as WSAs. That means less than 13,000 acres of 
vulnerable unprotected land would be designated.
    At the same time, the Washington County bill would also remove 
existing protections for certain wilderness lands. The legislation 
would release roughly 9,500 acres of currently protected BLM WSAs. For 
example, the Canaan Mountain WSA would be shrunk to include only the 
canyon tops of the area, removing protections for the vulnerable the 
wildlands along the base of Canaan Mountain. By stripping the canyon's 
base of its current WSA protection, the bill would actually leave ,this 
canyon more vulnerable to impacts than it now is.
    Of particular concern, almost none of the landscape in the Mojave 
Desert in the western side of the county would be preserved, despite 
the great threats from growing ORV use. This half of the county 
encompasses a vast area of largely undeveloped public lands important 
both as habitat for endangered species and as a source of archeological 
and culturally significant resources. This unique and biologically rich 
region is the only place in Utah where the endangered desert tortoise 
and iconic Joshua tree are found. The desert tortoise is highly 
susceptible to ORV use; individual animals are sometimes literally 
crushed to death under the wheels of larger ORVs, and the vehicles also 
destroy underground burrows that provide. refuge for tortoise and the 
young. Yet, only a fraction of this critical tortoise habitat is 
currently protected against irresponsible ORV use.
    Similarly, Forest Service lands are virtually ignored in this bill. 
Less than 3,000 acres of national forest wilderness areas would be 
designated, though citizens identified 300,000 acres of Forest Service 
land that deserve wilderness protection. We would recommend a much more 
thorough review of Forest Service lands if this legislation proposes to 
make wilderness designations.
    Question 3. Do you believe this protection is sufficient to counter 
the likely growth, sprawl, and resource use that will be encouraged by 
non-conservation provisions within these bills?
    Answer. In stark contrast to the Washington County bill, the 
wilderness protection contained in the White Pine County legislation 
(S. 3772) is substantial. The 13 new wilderness areas that would be 
designated in S. 3772 represent significant gains for conservation and 
wilderness in Nevada. We also consider these to be significant and 
important additions to the National Wilderness Preservation System. 
Although we proposed over 730,000 acres for wilderness in White Pine 
County, we feel that the 545,000 acres identified in the bill is a good 
first step for wilderness protection in White Pine County. We continue 
to advocate for better protection for the South Egan WSA and the Blue 
Mass/Kern mountain area.
    We feel strongly that the land conservation provisions within the 
Washington County legislation are inadequate to protect deserving 
public lands and waters, and are concerned that the bill actually would 
encourage more unplanned development in one of the fastest growing 
counties in the nation. The bill contains numerous provisions that 
would promote more sprawl by selling off public lands to private 
developers and by authorizing new development infrastructure across the 
county.
    Of top concern is the bill's provision to dispose of as much as 
24,300 acres of BLM land within Washington County, much of which would 
likely be sold to private developers. This provision conflicts with 
existing laws that govern the purpose for and way in which land 
disposal is carried out. Moreover, the St. George Chamber of Commerce 
has said that 200,000 acres of private land are already available for 
development. The BLM has the authority to sell and exchange public 
lands; according to the St. George Field Office, the BLM has already 
disposed of some 18,000 acres of BLM public land in the last decade. 
The bill also fails to ensure that many sensitive and wild lands that 
are proposed for wilderness will not be sold for private development.
    S. 3636 would further promote development by authorizing the 
creation of new highways, new utility corridors, a new ORV trail 
system, and new rights-of-way for water development across the county. 
In addition, 9,000--10,000 acres of BLM public lands would be given 
away to the county or granted to the County as a right-of-way with no 
return to the public trust.
    The legislation would authorize these development-oriented 
provisions before the Envision Dixie process is allowed to run its 
course. This local planning process was only recently initiated in 
order to address the county's many growth challenges in a deliberate 
and thorough manner that allows for public input and thoughtful 
dialogue.
    Question 4. While the 1964 Wilderness Act prohibits commercial 
activities, motorized access, or roads and structures, the Act does 
provide considerable flexibility for activities that do not conform 
with these general restrictions. Could you comment on how the bills 
before us propose activities that are outside the scope of the 
exceptions allowed under the 1964 Wilderness Act?
    Answer. The varied benefits derived from wilderness depend in large 
part on the preservation of its undisturbed, natural integrity. 
Wilderness is a resource providing services important to humans and the 
rest of the natural world. While a principal of wilderness is to allow 
natural process to freely operation, there may be times when it is 
appropriate to reintroduce fire, remove exotic species or take other 
steps.
    S. 3636 and S. 7372 contain similar wilderness management 
provisions. In general neither bill introduces wholly new precedent. 
However, while acknowledging that Congress has used its prerogative to 
continue to interpret language relating to wilderness management, it is 
also critical to ensure that the underlying intent of the Wilderness 
Act is not in any manner weakened or diluted. Whether or not specific 
provisions have appeared in other legislation is not in and of itself 
determinative. In the context of these two bills, this is especially 
relevant to the issue of wildlife management.
    The presence of native fish and wildlife populations at naturally 
fluctuating population levels is an important component of wilderness 
character. Maintaining healthy populations of nature wildlife and 
restoring populations that have been depleted due to human influence 
can be primary reasons for designating an area as wilderness. Habitat 
modification in wilderness is inappropriate ``except as necessary to 
meet minimum requirements for the administration of the area for 
purposes of [the Wilderness] Act.'' (Section 4(c)).
    In certain limited instances, however, habitat modification in 
wilderness may be necessary to maintain wilderness character. 
Specifically, certain management activities may be necessary to restore 
wildlife populations that have been suppressed by human-caused habitat 
degradation. Where they occur, such forms of intervention must be the 
``minimum tool'' necessary to accomplish the task and should be 
designed to be temporary and directed at stabilizing native species.
    With respect to artificial water sources (e.g., ``guzzlers''), we 
note that both White Pine County and Washington County contain many 
natural springs and creeks. As noted above, the Wilderness Act provides 
the flexibility to allow land managers to carefully analyze whether or 
not any particular activity--including the installation of guzzlers--is 
necessary to further the purposes of the Wilderness Act. Given this, we 
believe that adequate direction is provided to managers in the 
Wilderness Act itself (coupled with agency guidelines) and any new 
legislative language specific to guzzlers is unnecessary and runs the 
risk of diluting the intent of the Wilderness Act and confusing land 
managers by suggesting that particular activities (for example, the 
construction of guzzlers) are necessary.
    Similarly, while existing activities related to wildlife survey, 
monitoring, capture, and water transport might be consistent with the 
Wilderness Act in any given situation, language in these two bills have 
the potential for suggesting to land managers that all existing 
activities may continue even if conditions change. Clearly, such an 
interpretation is inconsistent with the Wilderness Act.
                                 ______
                                 
      Responses of Alan Gardner to Questions From Senator Cantwell
                     compromise wilderness packages
    Question 1. If this bill were to pass, what effect would it have on 
S. 882, America's Red Rock Wilderness Act, which is sponsored by 17 
Senators? Specifically, does S. 3666 dispose of any lands that are 
identified as suitable for wilderness protection in that bill?
    Answer. The language of S. 3636 specifically excludes any lands 
which have already been withdrawn for any purpose, including 
wilderness, ACEC, NCA, or National Park. Further, we have made every 
effort to avoid any other proposals for special designation in 
identifying the pool of lands from which potential sale lands may be 
selected.
    Consequently, none of the 4300 acres identified in the directed 
sale parcels of S. 3636 would have any effect on S. 882, America's Red 
Rock Wilderness Act. Further, the lands that may be selected in tier 
two would all be selected in the county-wide and very public growth 
vision process, ``Vision Dixie,'' and that process will minimize 
conflicts with lands that hold special value to any stakeholder.
    Question 2. Has the County estimated the amount of revenues that 
would be generated from the public land sales proposed under S. 3636? 
Are you concerned that these revenues would create a disparity between 
Washington and other Utah counties?
    Answer. The County has not done an official analysis to determine 
the value of the lands in the 4300 acres that have been identified in 
the directed land sales. In a discussion with the BLM area manager, we 
estimated a rough value of between $75,000,000 and $125,000,000 on that 
land. There is no estimate on anything that may be sold in the second 
phase. The areas where land may be acquired will be identified by the 
``Vision Dixie'' public planning process that we are currently 
conducting. Acreage totals have yet to be determined, so it is hard to 
make an estimate until the public has an opportunity to weigh in with 
recommendations.
    The BLM still must acquire around 7500 acres of desert tortoise 
habitat inside our existing Habitat Conservation Plan area (Red Cliff 
National Conservation Area) in S. 3636. It has a conservative value of 
$400,000,000.00.
    We are not concerned that the revenues generated will create a 
disparity between Washington and other Utah Counties. In fact, the 
other counties are watching very closely and are anxious for S. 3636 to 
pass. Four other counties have started a joint process for a similar 
bill, and others are preparing to request legislation if we are 
successful. Further, the funds raised by land sales go into 
conservation projects in the County and to address impacts from such 
large areas of public lands in the county.
    I would also like to comment on Mr. Metcalf's answer to Chairman 
Craig's question as to the participation of a representative of the 
Outdoor Retailers serving on the working group and being a strong 
supporter of S. 3636. Mr. Metcalf implied that the person was not 
really a representative. That is not the case. Washington County 
contacted Outdoor Retailers and asked for a name to serve on the 
working group. They responded by submitting two names: Lin Alder and 
Doug Syphus.
    Lin moved to the area around 1986 with his family when his father 
came to Dixie Junior College and was partially educated in Washington 
County. At the time his name was submitted, he was a free-lance 
photographer and writer, traveling extensively (often out of the 
country). Doug Syphus' family had been in the County for at least three 
generations. He has been employed at Outdoor Outlet for over 20 years 
and a partial owner since 1991. Outdoor Outlet sells tents, sleeping 
bags, rappelling, backpacking and all other types of outdoor equipment. 
They employ 7 to 15 people, depending on the season of the year. Doug 
is an avid hiker and backpacker. He has been a scoutmaster for the Boy 
Scouts of America and at the time he joined the Working Group was in 
charge of overseeing scouting activities for eight different groups of 
boys from 12 to 18 years of age.
    Doug was selected because we felt his qualifications were better 
because he had daily contact with large numbers of people using our 
local public lands for recreation on a regular basis. After returning 
from the Senate hearing, I visited with Doug Syphus. He stated that he 
had been contacted by Outdoor Retailers, who asked if he was willing to 
have his name submitted to serve on the Working Group, to which he 
agreed.
                                 ______
                                 
     Responses of Peter Metcalf to Questions From Senator Cantwell
                     compromise wilderness packages
    Question 1. As a business man who is directly impacted by the loss 
of pristine public lands, how would you assess the cost-benefit ratio 
of the various provisions in the Washington County bill? In other 
words, do you believe the lands designated for wilderness protection 
are a good trade for the loss of public recreation opportunities on the 
lands proposed for sale and the potential environmental damage 
resulting from new utility corridors and dams and other development 
oriented activities allowed under the current bill?
    Answer. The first question inquired about the cost-benefit analysis 
of the provisions of the legislation. From my perspective, there is no 
question that S. 3636 represents a net loss for Utah wild lands. Our 
wild lands are a finite, irreplaceable asset. Even the best business 
plan can not recreate wild lands. Once lost, they are gone and will no 
longer be a benefit to the local community or the American public.
    As I noted in my oral testimony, I choose to make Utah the home of 
Black Diamond Equipment because Utah truly personifies my company's 
close ties to the out-of-doors. The products we make are for outdoor 
recreation and in many ways Utah is second to none in spectacular 
outdoor recreation opportunities. Because our Salt Lake City 
headquarters sits within minutes of congressionally designated 
wilderness I am constantly reminded of the tremendous benefits that our 
community and my business enjoys by having wilderness so close to home.
    Southwestern Utah is no different with its redrock landscape and 
scenic deserts close to the growing communities in and around St. 
George. We must preserve the southwestern Utah landscape so that 
communities and visitors can enjoy a wealth of outdoor recreation 
opportunities close to home.
    I would caution against simply adding up acreage numbers and making 
generalizations about the costs or benefits of this bill. The numbers 
in this bill do not adequately reveal the fact that so many wild places 
that are most at risk would receive no protection under this 
legislation. At the same time, some currently protected areas would be 
stripped of protection. In this sense, the legislation is a step 
backwards for our wild public lands. Similarly, the acreage figures 
suggested for disposal fail to account for the fact that thousands of 
acres have already been disposed of in the past decade, or the fact 
that there are, according to the local chamber of commerce, roughly two 
hundred thousand private acres currently available for development and 
growth.
    The lands sales provision would promote the sale and development of 
as much as 24,300 acres of public land. I am deeply concerned about 
selling off Utah's redrock country and dedicating the majority of 
proceeds for local development projects. The American public and the 
local communities would lose an irreplaceable natural asset if Congress 
sells off public lands simply because a community is experiencing 
growth.
    The provisions for water development, rights-of-ways, and utility 
corridors would fundamentally change the landscape of southwestern 
Utah. Though sponsors of this legislation claim these provisions are 
needed to accommodate growth, the pending local planning process, knows 
as ``Vision Dixie,'' is the appropriate vehicle to assess the specific 
needs of the community. I would urge the committee to allow this local 
process to complete its work before making congressional mandates that 
would impact the community.
    Question 2. How would you characterize the overall quality of 
wilderness protection offered by the Washington County bill?
    Answer. As I have noted in my first response, the wilderness 
provisions of the bill are a step backwards for wilderness protection 
in southwestern Utah. The majority of proposed wilderness designations 
are within Zion National Park. While I do not want to diminish the 
value of designating National Park wilderness, it is important to note 
that the park is already well protected from development pressures and 
inappropriate motorized recreation. The public lands (managed by the 
Bureau of Land Management and Forest Service) outside Zion National 
Park are in greatest need of protection. Over two-thirds of BLM wild 
lands in the county that deserve protection are left behind. The Forest 
Service wilderness provision of the bill designates only 3,000 acres, 
though citizens have identified thousands of additional acres of Forest 
Service land that deserve wilderness protection.
    The bill both fails to protect places most at risk and strips 
protections from public lands currently protected from harm. For 
example, wild lands like those along the base of Canaan Mountain are 
currently protected as Wilderness Study Areas, but under S. 3636, 
protection for Canaan Mountain would be shrunk to include only the 
canyon tops. The bill would strip the canyon's base of its current 
Wilderness Study Area protection and leave this canyon more vulnerable 
to impacts than it currently is. In other examples, the bill adds 
designated wilderness in an area known as Black Ridge to make up for 
the acreage stripped of protection in Canaan Mountain. However, the 
bill sponsors drew arbitrary boundary lines that leave critical areas 
vulnerable but also make management difficult. The effect is that while 
acreage is added to the bill, it fails to protect this canyon.
    When I look at this bill, the most fundamental question is whether 
our wild public lands would be better or worse off. I am convinced that 
this bill would leave southwestern Utah's wild lands worse off and the 
American public would loose an irreplaceable asset.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                             Board of County Commissioners,
                                Lyon County, NV, September 1, 2005.
Hon. Harry Reid,
U.S. Senator, 600 E. Williams, Suite 302, Carson City, NV.
Re: 2005 Lyon County Lands Bill

    Dear Senator Reid: Lyon County has been working with our 
congressional delegation for over four years on a Lyon County Lands 
Bill, but not until recently were we informed that the bill will not 
move forward unless we agree to include wilderness areas (Bald 
Mountain--80,979 acres and East Sister of the Sweetwater Mountains--
11,274 acres).
    Lyon County approved several years ago LLC 10.13.02 which states 
``no additional wilderness areas shall be designated in Lyon County''. 
We believe this is still the desire of our county and feel bound to 
honor this decision.
    Therefore, we wish to advise you that we are not pleased with this 
ultimatum for the inclusion of the wilderness areas, and thus have 
decided at our September 1, 2005 Lyon County Commission meeting that if 
our lands bill is denied because of this omission then so be it. We are 
very disappointed that this ultimatum has brought this process to an 
end.

                                   Bob Milz,
                                           Chairman.
                                   Phyllis Hunewill,
                                           Vice-Chair.
                                   LeRoy Goodman,
                                   Chet Hillyard,
                                   Don Tibbals,
                                           Commissioners.
                                 ______
                                 
                              Northwest Mining Association,
                                     Spokane, WA, November 3, 2006.
Senator Larry Craig,
Chairman, Public Lands and Forests Subcommittee, Senate Energy and 
        Natural Resources Committee, Dirksen Senate Office Bldg., 
        Washington, DC.

Re: S. 3772--White Pine County Conservation, Recreation and Development 
        Act of 2006
    Dear Chairman Craig: We are writing to express our members' strong 
opposition to the White Pine County Conservation, Recreation and 
Development Act of 2006 (S. 3772), recently introduced by Senators 
Ensign and Reid of Nevada. As explained below, we believe this 
legislation reflects extremely poor public policy and is not in the 
best interests of White Pine County, Nevada, the residents of Nevada, 
the Nation and the public in general.
    We believe this bill should be rejected in its entirety. It is 
nothing more than a back door attempt to add additional wilderness in 
White Pine County, Nevada without regard to the policies, principles, 
procedures and requirements set forth in the Wilderness Act of 1964 
(1964 Wilderness Act), the Federal Land Policy and Management Act of 
1976 (FLPMA), the National Forest Management Act (NFMA), and the 
Multiple-Use and Sustained Yield Act (MUSYA).
    Congress has long promoted the multiple-use management of our 
public lands. This philosophy has been reaffirmed time and time again 
as evidenced by the above-mentioned Acts. It is sound public policy and 
has served the needs of our Nation and our citizens well. Congress also 
set forth wilderness policy and guidelines in the 1964 Wilderness Act 
and policies and guidelines for the management of public lands in the 
General Mining Laws, FLPMA, NFMA, MUSYA, NEPA, and ESA.
    Enactment of S. 3772 would not only withdraw 545,320 acres of 
Public Lands from mineral entry and any hope of future economic 
development, but also from management for multiple-use. No motorized 
recreation, no access for handicapped citizens who require wheelchairs 
or other means of mechanical access, and no motorized access for 
hunting, fishing or other outdoor activities. The bill would take 
545,320 acres that today can be enjoyed by all and limit the use to a 
very small segment of society. The bill would adversely affect the 
economic future of White Pine County without any real benefit accruing 
to White Pine County.
    Section 2 (c) of the 1964 Wilderness Act defines wilderness as:

          A wilderness, in contrast with those areas where man and his 
        own works dominate the landscape, is hereby recognized as an 
        area where the earth and its community of life are untrammeled 
        by man, where man himself is a visitor who does not remain. An 
        area of wilderness is further defined to mean in this Act an 
        area of undeveloped Federal land retaining its primeval 
        character and influence, without permanent improvements or 
        human habitation, which is protected and managed so as to 
        preserve its natural conditions and which (1) generally appears 
        to have been affected primarily by the forces of nature, with 
        the imprint of man's work substantially unnoticeable; (2) has 
        outstanding opportunities for solitude or a primitive and 
        unconfined type of recreation; (3) has at least five thousand 
        acres of land or is of sufficient size as to make practicable 
        its preservation and use in an unimpaired condition; and (4) 
        may also contain ecological, geological, or other features of 
        scientific, educational, scenic, or historical value.

    Much of the acreage designated for Wilderness in Title II of S. 
3772 does not meet the above-quoted Wilderness Act definition of 
Wilderness. In addition, in five (5) of the proposed wilderness areas 
totaling about 231,669 acres, are lands administered by the U.S. Forest 
Service that have not undergone mineral resource assessment as required 
by Sec. 4(d)(2) of the 1964 Wilderness Act. Another area, the Mount 
Mariah Additions, has been assessed by the USGS/U.S. Bureau of Mines 
and found to have moderate mineral potential. Furthermore, these 
proposed withdrawals of public land administered by the Forest Service 
have not been reviewed in any formal manner with the public and there 
has been no modern opportunity to comment upon the management of these 
lands.
    Economically viable mineral deposits are rare and hard to find. In 
1999, the National Research Council (NRC) of the National Academy of 
Sciences, in response to a request from Congress, prepared and 
published a report entitled Hardrock Mining on Federal Lands. In this 
report the NRC stated:

          Hardrock mining occurs where minerals are concentrated in 
        economically viable deposits. Ore deposits form as variants of 
        such geologic processes as volcanism, weathering, and 
        sedimentation operating with an extraordinary intensity. Ore 
        deposits typically are parts of large-scale (several miles 
        across and perhaps just as deep) ore-forming systems in which 
        many elements, not just those of economic interest, have been 
        enriched. Only a very small portion of Earth's continental 
        crust (less than 0.01%) contains economically viable mineral 
        deposits. Thus, mines can only be located in those few places 
        where economically viable deposits were formed and discovered 
        (emphasis added).
          Many hardrock commodities are associated with magmatic and 
        hydrothermal processes, which in turn, are associated with 
        modern or ancient mountain belts. The abundant igneous rocks 
        and associated hydrothermal systems and the mountainous or 
        sparsely vegetated terrain make the West the location of most 
        hardrock mines in the Untied States. Id. at 2-3

    Nevada has been blessed with many of the geologic systems and 
process described above and this is a major reason why Nevada is the 
leading hardrock mining state in the country, the third leading gold 
producer in the world, the economic engine that drives northern 
Nevada's economy and a major contributor to the state's revenue. In 
2004, Nevada mining directly employed 11,690 people at an average wage 
of $63,388. An additional 51,000 jobs were made possible by vendors of 
goods and services to the industry, and Nevada mining provides 
approximately 100 million dollars in state tax revenue every year.
    It makes no sense to lock up and withdraw the areas set forth in 
Title II from mineral entry when these areas have the potential to be 
the mines that will drive northern Nevada's economy long into the 
future. There must be a new, modem mineral potential evaluation of each 
area. Even those areas previously evaluated (whether as part of RARE I, 
RARE II, WSA or another evaluation process), must be re-evaluated. 
Continually evolving technology and knowledge enables the discovery of 
mineral potential and mineral deposits in areas previously thought to 
be non productive or uneconomical. Northern Nevada is a classic example 
of this truth.
    In most of the world, today's mines are located in historic mining 
districts originally discovered by the prospectors and miners of more 
than 100 years ago. However, this is not the case in the primary gold 
producing area of northern Nevada. What has turned out to be the area 
of perhaps the second highest gold concentration in the world wasn't 
known to exist prior to the development in the 1960's of fire assay 
techniques that could identify invisible gold and heap leach technology 
that made it possible to economically recover microscopic particles of 
gold.
    As a result of its favorable geology, Nevada has tremendous 
potential for the discovery of additional mineral deposits. Areas where 
prospective rocks are beneath a cover of young, valley-filling 
sediments and volcanic rocks have only been explored to a limited 
extent, and ore deposits continue to be discovered in and near Nevada's 
historical mining districts.
    Today we are seeing significant investment in exploration in areas 
of northern Nevada not previously explored using modern tools and 
techniques. This exploration could lead to the discovery of the next 
major mine, ensuring the long term economic health of White Pine and 
other northern Nevada counties. White Pine County, northern Nevada and 
the Nation cannot afford to preclude this possibility by locking up 
public land as Wilderness and withdrawing it from mineral entry.
    In addition to being the third largest gold producer in the world, 
Nevada hosts deposits of many minerals that are critical to our 
national and economic security, such as copper, molybdenum, silver, 
specialty clays, magnesite, lithium, cement, barite, gypsum and 
construction aggregate. Our national and economic security requirements 
demand that areas of mineral potential remain open to exploration, 
discovery and development.
    One of the most egregious aspects of S. 3772 is that mineral 
evaluations conducted by the Nevada Bureau of Mines & Geology, the 
Nevada Division of Minerals and the U.S. Bureau of Mines/U.S. 
Geological Survey pursuant to 1964 Wilderness Act mineral potential 
survey requirements have been ignored treated as though they do not 
exist.
    Forty years ago, the Congress wisely recognized not only the 
importance of our Nation's mineral wealth to the national and economic 
security of our country, but also that economically viable mineral 
deposits were rare and occurred only where they could be found, even if 
it was inside of a Wilderness Area. Section 4(d)(2) of the 1964 
Wilderness Act requires that wilderness areas be surveyed on a planned, 
recurring basis by the U.S. Bureau of Mines and the U.S. Geological 
survey to determine mineral values and to make those results available 
to the public, the President and Congress. Section 4(d)(3) further 
provided a 20 year window (until midnight December 31, 1983), where the 
General Mining Laws and mineral leasing laws would still apply in areas 
designated as part of the National Wilderness Preservation System by 
the 1964 Wilderness Act. In other words, those areas remained open to 
mineral entry until January 1, 1984. It is important that this 
Committee and this Congress act as wisely as your predecessors in 1964.
    Set forth below are our specific comments on the proposed 
wilderness areas and additions. For the reasons set forth in this 
letter, these areas are unsuitable for inclusion in the National 
Wilderness Preservation System and should remain open to mineral entry 
and managed for multiple-use.

  <bullet> Currant Mountain Additions (including the White Pine Range 
        and Red Mountain): The U.S. Forest Service in the 1985 Forest 
        Plan states: ``The potential for the occurrence of economic 
        mineralization is high in the southwest and southern parts of 
        the area. The rest of the area has moderate mineral 
        potential.'' The proposed additions are situated on the west, 
        northwest, and southeast sides of the existing wilderness area, 
        and cover areas of high and moderate mineral potential 
        (industry and Forest Service assessments only);
  <bullet> Schellback Wilderness: This area, located immediately south 
        and southeast of Illipah has not been studied by the USGS, as 
        required by the 1964 Wilderness Act;
  <bullet> Schell Creek Range Wilderness: This proposed withdrawal 
        covers a vast area, in fact nearly all of the Schell Creek 
        mountain range. It has not been assessed by the USGS, as 
        required by law. Earlier work by the U.S. Bureau of Mines 
        stated ``The likelihood of the occurrence of mineral deposits 
        and extensions of known deposits is great throughout the entire 
        proposed wilderness'' [referring to the earlier Roadless 
        designation]. The 1985 Forest Plan and DEIS for the (then) 
        Humboldt National Forest recommended that the area not be 
        included in the Wilderness system;

    It is our understanding that the Humboldt-Toiyabe National Forest 
is not including these five (5) areas in its ongoing review and 
revision of the Forest Plan, because of this draft bill. It would seem 
important that the Forest Service undertake the ``suitability 
assessment'' of these areas as part of the overall Forest Plan 
revisions.
    The BLM-administered lands proposed as wilderness areas by this 
bill cover the remainder of the 545,000 acres. The former Public Lands 
Committee of the Nevada Mining Association assessed each BLM Wilderness 
Study Area in Nevada and developed a comprehensive evaluation of the 
mineral potential of each area, and tabulated the reviews of other 
groups, including the BLM, and the State of Nevada Governor's 
Consistency Review Panel (a special State Clearinghouse procedures and 
review committee).
    Our specific comments on these areas are set forth below. Again, 
for the reasons set forth in this letter, these areas are unsuitable 
for inclusion in the National Wilderness Preservation System and should 
remain open to mineral entry and managed for multiple-use.

  <bullet> Mount Grafton: The area is considered to have low to 
        moderate mineral potential, especially along the western and 
        southern boundaries (a portion which would be ``released'' if 
        the bill is enacted). The Governor's Consistency review 
        recommended that the area be dropped from further wilderness 
        consideration;
  <bullet> South Egan: This area is considered to have moderate to high 
        mineral potential, especially on the west side of the area (a 
        very small portion of which would be ``released'' if the bill 
        is enacted.). The area has potential for gold (discovered near 
        Lund), uranium, and base metals. The BLM has twice (1987 and 
        2001) recommended that the area be dropped from further 
        consideration for wilderness designation, and the Governor's 
        Consistency Review Panel has also recommended that the area not 
        be designated as a wilderness area. There also has been some 
        local public opposition to the area being proposed as 
        wilderness;
  <bullet> Egan Ridgeline: This area is at the northern end of the 
        South Egan area, and has been evaluated as part of the South 
        Egan study area;
  <bullet> Highland Ridge: This is not currently a BLM WSA or an 
        Instant Study Area, and has not been evaluated in any manner. 
        The area adjoins the southern boundary of Great Basin National 
        Park;
  <bullet> Government Peak: Again, this area is not a BLM WSA, and has 
        not been evaluated in any manner;
  <bullet> Bald Mountain: the area is not a BLM WSA. It was evaluated 
        by the U.S. Forest Service and found to be lacking in 
        wilderness attributes. It is situated south of Illipah, in the 
        vicinity of the Schellback, White Pine Range, and Red Mountain 
        proposed wilderness areas, all of which are adjacent to the 
        Currant Mountain Wilderness area. No mineral assessments have 
        been completed in this area;
  <bullet> Becky Peak: This area is situated at the north end of the 
        Schell Creek Range, and is not currently a BLM Wilderness Study 
        Area. The mineral potential of the area has not been studied, 
        and the various State of Nevada agencies who participated in 
        the Governor's Consistency Review Panel did not assess the 
        area;
  <bullet> Goshute Canyon: The Goshute Canyon area covers much of the 
        Cherry Creek Range of northern White Pine County. Much of the 
        area is considered to have moderate mineral potential, with the 
        southern end, which is not included in the proposed wilderness 
        defined by this bill. It is worth noting that the White Pine 
        Regional Planning Commission, the City of Ely, and the White 
        Pine County Commission have all opposed this area as 
        wilderness, as such designation may adversely affect the 
        construction of the planned White Pine Power Project;
  <bullet> Bristlecone: This area is situated a short distance ( nine 
        miles) and due west of the town of McGill and is not a current 
        BLM WSA.

    It is apparent that S. 3772's drafters gave little, if any 
consideration to the prior recommendations of the U.S. Forest Service, 
the U.S. BLM, or the various agencies of the State of Nevada (including 
the Governor's Consistency Review Panel). One of the proposed areas, 
Goshute Canyon may negatively affect a major energy development 
project, the White Pine Power Project, which has been supported by 
essentially every local governmental entity. One area (South Egan) has 
been strongly opposed by local citizens, yet the opinions of the locals 
have been ignored. Several areas that have never been assessed for 
wilderness criteria or suitability have been included as new wilderness 
proposals. Some of the areas included clearly do not meet the 1964 
Wilderness Act definition of Wilderness (S. 3772 redefines 
``wilderness'' so that areas which do not meet the traditional 
definition of wilderness can be included in the National Wilderness 
Preservation System).
    To proceed with a markup of this bill is tantamount to encouraging 
a form of wilderness extortion, where, in order to appease wilderness 
advocates, additional wilderness is created as a quid-quo-pro for 
selling public land. Lyon County, Nevada has already advised Senator 
Reid that it is unwilling to cave in to the Senator's ultimatum that 
additional Wilderness be created in Lyon County in exchange for 
privatizing public land in the county (see attached letter).
    NWMA strongly objects to a public policy of creating new wilderness 
areas and adding areas to the National Wilderness Preservation System 
in exchange for selling public lands. Any proposal to sell public lands 
not covered by current land use plans developed under FLPMA or the NFMA 
should stand or fall on its own merits following an opportunity for 
public comment and debate.
    Likewise, adding acreage to the National Wilderness Preservation 
System should follow the procedures, requirements and policies set 
forth in the 1964 Wilderness Act, and should be debated and justified 
based on the ability of the lands to meet the 1964 Wilderness Act 
definition of wilderness rather than used as a political pawn to gain 
the support from wilderness advocates for the selling of unrelated 
public lands.
    Currently, there are approximately 107 million acres in the 
National Wilderness Preservation System. That means 107 million acres 
of public land is off limits to mineral and energy development, and 
essentially off limits to almost all forms of multiple-use activities 
as well as modern, science-based land management. The vast majority of 
Americans are not able to use or enjoy wilderness areas because of the 
restrictions imposed. Isn't it time to start asking ourselves how much 
wilderness do we need? There are approximately 2.9 million acres of 
Wilderness in Nevada, an amount that is equal to almost half of the 
entire Humboldt-Toiyabe National Forest. How much is enough?
    S. 3772 also ignores the fact that Congress already has provided 
the land management agencies with the tools to address the purported 
rationale for the bill. FLPMA and the NFMA provide the BLM and USFS 
respectively, the authority to solicit public input into land use, 
resource management and forest plans; the authority for the sale of 
public lands so identified in the planning process; the authority to 
exchange public lands for private lands; the granting of rights-of-
ways; and all other authorities needed to manage the lands in the 
public interest following environmental evaluations required by NEPA 
and other federal laws. Prior to FLPMA, the Recreation and Public 
Purposes Act of 1954 authorized BLM to sell public land at reduced 
prices to local governments where such a need exists. In other words, 
Congress has provided the federal land management agencies with 
sufficient statutory authority to manage the public lands according to 
priorities set by Congress and the land management agencies already 
have the authority they need to sell, dispose or trade public lands 
pursuant to the policies set by Congress and the authorities granted by 
Congress in the Recreation and Public Purposes Act of 1954 and FLPMA.
    We also want to use this opportunity to express our strong 
opposition to the county public land bill process in general. NWMA is 
in receipt of a copy of a letter from the Public Lands Foundation (PLF) 
expressing opposition to the White Pine County Bill as well as the 
Washington County (Utah) Growth and Conservation Act (S. 636), and the 
Central Idaho Economic Development and Recreation Act, HR 3603. We 
agree with the PLF that these county public land bills seriously 
undermine the integrity of our western public lands by making repeated 
exceptions and loopholes around many of our nations most fundamental 
land management and environmental laws. At worst, these bills suggest 
the unraveling of our national public land management policy in favor 
of a piecemeal and haphazard view of valued public resources.
    S. 3772 is unnecessary and it is inappropriate for Congress to 
politicize the management of public lands by the introduction of 
complex and unneeded legislation like the White Pine County bill.
    If the Committee holds a hearing on S. 3772, or any similar bill, 
NWMA would appreciate an opportunity to provide oral and written 
testimony in opposition to the bill. We urge your Committee to reject 
this ill-conceived bill.
    The Northwest Mining Association (NWMA) is a 112 year old non-
profit mining industry trade association based in Spokane, Washington. 
NWMA has more than 1,300 members residing in 31 states and 6 Canadian 
provinces. Our members are actively involved in exploration and mining 
operations on public lands throughout the United States, especially the 
western states. More than one-third of our members live in or are 
actively working in Nevada. Many of our members have participated in 
previous mineral potential surveys of public land. NWMA's broad and 
diverse membership includes every facet of the mining industry 
including geology, exploration, mining, engineering, environmental 
services, equipment manufacturing, technical services and sales of 
equipment and supplies. NWMA's membership represents a true cross-
section of the mining community.
            Sincerely,
                                               Laura Skaer,
                                                Executive Director.
                                 ______
                                 
                                  Shivwits Band of Paiutes,
                                North Ivins, UT, November 15, 2006.
Hon. Pete V. Domenici, Chairman,
Hon. Jeff Bingaman, Ranking Member,
Committee on Energy and Natural Resources, Dirksen Senate Office 
        Building, U.S. Senate, Washington, DC.
    Dear Senator Domenici, Senator Bingaman, and the Members of the 
Committee: On behalf of the Shivwits Band of the Paiute Tribe of Utah, 
thank you for holding a hearing in the Public Lands and Forests 
Subcommittee on S. 3636, the Washington County Growth and Conservation 
Act. The Shivwits Band is one of five bands of the Paiute Indian Tribe 
of Utah, a federally recognized tribe. As some of the first residents 
of Washington County, our people share an indelible cultural and 
historical connection with the surrounding Bureau of Land Management 
(BLM) lands impacted by this legislation.
    For the November 16, 2006 hearing in the Public Land and Forests 
Subcommittee of the Senate Energy and Natural Resources Committee, 
please consider for the legislative record the attached letter on the 
Washington County Growth and Conservation Act, sent on November 13, 
2006 from the Shivwits Band to Senator John McCain (R-AZ) and Senator 
Byron Dorgan (D-ND), Chairman and Ranking Member of the Senate Indian 
Affairs Committee.
    Thank you again for scheduling this hearing, and thank you for 
considering our statement on. S. 3636.
            Sincerely,
                                              Glenn Rogers,
                                            Shivwits Band Chairman.
[Attachment].
                                  Shivwits Band of Paiutes,
                                North Ivins, UT, November 13, 2006.
Hon. John McCain, Chairman,
Hon. Byron Dorgan, Ranking Member,
Committee on Indian Affairs, U.S. Senate, Hart Office Building, 
        Washington, DC.

Re: Washington County Growth and Conservation Act, H.R. 5769, S. 3636
    Dear Senator McCain and Senator Dorgan: My name is Glenn Rogers and 
I am the Band Chairman of the Shivwits Band of the Paiute Tribe of 
Utah. I am writing on behalf of the Shivwits Band to inform the Indian 
Affairs Committee about our views and concerns regarding S. 3636/H.R. 
5769, the Washington County Growth and Conservation Act (The Act). This 
legislation has been referred to the Senate Energy and Natural 
Resources Committee and will be the subject of a hearing on November 
16th. We are concerned that in the final days of the 109th Congress, 
sponsors of this legislation may try to pass this bill despite serious 
conflicts with the interests on the Shivwits people and our land. 
Therefore, we are asking for your assistance in addressing or concerns 
about the Act, but more immediately, we request your assistance to 
ensure that the Act is not hastily passed in the final days of this 
Congress.
    The Shivwits Band is one of five bands of the Paiute Indian Tribe 
of Utah. Our Reservation is located on the western side of Washington 
County, Utah, and is approximately 29,000 acres in size. My people were 
amongst first to live in Washington County. Our culture, history, and 
traditions are intimately connected with the surrounding BLM lands.
    The Shivwits Band was not adequately consulted by the local 
government, the department of the Interior, or authors of the 
legislation. As a result, the Washington County Growth and Conservation 
Act contains many provisions that win significantly harm our community. 
Specifically, the act could result in: right-of-way being developed on 
the Reservation, unmanaged ORV use and trespassing on the Reservation, 
privatization of culturally important areas, and potential harm to 
populations of plants and animals, such as the desert tortoise, which 
are important to the Shivwits. further, because the Act was created 
without any consultation with the Shivwits, if passed it will establish 
a precedent of excluding affected tribes from consultation about land 
use planning legislation.
                               discussion
A. Consultation
    Approximately 3 years ago we attended one meeting to discuss issues 
surrounding land use. During the process of drafting the Act, the 
Shivwits were never consulted by the sponsors of the Act, the County 
Commission, or the Department of the Interior. We have sent comments to 
the sponsors of the Act expressing our concerns. However, we did not 
receive any meaningful response until after the Act was heard in the 
House. This failure to consult with the Shivwits Band violates the 
policy and promise of government to government relations. This clearly 
is harmful to the Shivwits, but it also has greater national 
implications. If the Act is passed, it threatens to set a precedent of 
excluding Tribes from taking part in the formation of land use policy. 
This committee should not support such a precedent.
    Since the Act was heard in the House, we have met once with 
Representative Matheson's staff and representatives from the local BLM. 
We are scheduled to meet with Representative Matheson's staff again. We 
sincerely appreciate Representative Matheson's efforts, and hope that 
our conversation will result in changes in the Act. However, as of this 
date the Act remains very problematic to the Band. In the Senate, we 
are similarly concerned that discussions with Senator Bennett's office 
have failed to result in improvements to the legislation. Finally we 
are happy to discuss our concerns at any time. However, we are deeply 
concerned that at this late date, it will be almost impossible for the 
Band to have any real and meaningful impact on the Act. It is our 
understanding that the sponsors of the Act hope to pass the Act during 
the ``lame duck session''. We would undercut these efforts. I would, 
therefore, respectfully request that the Committee support our desire 
for additional time by opposing passage of the Act during the lame duck 
session.
B. Cultural Resources
    The Shivwits have lived in Washington County for generations. Many 
of the BLM lands surrounding the current Shivwits Reservation are 
culturally significant to the Shivwits, and contain remains important 
to our people. The Baud is very concerned that the Act will result in 
the sale or transfer of public lands that are of importance to the 
Shivwits people to private developers. The Shivwits Band would urge 
that these lands be retained as public lands. If land is sold, there 
should be an intensive survey and consultation with the Shivwits Band 
before sale to ensure lands of cultural significance are protected. 
Currently, the draft legislation provides consultation for land sales 
only for the County. If land with cultural values is eventually offered 
for sale after consultation with the Shivwits, the Shivwits Band 
requests the right of first refusal. Further, the Band should have the 
opportunity to remove any human remains, funerary objects, or other 
items in order to prevent them from being desecrated.
    The legislation authorizes the Secretary to include a restrictive 
covenant in any deed of transfer of any parcel of land disposed of. 
However, the restrictive covenant provision will not adequately protect 
cultural resources. The use of restrictive covenants is optional, and 
there is no requirement or guarantee that such covenants will be 
utilized to protect cultural resources. Further, the Act does not 
provide any funding to monitor or enforce these restrictive covenants. 
It is our understanding that the BLM itself has expressed concerns 
about whether adequate resources are available to monitor these 
restrictive covenants. Finally, the restrictive covenants would still 
allow for the privatization of cultural resources. As a fundamental 
concept we believe it is highly inappropriate for these resources to be 
privatized.
C. Proceeds from Land Sales
    The Act proposes to dispose of as much as 24,300 acres of BLM land 
in Washington County over a number of years. Of this amount, 4,300 
acres must be sold and 20,000 acres may be sold or exchanged. Any lands 
sold will presumably generate proceeds. The Act provides that the State 
of Utah shall receive five percent of the proceeds, the Washington 
County government shall receive two percent, and the Washington County 
Water Conservancy District shall receive eight percent. The Shivwits 
Band receives no benefits despite our status as a sovereign government. 
We do not necessarily support the notion of selling lands to fund 
government needs, but if such a sale occurs, we the formula in the Act 
is simply unfair to the Shivwits People.
D. Utility Corridors
    Section 401(a) of the Act would establish a total of 900 linear 
miles of utility corridors at a width of approximately \1/2\ mile in 
most locations. According to the legislative maps dated July 18, 2006, 
it appears that several utility corridor segments are designated across 
Shivwits Reservation. We have heard that the BLM has expressed concerns 
that seven segments of the proposed utility corridors cross the 
Shivwits Reservation. At no point have the sponsors of the Act 
consulted with us about utility corridors. We continue to seek 
clarification about the impacts of utility corridors on the Shivwits 
Reservation. While ultimately the Band may agree to utility corridors 
on the reservation, this decision should be made by the Band at the 
local level--not via federal legislation.
E. Land Transfers and Right-of-Way
    The Shivwits believe that, in its present form, the Act unduly 
favors the local Washington County Water Conservancy District by 
granting this entity right-of-way for free and perpetuity. The Shivwits 
Band is a recognized sovereign government, but we were not afforded 
similar benefits. We have concerns that the proposed transfers may 
potentially impact the Band's existing water resources, as well as the 
Band's legal water rights. Further we question the basic concept of 
transferring land, free of cost to the Water Conservancy District. The 
Shivwits Band would also like additional information about what project 
are planned by the Water Conservaney District, particularly on lands 
slated for transfer to the Water Conservancy District directly north of 
the Shivwits Reservation.
F. High Desert ORV Trail
    The Act also calls for the development of the high Desert ORV 
Trail. The location of the ORV route system proposed by the Washington 
County Commission is of serious concern to the Band. We have already 
expressed some of our concern about this ORV system, and about general 
ORV use in and near the Shivwits Reservation, to the BLM. We experience 
ongoing problems with off-road vehicle users trespassing on the 
Reservation, and we are concerned that the High Desert ORV Trail will 
only make this problem worst. We would like to see this issue addressed 
in the Act. The Act should specify that the High Desert ORV Trail be 
designed to minimize trespassing on the Reservation, and that the Band 
should have significant input in the final route designation. Further, 
we have already seen that the BLM is unable to manage the current level 
of ORV use on public lands in Washington County, especially near the 
Shivwits Reservation. The Act should provide the additional funding 
necessary to manage and enforce the new system, as well as current and 
future ORV use on public lands near the Shivwits Reservation. The High 
Desert Trail system will be a new ORV route System spanning the length 
of the County, and it will undoubtedly attract additional ORV users to 
Washington County, resulting in an increased demand for emergency 
services. The Act should clarify who will provide these services, and 
how these services will be paid for.
G. Native Plants and Animals
    In addition to the issues listed above, we are concerned that the 
Act will harm native plants and animals including, but not limited to, 
the desert tortoise, Shivwits milk-vetch, bearclaw poppy, and Virgin 
River spinedace. The Act should balance the need for development with 
the need to protect all native plants and animals. Washington County is 
unique, and the plants and animals that inhabit this area are found in 
very few other places. The Shivwits Band placed a high priority on 
these native plants and animals, and request that this proposed 
legislation make every effort to protect them.
                               conclusion
    In conclusion, The Shivwits Band would like to stress our 
opposition to this legislation. It would cause lasting damage to 
culture, history, and way of life. The Act fails to uphold the promise 
of government to government relationship, and it fails to provide a 
balance between development and preservation. We urge you to join us in 
opposing this legislation.
    Thank you for your consideration of these matters,
            Sincerely
                                              Glenn Rogers,
                                            Shivwits Bans Chairman.
                                 ______
                                 
                              National Wildlife Federation,
                                 Washington, DC, November 16, 2006.
Hon. Larry Craig, Chairman,
Hon. Ron Wyden, Ranking Member,
Subcommittee on Public Lands and Forests, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Craig and Senator Wyden: On behalf of the National 
Wildlife Federation (NWF) and our more than four million members and 
supporters, we write to you to express our views regarding S. 3636, the 
``Washington County Growth and Conservation Act of 2006.''
    Instead of providing real solutions to deal with the rapid growth 
in Washington County, Utah, S. 3636 further encourages development at 
the expense of our public lands. Since 20 square miles of public land 
have already been privatized in the last six years and estimates by the 
local chamber of commerce place over 200,000 acres of private land as 
still available for development, the sale and/or exchange of up to 38 
square miles (24,300 acres) of BLM public land and giveaway of the 
rights-of-ways to water developers in about 14 square miles of BLM 
public land as proposed in S. 3636 is unnecessary and detrimental to 
the millions of Americans who hunt, fish, hike, camp and engage in 
other forms of recreation on our public lands.
    Masquerading under the guise of a ``Conservation Act'', S. 3636 
would, in actuality, disregard the many tenets already in place to 
conserve public lands in Washington County. Although the bill would 
designate new wilderness, most of this area is already protected in 
Zion National Park and thus could not compensate for the numerous anti-
conservation measures in S. 3636. In addition to the aforementioned 
privatization of BLM public lands, the bill would also remove 
Wilderness Study Area protection from 14 square miles of public lands. 
Then, in perhaps S. 3636's most egregious disregard to existing 
conservation law, a new mandate would be created to direct the revenue 
from the public land sales away from conservation funding as currently 
required and instead towards local interests and development projects.
    Additional provisions in the bill could have devastating effects on 
wildlife and wildlife habitat. S. 3636 would require the BLM to 
consider building a highway through the Red Cliffs Desert Tortoise 
Reserve, which is supposed to be set aside as critical habitat for the 
endangered desert tortoise. The bill would also require the BLM to 
establish a new off road trail system, even though existing ORV trails 
have damaged wildlife habitat and non-motorized recreational 
opportunities on public lands in Washington County. Proposals in the 
bill would also have far reaching effects, as S. 3636 would use a 
portion of the public land sale revenues to contribute to the 
construction of a 120 mile water pipeline from Lake Powell of waters 
derived from the Colorado River. Not only would the pipeline 
construction cause potential damage to public lands, but this water 
diversion would reduce already deficient Colorado River flows, thus 
affecting river habitat and those who utilize the river for 
recreational and other purposes.
    Given that the ``Washington County Growth and Conservation Act of 
2006'' undermines existing conservation law, encourages development of 
our public lands, and fails to designate over 70% of citizen proposed 
wilderness in the Zion-Mojave region, the National Wildlife Federation 
cannot support this legislation. We urge you to reassess how to best 
manage the rapid population growth and sprawl in Washington County 
without sacrificing our public lands.
    Thank you for your consideration.
            Sincerely,
                                                  Jim Lyon,
                               Senior Vice President, Conservation.
                                 ______
                                 
                             Indian Springs, NV, November 26, 2006.
Hon. Larry Craig,
Chair, Subcommittee on Public Lands and Forests.
Re: White Pine County Lands Bill, S. 3772

    Dear Senator Craig: Five generations of our family have lived in 
the southern Nevada area, and more in adjacent areas of Utah. We firmly 
believe that the decisions being made regarding the White Pine County 
Conservation, Recreation and Development Act of 2006 ( S. 3772) will 
determine the fate of the entire State of Nevada as well as that of the 
entire region.
    Solid science is essential for the decisions on the present and 
future transfer of water from one area of Nevada to another. To that 
end S. 3772 should ADD authorization of at least $12-13 million study 
by the USGS, the Desert Research Institute, and the State of Utah to 
develop predictive hydrological models to ascertain the effects of 
water development in groundwater basins in White Pine and Lincoln 
Counties, and adjacent areas in Utah, and for future integration into 
an understanding of the entire region. All data and findings of such 
studies must be made immediately available to all parties for review 
and critique. This will allow the counties and the State to protect the 
groundwater table from excessive draw-downs and protect springs and 
seeps, and to make more precise economic decisions to protect the 
diversity and sustainability of the arid region..
    There should be NO funding of the SNPLMA for a wastewater pipeline 
into Lake Mead. This is economically wasteful, and would be used to 
artificially subsidize excess growth in southern Nevada, Southern 
Nevada must learn to live within its means, and not bankrupt the 
system. It is basically an absurdity, to contaminate the reservoir, 
then have to expend the energy to pump the sewage laden water back and 
treat the sewage. Viable alternatives exist, such as treating the water 
and recycling it without sending sewage into Lake Mead and downstream 
in--the Colorado River. A treatment plant of this scale is due to come 
online in the next year in the Los Angeles area.
    White Pine County Lands funds should not be used for SNPLMA turf 
removal. The SNWA can easily accomplish the turf removal through 
incentives in their rate structures. Proceeds of land sales in White 
Pine County should go to White Pine County for its needs. Rural 
counties should not be treated as colonies of the urban areas, stripped 
of their land and water resources for the short term exploitation by 
others. Nevada has little to show for the Comstock Lode exploitation of 
the mid 1800's. If diversity and water are lost this time, there would 
be little hope for any future recovery.
            Sincerely,
                                                  Jim & Ann Brauer.
                                 ______
                                 
                                      Baker, NV, November 19, 2006.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests, Washington, DC.
    Dear Senator Craig: I wish to express my opposition to S. 3772, The 
White Pine County Conservation, Recreation and Development Act of 2006, 
as it is currently written. I strongly urge that the subcommittee adopt 
the following critical changes to the bill.
    The bill must include funding to do a study by the USGS, DRI, and 
the State of Utah to develop a hydrological model to predict the effect 
of water development in groundwater basins in White Pine County, 
Lincoln County and adjacent areas in Utah. White Pine County is the 
target of a plan by the Southern Nevada Water Authority to export 
141,000 acre-feet of groundwater per year from this desert region to 
the Las Vegas area 285 miles away. White Pine County has repeatedly 
asked for funding for such a study to provide independent, 
scientifically credible information. The importance of adequate 
scientific knowledge of the amount of water available is crucial before 
this project is undertaken.
    Please, eliminate SNPLMA funding authorization for the $751 million 
wastewater pipeline into Lake Mead. Public land sale revenues should 
not be used to subsidize Las Vegas growth. Such funding is not needed 
because Clark County wastewater agencies have stated publicly that they 
already have sufficient funds to complete the project.
    This is the WHITE PINE COUNTY Public Lands Bill, and the use of 
those public funds should be applied to the needs of White Pine County.
            Respectfully yours,
                                                      Tonia Harvey.
                                 ______
                                 
                                Carson City, NV, November 20, 2006.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests, Washington, DC.
    Dear Senator Craig: I wish to express my opposition to S. 3772, The 
White Pine County Conservation, Recreation and Development Act of 2006, 
as it is currently written. I strongly urge that the subcommittee adopt 
the following critical changes to the bill.
    The bill must include funding to do a study by the USGS, DRI, and 
the State of Utah to develop a hydrological model to predict the effect 
of water development in groundwater basins in White Pine County, 
Lincoln County and adjacent areas in Utah. White Pine County is the 
target of a plan by the Southern Nevada Water Authority to export 
141,000 acre-feet of groundwater per year from this desert region to 
the Las Vegas area 285 miles away. White Pine County has repeatedly 
asked for funding for such a study to provide independent, 
scientifically credible information.
    Please, eliminate SNPLMA funding authorization for the $751 million 
wastewater pipeline into Lake Mead because public land sale revenues 
should not be used to subsidize Las Vegas growth. Such funding is not 
needed because Clark County wastewater agencies have stated publicly 
that they already have sufficient funds to complete the project.
            Thank you very much,
                                                       Jan Gilbert.
                                 ______
                                 
                                       Reno, NV, November 21, 2006.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests, Washington DC.

Re: S. 3772
    Dear Senator Craig: I am urging the Subcommittee to amend the White 
Pine County Conservation, Recreation and Development Act of 2006 by

  <bullet> Add AUTHORIZATION OF a $12 million study (funded by the 
        Southern Nevada Public Lands Management Act) by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Reasons: 1) White Pine County has requested SNPLMA funding for 
        such a study, 2) study would provide independent, 
        scientifically credible information to allow the county and 
        state to protect the groundwater table from excessive drawdowns 
        and protect water-righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy.
  <bullet> Adding the Nevada Department of Wildlife to p. 49 Title VIII 
        line 20 (xiv) development of any park or Wildlife Management 
        Area administered by the State of Nevada . . .

    Thank you for your time.
                                                        Tina Nappe.
                                 ______
                                 
                                   Wendover, UT, November 22, 2006.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests, Washington, DC.
    Dear Senator Craig: I am writing you concerning S. 3772, The White 
Pine County Conservation, Recreation and Development Act of 2006.
    The single most threatening thing for White Pine County at the 
present moment is the proposed water withdrawal from White Pine County 
for Clark County and Las Vegas. Yet this bill, supposedly for the 
betterment of White Pine County, has more provision in it for Clark 
County than it does for White Pine County.
    I ask that 2 areas be specifically addressed in this bill:

          1) Provide $12 million in funding to allow the USGS, the DRI, 
        and the State of Utah to do studies to provide solid, 
        scientific information about impacts of the proposed water 
        withdrawal from White Pine County for Las Vegas--before 
        Southern Nevada Water Authority (SNWA) is allowed to invest 
        billions of dollars in a project that has the potential of 
        destroying White Pine County.
          2) Eliminate the proposed $751 million funding for a 
        wastewater pipeline into Lake Mead. Clark County wastewater 
        agencies have gone on record saying they already have 
        sufficient funds to complete the project. Further, this money 
        from public land sales should not be used to support the growth 
        of Las Vegas. The growth of Las Vegas is only sustainable as 
        other parts of the state give up their primary resource--
        water--to Las Vegas, thereby threatening the existence of 
        people, vegetation, and wildlife in thousands of acres in rural 
        Nevada and Utah.

    Thank you for you consideration of these issues.
            Respectfully yours,
                                                      Kathryn Hill.
                                 ______
                                 
                                       Reno, NV, November 24, 2006.
Hon. Larry Craig,
Chairman, U.S. Senate, Subcommittee on Public Lands and Forests
    Dear Senator Craig and Subcommittee Members: I am writing to the 
subcommittee to oppose S. 3772, the White Pine County Conservation, 
Recreation and Development Act of 2006. I ask that the Committee not 
pass this legislation without substantial changes, two of which I list 
below.
    Please add authorization of funding for a $12 million study by the 
USGS, Desert Research Institute (an institution of the University of 
Nevada), and the State of Utah to develop a hydrological model to 
predict the effect of water development in groundwater basins in White 
Pine and Lincoln Counties and adjacent areas in Utah. Such a study is 
critically needed because White Pine County is the target of a plan by 
the Southern Nevada Water Authority to remove 141,000 acre-feet of 
groundwater each year and send it to Las Vegas to fuel explosive 
growth. This study should be authorized in this legislation because 1) 
White Pine County has continuously requested funding for such a study 
from the SNPLMA funds during the past three years, 2) study would 
provide independent, scientifically credible information to allow the 
county and state to protect the groundwater table from excessive 
drawdowns and protect water-righted springs and seeps.
    Please, eliminate the funding from SNPLMA for the wastewater 
pipeline into Lake Mead. The funding should not be allowed by the 
subcommittee because 1) Revenues from public land sales, which are an 
asset of all Americans should not be used to subsidize Las Vegas 
growth, 2) the funding authorization from SNPLMA is unlimited for a 
project already projected to cost $751 million, and is not needed 
because Clark County wastewater agencies have said they already have 
sufficient funds to complete the project without the subsidy, 3) during 
numerous meetings on the WPC bill authorizing this funding was never 
requested nor discussed.
    Thank you for considering my comments.
            Respectfully yours,
                                  Dennis Ghiglieri Rose Strickland.
                                 ______
                                 
                                                      Caliente, NV.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests, Washington, DC.
    Dear Senator Craig: I wish to express my opposition to S. 3772, The 
White Pine County Conservation, Recreation and Development Act of 2006, 
as it is currently written. I strongly urge that the subcommittee adopt 
the following critical changes to the bill.
    The bill must include funding to do a study by the USGS, DRI, and 
the State of Utah to develop a hydrological model to predict the effect 
of water development in groundwater basins in White Pine County, 
Lincoln County and adjacent areas in Utah. White Pine County is the 
target of a plan by the Southern Nevada Water Authority to export 
141,000 acre-feet of groundwater per year from this desert region to 
the Las Vegas area 285 miles away. White Pine County has repeatedly 
asked for funding for such a study to provide independent, 
scientifically credible information.
    Please, eliminate SNPLMA funding authorization for the $751 million 
wastewater pipeline into Lake Mead because public land sale revenues 
should not be used to subsidize Las Vegas growth. Such funding is not 
needed because Clark County wastewater agencies have stated publicly 
that they already have sufficient funds to complete the project.
            Respectfully yours,
                                                  Brent H. Perkins.
                                 ______
                                 
                 Statement of Nomi Sheppard, Baker, NV
    I am a resident of Snake Valley in White Pine County, NV. I fear 
the Las Vegas pipeline will destroy our community and our environment. 
Please take the following steps to ensure careful, scientific, unbiased 
thinking to divert a potentially disastrous, devastating situation. 
This will set precedence for future water developments in the West.

  <bullet> Add AUTHORIZATION OF a $12 million study by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Reasons: 1) White Pine County has requested SNPLMA funding for 
        such a study, 2) study would provide independent, 
        scientifically credible information to allow the county and 
        state to protect the groundwater table from excessive drawdowns 
        and protect water-righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy.

    Thank you.
                                 ______
                                 
         Statement of Terry Marasco, Silver Jack Inn, Baker, NV
    The current BARCASS 1 study will only state a water budget. It is 
imperative that the bill authorizes a $12 million study by the USGS, 
DRI, and the State of Utah to develop a hydrological model to predict 
the effect of water development in groundwater basins in White Pine and 
Lincoln Counties and adjacent areas in Utah because 1) White Pine 
County has requested SNPLMA funding for such a study, 2) study would 
provide independent, scientifically credible information to allow the 
county and state to protect the groundwater table from excessive 
drawdowns and protect water-righted springs and seeps.
    Since the Clark County wastewater agencies have stated that they 
have the funds, Eliminate SNPLMA funding for the wastewater pipeline 
into Lake Mead. Tax payers should not have to foot this bill.
                                 ______
                                 
                         Statement of Jon Shipp
    I would like to express my opposition and serious concern over the 
provisions of S. 3772, The White Pine County Conservation, Recreation 
and Development Act 2006, as presently drafted.
    I would strongly request that the following changes to the bill are 
made in subcommittee, to protect the integrity of this legislation.

          1) The bill must include funding for an independent study by 
        the State of Utah, USGS and DRI to develop a hydrological model 
        to predict the effect of water extraction from Groundwater 
        basins in White Pine and Lincoln Counties in Nevada, and 
        Millard and Juab Counties in Utah. This funding is essential to 
        produce scientific information and has been repeatedly 
        requested. The possible extraction of water from this region 
        could destroy the areas just created for conservation and 
        recreation.
          2) Authorization for SNPLMA funding with regard to the 
        wastewater pipeline into Lake Mead should be eliminated. Public 
        land sale revenues should NOT be used for a project where Clark 
        County NV have already stated sufficient funds are held and 
        where the money is effectively subsidizing the growth of a city 
        (Las Vegas) that has not had the foresight to plan ahead.

    The fact that proposed water extraction could seriously impact on 
resources in Utah makes it imperative that full scientific 
investigation is undertaken before any additional extraction is 
undertaken. There are water rights in both states that could be 
effected, plus a National Park and Wilderness areas.
    There is also the potential for release of dust containing Nuclear 
waste, should the water table fall too low and the surface plants die 
or be removed.
    Your serious consideration of these amendments is requested.
                                 ______
                                 
                                                          Reno, NV.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests.
    Dear Senator Craig: On the whole, the White Pine County Lands bill 
is well constructed and in the best interests of Nevadans and the U.S. 
However, two changes are imperative if the bill is not to be 
counterproductive:

          1) Please add authorization of the $12 USGS, DRI, Utah, 
        Nevada hydrological model for White Pine and Lincoln Counties 
        in Nevada and in western Utah. At present, water and 
        environmental resources are severely threatened by proposals to 
        extract ground water for shipment to Las Vegas. We do not have 
        a comprehensive model of the affected aquifers; $12 million is 
        a small price to pay for a genuinely descriptive study of 
        available water resources.
          2) Delete the $751 million dollar funding for wastewater 
        treatment, which would merely encourage Las Vegas to drain 
        distant aquifers and process the water for return flow credits, 
        subsidizing the unplanned urban sprawl of the Las Vegas Valley.

    Thank you for your consideration.
                                                    Stephen Tchudi.
                                 ______
                                 
                       Statement of Deon Reynolds
    I wish to express my opposition to S. 3772, The White Pine County 
Conservation, Recreation and Development Act of 2006, as it is 
currently written. I strongly urge that the subcommittee adopt the 
following critical changes to the bill.
    The bill must include funding to do a study by the USGS, DRI, and 
the State of Utah to develop a hydrological model to predict the effect 
of water development in groundwater basins in White Pine County, 
Lincoln County and adjacent areas in Utah. White Pine County is the 
target of a plan by the Southern Nevada Water Authority to export 
141,000 acre-feet of groundwater per year from this desert region to 
the Las Vegas area 285 miles away. White Pine County has repeatedly 
asked for funding for such a study to provide independent, 
scientifically credible information.
    Please, eliminate SNPLMA funding authorization for the $751 million 
wastewater pipeline into Lake Mead because public land sale revenues 
should not be used to subsidize Las Vegas growth. Such funding is not 
needed because Clark County wastewater agencies have stated publicly 
that they already have sufficient funds to complete the project.
                                 ______
                                 
                                      Baker, White Pine County, NV.
Senator Larry Craig,
Chair, Senate Subcommittee on Public Lands and Forests.
    Dear Chairman Craig and Members of the Subcommittee: I ask you to 
set S. 3772 aside until two changes--(1+) one addition, (1-) one 
deletion--are made:

          (1+) I ask the Subcommittee to ADD monies to fund a study by 
        the USGS, DRI and the State of Utah to develop a hydrological 
        model to predict the effect of water development in groundwater 
        basins in White Pine and Lincoln counties in Nevada and 
        adjacent areas in Utah. At the present moment this multi-
        billion dollar SNWA project is flying blind. The development of 
        a competent hydrological model is a minimal requirement.
          (1-) And I ask the Subcommittee to DELETE funding 
        authorization for the wastewater pipeline into Lake Mead. Clark 
        County wastewater agencies have already publicly stated that 
        they have the money to do this job. They just want the 
        Subcommittee to fund it for them.

    Thank you, Chairman Craig and Members of the Subcommittee.
                                                        Peter Ford.
                                 ______
                                 
 Statement of Ken Hill, President, North Snake Valley Water Association
    I am writing in behalf of a western Utah citizens group, North 
Snake Valley Water Association. We are concerned about S. 3772, the 
White Pine County Conservation, Recreation and Development Act of 2006.
    We feel the bill should contain authorization of water study to be 
conducted by U.S. Geological Survey (USGS), Desert Research Institute 
(DRI), and the state of Utah to develop a comprehensive hydrological 
model. These entities are currently conducting a study in groundwater 
basins in Lincoln and White Pine Counties and adjacent areas in Utah. 
But that study is under funded and inadequate. A study needs to be 
carried out to predict the effect of water development.
    A second study is necessary and was included in some of the early 
drafts of the White Pine County bill and has great support in White 
Pine County. Such a study would provide vital, independent, peer-
reviewed data to allow the county and Nevada to protect water-righted 
springs and seeps and to protect the groundwater table from excessive 
draw downs. This information also is vital for Utah in adjacent Snake 
Valley. Funding for this study should be authorized in an amount of 
$12-$15 million.
    S. 3772 also should be restricted to matters that directly concern 
White Pine County. We favor, for example, the elimination of SNPLMA 
funding for the effluent pipeline into Lake Mead. Revenues from public 
land sales should not be used to facilitate and subsidize growth in 
southern Nevada. Such growth is fueling the potentially disastrous 
reach for groundwater into eastern Nevada and western Utah. 
Additionally, Clark County officials have publicly stated their local 
resources are sufficient to complete the project which could cost more 
than $750 million.
    Thanks for your consideration of this matter.
                                 ______
                                 
Statement of Abigail C. Johnson, Snake Valley Citizens Alliance, Baker, 
                                   NV
    I am a resident of White Pine County. I am very concerned about 
that provisions in the proposed public lands bill for White Pine County 
NV do not address the County's needs.
    The water study and model are essential to understand the impacts 
of groundwater exportation. Funding a wastewater pipeline to Lake Mead 
in Clark County is unnecessary, and was never agreed to in the five 
years of local meetings leading up to the drafting of this bill
    Please support the following changes to S. 3772, the White Pine 
County Conservation, Recreation and Development Act of 2006.

  <bullet> Add AUTHORIZATION OF a $12 million study by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Reasons: 1) White Pine County has requested SNPLMA funding for 
        such a study, 2) study would provide independent, 
        scientifically credible information to allow the county and 
        state to protect the groundwater table from excessive drawdowns 
        and protect water-righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy, 3) during 
        meetings authorizing this funding was never requested nor 
        discussed.

    Thank you.
                                 ______
                                 
               Statement of Kelly Clark, Carson City, NV
    I am very concerned about the White Pine County Lands Bill.
    This bill needs to add the following elements to be fair to the 
citizens of Eastern Nevada:

  <bullet> Add AUTHORIZATION OF a $12 million study by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Reasons: 1) White Pine County has requested SNPLMA funding for 
        such a study, 2) study would provide independent, 
        scientifically credible information to allow the county and 
        state to protect the groundwater table from excessive drawdowns 
        and protect water-righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy, 3) during 
        local meetings, authorizing this funding was never requested 
        nor discussed.

    Support additional language to the bill that would provide long-
term, ongoing funding to restore and rehabiliate Nevada lands affected 
by wildfire. Nevada's wildlands are being decimated by cheatgrass and 
wildfire. Something must be done now to fight cheatgrass with drill 
seeding and aerial seeding, to contract with local people in the rural 
areas to complete restoration efforts once BLM has stabilized lands, 
and to provide both economic support for the rural economy in this 
state. Such funding would help to support wildlife habitat, which would 
help keep threatened and endangered species from becoming more rare and 
threatened--something we cannot afford in Nevada.
    Thank you for consideration of this message
                                 ______
                                 
    Statement of Sarah Mersereau-Adler, Rural Economic Development 
                       Advocate, Carson City, NV
    You have before you S. 3772, addressing public lands issues in 
White Pine, Lincoln, and Clark counties in Nevada. It is critical that 
two amendments be made to the bill in order to adequately determine 
potential impacts on the environment, water supplies and associated 
water rights.

  <bullet> Add AUTHORIZATION OF a $12 million study by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Such a study would provide independent, scientifically credible 
        information to allow the county and state to protect the 
        groundwater table from excessive drawdowns and protect water-
        righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy, 3) during 
        local meetings, authorizing this funding was never requested 
        nor discussed.

    Thank you for this attention to this critical issue.
                                 ______
                                 
                       Statement of Steve Palmer
    Please make the following changes to S. 3772, the White Pine County 
Conservation, Recreation and Development Act of 2006.

  <bullet> Add AUTHORIZATION OF a $12 million study by the USGS, DRI, 
        and the State of Utah to develop a hydrological model to 
        predict the effect of water development in groundwater basins 
        in White Pine and Lincoln Counties and adjacent areas in Utah. 
        Reasons: 1) White Pine County has requested SNPLMA funding for 
        such a study, 2) study would provide independent, 
        scientifically credible information to allow the county and 
        state to protect the groundwater table from excessive drawdowns 
        and protect water-righted springs and seeps.
  <bullet> Eliminate SNPLMA funding for the wastewater pipeline into 
        Lake Mead. Reasons: 1) Revenues from public land sales should 
        not be used to subsidize Las Vegas growth, 2) the funding 
        authorization from SNPLMA is unlimited and could be as much as 
        $751 million, but it's not needed because Clark County 
        wastewater agencies have said they already have sufficient 
        funds to complete the project without the subsidy, 3) during 
        local meetings, authorizing this funding was never requested 
        nor discussed.
                                 ______
                                 
  Statement of Katie Fite, Biodiversity Director, Western Watersheds 
                           Project, Boise, ID
    My name is Katie Fite, and I am Biodiversity Director of Western 
Watersheds Project (WWP). I was formerly Executive Director of the 
Committee for the High Desert (CHD). I request that this testimony be 
placed in the record for the White Pine Bill.
    First, I would like to submit an Opinion Piece that I wrote 
concerning four recent quid pro quo bills.
  regional perils of privatization of public lands and public assets 
               through 2006 development/wilderness bills
    A recent Salt Lake Tribune article and Editorial describes the fray 
over the draining of the regional aquifer underlying western Utah and 
eastern Nevada to propel breakneck growth in Las Vegas. Yet, no mention 
is made that the water pipelines that could turn this part of the Great 
Basin into the next Owens Valley were brought about by a complex land, 
development and wilderness Bill in Nevada's Lincoln County. By using 
the sugarcoating of wilderness, politicians quietly put in place the 
mechanism for a water grab that they could not have achieved by any 
other means--at least not without a prolonged and bloody battle.
    A new privatization/wilderness Bill that would sell off more than 
45,000 acres of BLM land in Nevada's White Pine County for industrial 
and other development is pending. With the water situation in the 
region already at a crisis point--where will the water to support more 
explosive development from the same aquifer come from? Industry plans 
here include a proposal for a giant new coal-fired power plant near Ely 
with others in the wings. Industrial development in the heart of the 
Great Basin will consume a tremendous amount of water. It will also 
spew mercury and other pollutants into a shared regional Nevada, Utah, 
and Idaho airshed--where winter smog inversions in urban areas now 
threaten human health.
    On the heels of Nevada's land and resource liquidation schemes, 
Utah's own Washington County Bill would sell off large blocks of BLM 
lands, and facilitate development. And two more privatization 
wilderness Bills are moving forward in Idaho. CIEDRA, a central Idaho 
Bill, promotes trophy home sprawl by turning public land over to the 
County for sale, and strips parts of the protection of the Sawtooth 
National Recreation Area. In Owyhee County to the south, the Owyhee 
Initiative would impose an indirect form of privatization of public 
lands through an elite Board of Directors to oversee all 3.8 million 
acres of public lands in the County. (Note: White Pine's parallel here 
is enablement of a local group, the Eastern Nevada Landscape Coalition, 
also closely linked to the livestock industry, to take over some 
functions of BLM--and spend taxpayer funds on chaining, burning, 
herbiciding and otherwise killing trees and sagebrush on public lands--
in the name of ``restoration''). The OI would also allow ranchers to 
privatize a potential 75,000 acres of BLM public land parcels. 200,000 
acres of sagebrush and forested BLM WSAs--critical to wildlife 
populations shared with Nevada and Oregon--would be released. Plans are 
already made for elaborate livestock water projects and burning to 
intensify use by privately owned cattle.
    Fallout from the Las Vegas pipelines serves as a stark reminder 
that the public needs to take a long hard look at ALL consequences of 
these complicated development, cronyism and wilderness Bills-now on a 
fast-track in Congress. What will the long-term effects be to the 
region--to water supplies, airsheds, and wildlife habitats--and even 
the quality of any wilderness that is designated?
    Shrewd enemies of public lands, developers and politicians are 
using an incremental County-by-County approach, coating the most bitter 
of Bills with flawed wilderness, to mask their looting of the public 
land commons for private gain. It's time for western politicians to 
recognize that intact public wild lands, with blocks of real 
Wilderness, are critical to our environmental health and regional well-
being. They should begin by shoving this crop of bad Bills into the 
shredder!
                          the white pine bill
    The Wilderness component of the White Pine Bill in no way offsets 
the many harmful provisions of the Bill, or the new harmful precedents 
for public lands that it would set. Provisions of the Bill include both 
direct and indirect privatization measures that will have harmful 
implications for public lands and resources extending far beyond the 
borders of White Pine County.
    The lands affected by the Bill include the beautiful public wild 
lands of the Great Basin in eastern Nevada. I have visited these lands, 
including White Pine and Lincoln County, for over 20 years to hike, 
camp and enjoy the beautiful clean air vistas. Sweeping desert valleys 
lie between rugged forested mountains. The air is currently some of the 
cleanest in the nation--with grand vistas--where one can see for dozens 
of miles.
    The scenic vistas of the sweeping valleys and ranges are threatened 
by fast-track industrial and other development, including for dirty 
polluting industry such as coal-fired power plants and associated 
infrastructure, that will be facilitated under the Bill's track 
privatization of over 45,000 acres of public lands.
    The air quality of the entire region is threatened by the fast-
track land privatization enabling energy development that would turn 
this beautiful part of the Great Basin into an Energy Colony of Las 
Vegas.
    The enablement of the ENLC and privatization of functions of BLM 
under the White Pine Bill has a parallel in other recent proposed quid 
pro quo legislation. In the Owyhee Initiative legislation, a group of 
special interests (a ``Board of Directors'' and a science center 
overseen by the BOD) would also be enabled by a sprawling quid pro quo 
wilderness bill. Both Bills promote cronyism, elevate the desires of 
local interests above those of the broader public in management of the 
public lands--and would use taxpayer funds to carry out livestock-
industry friendly science and manipulation projects.
    Both the ENLC and the OI BOD are unnecessary, and if established or 
enabled under legislation, will likely drain hundreds of millions of 
dollars from federal taxpayers to carry out the wishes of a hand full 
of local interests. They also both would elevate cronyism in management 
of public lands--something which the American people just resoundingly 
just voted against!
Proposed Energy Developments in White Pine County
    Large-scale energy, utility corridor and industrial development 
proposals now abound in White Pine County, and they will be propelled 
forward by the White Pine Bill.
    For example:

        http://www.nv.blm.gov/ely/nepa/040 06_038_cherry_creek 
        geothermal_ DRFONSI_061 
        306.pdf#search=%22SWIP%20coal%20impacts%20Ely%22. Page 15 of 
        this EA--Reasonably Foreseeable Future Actions ``a total of 
        8700 acres would be developed for coal and wind energy 
        production'' . . . ``similar success with coal and wind 
        generation facilities may lead to expanded production''.

    There are many coal-fired and other power plant, and energy 
infrastructure projects in the wings. These include the SWIP (Southwest 
Intertie) powerline, and other large-scale powerline and energy 
development projects in the works, such as Northern Lights. See:

        http://www.transcanada.com/pdf/company/projects/NorthernLights_ 
        LR.pdf#search=%22 northern%201i ghts%20alberta%20borah%o22
        http://vvww.legislature.idaho.gov/sessioninfo/2006/
        standingcommittees/
        henvmin.pdf#search=%22SWIP%20%22northern%20lights%22%20minutes%2
        0 environment%22, pages 1-5.

    Pollution from, large-scale energy development in White Pine County 
not only will locally pollute air that is among some of the cleanest in 
the Nation at present--including Great Basin National Park, it will 
pollute a regional airshed shared with Utah and Idaho. Positioning a 
large energy industry area on the eastern edge of Nevada north of Las 
Vegas frees the glittering city from having to deal with the pollution 
from energy needed to support its energy excesses.
    All this industrial development in rural Nevada will require large 
volumes of water use--in a region where the water situation is already 
at a crisis point. Why is Las Vegas letting the Nevada politicians that 
do its bidding get away with this? Why is it not kicking and screaming 
over the water to be used in industry in the White Pine? Perhaps 
because the quid pro quo is that Las Vegas gets cheaper energy from 
development in White Pine--and its not going to squawk about that.
    Plans underway cynically link coal and wind development. See: 
http://www.lspower.com/news/?release=20051115, and earlier link. Siting 
huge wind mountain-top dynamiting wind farms on top of rugged ridges 
and mountains in the Great Basin may have devastating consequences on 
the regions's sage grouse, golden eagle and other wildlife--plus spawn 
a tangle of powerline, roading and other infrastructure development 
cutting across desert valleys (vs. more appropriate siting for wind 
facilities such as on depleted flat windy ag. lands in southern Idaho's 
Snake River Plain and similar areas).
    The White Pine Bill empowers the Eastern Nevada Landscape 
Coalition--a private group that has promoted conversion of the pinyon 
juniper forests of the Great Basin on BLM and National Forest lands 
into wood chips for industrial-level biomass use. Large-scale biomass 
production from public lands in the Great Basin--where pinyon and 
juniper trees may grow only a few inches in a century--would result in 
extensive alteration and destruction of important biological resources 
on public wild lands.
    Note: Ely BLM has recently prepared a Draft RMP with maps show many 
potential wind energy sites. The Ely DRMP maps also show large areas 
being made available for disposal. The White Pine Bill allows BLM land 
privatization in acreages exceeding even the acreage proposed in the 
DRMP. Plus, the Bill's privatization would occur in unknown locations. 
The Ely DRMP has been set up to aid imposition of the ENLC large-scale 
manipulation and deforestation schemes across Lincoln and White Pine 
Counties--and in a way cedes control to this group--and the white Pine 
Bill sets this in stone.
Downwinders in Idaho and Utah Will Suffer from Coal Plant and Other 
        Development-Linked Pollution Propelled by White Pine Bill
    Idaho and Utah are downwind from central Nevada--as the downwind 
cancer legacy of Nevada nuclear testing in the 1960s so starkly shows. 
Idaho's Custer County, Gem County and other areas in Idaho received 
large doses of radiation on the winds from central Nevada. In fact, 
compensation for Idaho downwinders from the Nevada tests has been 
proposed in recent Congressional legislation.
    Today both Idaho and Utah are receiving massive doses of mercury 
from Nevada as airborne pollution from gold-roasting by largely 
foreign-owned giant cyanide heap leach gold mines. Toxic mercury 
carried by the wind from the gold roasting rains down on the region's 
streams and reservoirs to the north and east--making fish now unsafe to 
eat. See December 2005 New York Times article (Attached).*
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    The devastating environmental and human health effects of mercury 
pollution associated with coal-fired power plants is well known. Air 
pollution across the region from coal-fired power plants and other 
development in White Pine County will be facilitated by fast-track 
privatization of BLM land under the White Pine Bill.
Region's Aquifers Will Be Further Drained by Fast-Track Industrial 
        Development
    Like the White Pine Bill, it's immediate predecessor the Lincoln 
County Bill, was developed behind closed doors with local interests and 
wilderness-seeking conservationists. In 2004, the Lincoln County Bill 
quietly legislated the now highly controversial water pipeline 
corridors that will facilitate de-watering of the regional aquifer 
underlying large portions of Nevada including White Pine County, 
western Utah and even other states.
    By the time it was realized how ecologically destructive the 
Lincoln County water pipelines would be, conservationists promoting 
wilderness in closed-door dealmaking were so deeply invested in getting 
wilderness that they were not willing (or able?) to pull away from the 
Bill.
    The 2006 White Pine Bill's parallel to the water pipeline deal is 
the devastating effects of fast-track land disposals facilitating 
industrial and other development. The full extent and implications of 
such development has received virtually no public attention to date.
    Not only will industrial and other development stemming from the 
fast-track privatization of over 45,000 acres of BLM lands in White 
Pine County pollute a regional airshed, it will also place even more 
strain on the very same aquifer that will undergo the massive drawdown 
and water export to Las Vegas set in motion by the Lincoln County Bill!
Brown Sky Wilderness and Wild Lands--Pollution Will Mar Some of 
        Nation's Cleanest Air
    The disposal of vast tracts of BLM lands to facilitate industrial 
and other development will ironically lead to industrial pollution of 
the air over the very Wilderness areas that would be designated. The 
air of Great Basin National Park will be dirtied by White Pine 
development.
    Even downwind Class I airsheds (such as that over the existing 
Jarbidge wilderness--that was designated as part of the Wilderness 
Bill) will be polluted by soot and toxics pumped into the air by fast-
track White Pine industrial development.
    Right now, the air quality in central Nevada is better than almost 
anywhere else in the Nation. This land privatization and development 
legislation, by laying the foundation for actions that will degrade air 
quality, visibility, and aesthetics, will destroy a national benchmark 
for air quality, and deprive all Americans of the opportunity to enjoy 
this clean air and great scenic vistas.
    A behind-the-scenes deal appears to have been cut between some 
wilderness promoters over power plant development--where there is no 
ruckus being made over coal power plants sought by some local interests 
in White Pine. This is in sharp and noticeable contrast to the outcry 
raised by Wilderness advocates over a proposed Sempra coal plant near 
Gehrlach in western Nevada in recent years. To curry favor and gain 
support of local interests for wilderness, some conservationists are 
looking the other way--and not actively opposing the construction of 
giant coal-fired power plants and extensive energy infrastructure and 
development in White Pine County.
White Pine Bill Title VII Would Facilitate Large-Scale Deforestation 
        and Accelerate Desertification Processes By Enabling the ENLC
    The nationally significant pinyon juniper forests on public lands 
in both White Pine and Lincoln Counties are greatly threatened by the 
provisions of the Bill that would fund and enable the Eastern Nevada 
Landscape Coalition.
    The pieces are being put in place for a massive assault on pinyon 
juniper and juniper--to convert them to grass for cattle forage--under 
the guise of ``rangeland health'' and ``fire prevention''.
    ``Findings'' of the White Pine Bill Title VII are that there is an 
increasing threat of wildfire, and that to address this all, ``the 
secretaries shall carry out the Eastern Nevada Landscape Restoration 
Project'' . . . ``the secretaries may make grants to the ENLC and the 
GBI . . . to assist in reducing hazardous fuels . . .''.
    In many ways, the ENLC is analogous to the OI Board of Directors 
and its associated ``Science Center''. It is a group of special 
interests with strong ties to the public lands livestock industry that 
would be empowered by federal legislation--and also provided with 
direct funding mechanisms to kill trees and shrubs on public lands 
with. As in the OI, these provisions elevate is about local control and 
partial privatization of functions of BLM.
    The ENLC is headed by a former Director of the Nevada Cattlemen's 
Association, and promotes the public land manipulation agenda of local 
ranching interests. It would be greatly enabled and provided with large 
amounts of taxpayer dollars under the White Pine Bill.
    The ENLC promotes large-scale deforestation and vegetation 
manipulation designed to kill woody vegetation (pinyon, juniper, 
sagebrush) and promote grass (i. e. livestock forage) on BLM and Forest 
lands. The ENLC for the past several years has sought to acquire 
funding to accomplish deforestation projects on public lands.
    Ecological science recognizes the serious threats facing arid 
western vegetation communities, including both pinyon juniper and 
sagebrush. But the massive landscape-level manipulation schemes and 
disturbance projects promoted by the ENLC are very likely to make 
matters worse, not better. The ENLC promotes burning, chaining, 
herbiciding native vegetation on public lands to make them ``healthy''. 
The ENLC-promoted projects are the very same types of projects have 
been conducted in years past by BLM and the Forest to promote cattle 
forage--kill woody vegetation and plant grass. Such projects have 
contributed greatly to habitat loss and fragmentation for native 
species, including the demise of species such as sage grouse or pinyon 
juniper dependent species in many areas of the West.
    The Bill's enabling of the ENLC would also facilitate BLM's highly 
controversial Draft 17 States Vegetation Treatment/Weed EIS, which 
lists Nevada as the area where the largest number of ``treatments'' 
would occur (the other three top states are Idaho, Utah, and Oregon). 
The Weed EIS covers not only herbiciding (for example, killing pinyon-
juniper with the chemical Tebuthiuron), but also is accompanied by a 
Volume on broad range of treatments aimed at killing trees and 
sagebrush.
    The Ely Draft RMP describes landscape-level restoration treatments. 
The White Pine Bill in Title VII describes ``landscape-scale 
restoration treatments'', and the RMP has been written to elevate the 
programs of the ENLC.
    This all is aimed at promoting harmful multi-million dollar costly 
projects that disturb public wild lands--without addressing the vast 
weedlands, failed crested wheatgrass seedings, chainings, burns and 
herbiciding projects and other highly disturbed areas that already 
exist on BLM lands, or the CAUSES of the problems that are to be 
``treated''--such as relentless grazing pressures and other human-
imposed disturbances. The ENLC would serve as a pass-through group for 
taxpayer funds, be in a position to keep portions of funds for 
administration of various manipulation projects that will be handed out 
to contractors who may be cronies.
    See Link of recent chaining in neighboring Elko County at http://
www.westernwatersheds.org/facts_photos/photos/lphotos.html and then 
click on ``Spruce'', illustrating the type of project that would be 
inflicted across broad landscapes of Lincoln and White Pine Counties 
through enactment of this Bill. These are the type of projects ENLC 
would be enabled to carry out--using large sums of taxpayer dollars, 
particularly federal fire funds.
Ely-Mount Wilson ``Urban Interface'' Project, Promoted by ENLC, 
        Illustrates Excesses
    My first experience with the ENLC arose with the Ely-Mount Wilson 
Urban Interface projects several years ago--circa 2002. These projects 
would have deforested over 50 square miles of BLM lands in two areas--
the Mount Wilson summer home area near Pioche in Lincoln County, and an 
area extending to 14 miles south of Ely in White Pine County. Much of 
the land was targeted for tree killing was miles from any habitation. 
BLM prepared an EA, promoted by the ENLC, that would have chopped 
pinyon and juniper into piles of two inch thick wood chips blanketing 
the land. Pinyon juniper was claimed to be rampantly invading, and had 
to be treated across 50 square miles.
    Nevada land survey records from the 1880 survey showed that the 
trees were NOT invading--that the lands were mapped in 1880 by 
surveyor's as ``Pine Nut Forest''. FOIA records also revealed that BLM, 
passing some funding through ENLC, planned to spend 10 to 12 million 
dollars of federal fire funds to kill the ``invading'' trees here.
    WWP and CHD sued BLM. As a result, BLM brought in its national 
level fire experts, who found that only 13% of the 50 square mile land 
area needed to be thinned to protect the various summer home and other 
habitation interfaces--not the vast area targeted by local interests. 
We thought this sounded much more reasonable--and settled the lawsuit, 
saving taxpayers many millions of dollars as a result. Plus, the 
forested lands were carefully thinned and many older trees remained--
they were not chained, burned, poisoned, or otherwise killed and 
treated as weeds.
    FOIA documents obtained as part of this process showed that the UI 
Project was planned as a prototype for large-scale biomass removal of 
pinyon and juniper on public lands.
    Interestingly, portions of the UI Project BLM lands at Mount Wilson 
were later legislated for privatization by the Lincoln County Bill. And 
now some of the UI Project lands south of Ely may be privatized for 
fast track development under the White Pine bill.
White Pine Bill's Enabling of ENLC Would Thwart Full and Open Public 
        Processes
    My concerns about ENLC and the insertion of a this group's interest 
into public lands legislation was only heightened on a recent November, 
2006 Ely BLM tour of proposed vegetation manipulation/treatment 
projects that I attended.
    On this tour, input and discourse over divergent views on public 
lands management and ``treatment'' were scorned by a representative of 
the ENLC, who clearly felt that the ENLC world view of deforestation 
through expensive taxpayer-funded manipulation of wild landscapes using 
federal fire funds was the ONLY way to manage public lands.
    Under the White Pine Bill, massive landscape-level projects aimed 
at killing native woody vegetation (pinyon, juniper--even mowing or 
herbiciding sagebrush) would be used to build establish a costly and 
expensive local interest and livestock industry-serving non-
governmental bureaucracy, through the ENLC directly receiving federal 
grants for manipulation/``treatment'' or by its serving as a pass-
through for federal funding and garnering funds for overseeing/
administering contracts.
    This recent experience only heightened my concerns about the 
disregard of the ENLC for a concept of a broader public than just local 
interests in White Pine and Lincoln Counties. Public lands belong to 
all the American public--and not just local interests and their cronies 
who seek to use public funds to conduct cattle forage/``rangeland 
health'' treatments or other projects in the name of ``restoration'', 
or ``fire control'' or to build a self-serving bureaucracy.
Enabling and Funding ENLC Is A Step Towards Privatization of Public 
        Lands
    The ENLC--is redundant in the functions it would perform. BLM, USGS 
(research) and other federal entities already do whatever it is that 
the ENLC would do. Running taxpayer funds and projects through the ENLC 
amounts to a form of privatization of the functions of BLM and 
privatization of management and oversight of activities on the public 
lands. BLM and other federal agencies already exists to administer and 
develop any ``rangeland'' or ``restoration'' projects.
    Moreover, a series of federal laws--ranging from FOIA to FACA that 
allow for public oversight of management of public lands--and that 
shine the light of openness and accountability on undertakings on 
public lands--these do not exist in the case of the ENLC.
    The ENLC seeks to take over BLM duties (and likely for a lot more 
cost). And as any bureaucracy does, will seek to perpetuate itself with 
a constant and ever-greater flow of funds.
    There are serious ecological concerns here. The land manipulation/
``treatments''/deforestation projects promoted by the ENLC and funded 
primarily by federal fire funds--carry with them significant risks that 
will result in serious ecological problems--such as weeds thriving in 
the wake of treatment disturbance and dominating the treated lands. The 
arid sagebrush and pinyon juniper landscapes that the ENLC seeks to 
radically alter would be further endangered by enabling the ENLC.
    It must also be noted that the White Pine's Bill overt land 
privatization--and the associated development of energy infrastructure 
cutting across the surrounding still-public lands--will only heighten' 
the risk of weeds and of fire facilitating expansion of exotic species 
like cheatgrass. As lands are privatized, and industry and sprawl 
develops, this will result in cries to spend many more millions of 
dollars on trying to fireproof neighboring wild landscapes. Plus, 
development on privatized lands, new OHV Routes promoted under the 
Bill, will likely result in many more human-caused fires--an added 
drain to federal taxpayers.
Mature and Old Growth Pinyon Pines and Dependent Wildlife are 
        Threatened by the White Pine Bill's Enabling of the ENLC
    The pinyon and juniper forests of White Pine and Lincoln Counties 
provide critical habitat for the pinyon jay and many other species of 
native wildlife. Continental assessments of bird species show the 
importance of the forested wild lands of Nevada for pinyon juniper 
dependent and many other species of wildlife. Recent large-scale die-
offs of pinyon across the southwest (New Mexico, Arizona, Colorado) 
have elevated the significance of the pinyon juniper forests of the 
Great Basin even more.
Nevada Land History is Being Ignored in Pro-Manipulation Claims that 
        Target Killing Trees by Claiming they are Invading Sagebrush
    ``Trees that pre-date Euro-American settlement represent woodland 
structure before the impacts of our land uses, and thus need to be 
preserved during restoration as is true in other ecosystems.'' William 
L. Baker and Douglas J. Shinneman.
    The ``range'' livestock industry woody vegetation manipulation 
mindset espoused by the ENLC is also illustrated by recent very 
expensive projects promoted just across the border in Elko County. 
Attached is a recent ACEC proposal prepared by WWP for BLM wild lands 
that are contiguous with White Pine County. This ACEC proposal, and the 
project that it is a direct counter to, serve to illustrate the 
political moves and mindset that pervades the ENLC manipulation schemes 
and flavors the manipulation ``research'' that Title VII of the White 
Pine Bill enables.
    Also Attached is a peer-reviewed paper by William L. Baker D. J. 
Shinneman that examines the lack of credible evidence for many of the 
invasion and low intensity fire frequency claims being made by ENLC and 
ag. college and other ``range'' researchers who are garnering large 
grants to conduct treatment after treatment that to kill woody 
vegetation on public lands--while at the same time ignoring cleaning up 
the weed messes that are the result of the exact same treatments done 
on past years.
    Rather than conduct research to heal the damaged public lands that 
are the result of these very same manipulations that have been 
conducted in the past across the Great Basin, they instead promote 
broad-scale new disturbance that promotes grass (i. e. cattle forage).
    Pinyon juniper is being killed to try to grow more sagebrush in the 
hopes that this may delay/avert listing of sage grouse under the ESA 
Much of the suitable sage grouse habitat at middle and lower elevations 
in the Great Basin has been greatly altered by livestock grazing, 
livestock/fire/livestock/fire, and has been converted to, or is at 
serious risk of conversion to, cheatgrass and other weeds. Thus, 
likelihood of enhancing sage grouse habitat there--especially at the 
landscape level and especially as abusive land practices continue 
unabated--is minimal.
    As a result, in Nevada and around the West sage grouse habitat 
``enhancement'' projects focus primarily on interjecting new 
disturbance to plant communities at higher elevations--to try to create 
more sagebrush habitat. Unfortunately, many of the higher elevation 
sites are in reality in the moisture and climate regime that 
characterizes pinyon juniper communities, which are well recognized to 
grow over a broad range of soil types (Trimble 1989).
    Also, since many sagebrush communities have been depleted of 
grasses and forbs by chronic and ongoing livestock grazing impacts, 
sagebrush communities too are targeted for massive manipulation--
mowing, beating, plowing--to stimulate grass--to promote continued high 
stocking of cattle and sheep on public lands.
    It is more palatable (politically) to kill ancient or mature trees 
critical to many species dependent on them--to promote patchy 
successional sagebrush rather than reckon with the ecological problem 
of the rehabilitation of weed-invaded lower and middle elevation 
sagebrush sites. The White Pine Bill's enabling of the ENLC promotes 
just such self-serving land manipulation and wrongly terms its 
disturbance ``restoration''.
    The extensive manipulation that ENLC promotes imposing on the Great 
Basin landscape has been shown to greatly reduce for long periods of 
time the very shrub (sagebrush) that it is claimed needs to be 
perpetuates.
Political Pressures to Placate Public Lands Livestock Industry Drive 
        Pinyon-Juniper Deforestation and Sagebrush Manipulation Include 
        Seeding and Thinning Projects
    Elk numbers have greatly increased across much of northern and 
central Nevada--leading to more controversy with the public lands 
livestock industry. Killing mature and old growth trees (and 
manipulating/thinning sagebrush, too) using federal fire funds and 
claiming ``fuels reduction benefits'' is a politically expedient way 
for land management and game agencies to placate powerful public lands 
ranchers. Federal fire funds have provided a new, abundant and near-
bottomless source of tax dollars to funnel into these efforts to 
placate public lands ranchers.
    Ignored is the fact that big game, especially mule deer and a host 
of other wildlife species eat pine nuts, seek shelter and escape cover 
at all times of the year in forested vegetation, and that forested 
areas often are the ONLY areas where competition for food, cover and 
space with domestic livestock is somewhat less. Thus, the lower 
elevation forested areas of Nevada's arid ranges may often be havens 
for big game and other wildlife. Juniper is consumed in harsh winter 
conditions.
    Not only do seedings and manipulation projects that promote 
abundant fine fuel elevate the risk of mow to moderate fires, the 
disturbances that open up native shrub and tree communities, and 
accelerate drying and desiccation of sites, may elevate risks of fire 
due to increasing site aridity. The role of livestock grazing, 
woodcutting and other removal of vegetative cover in accelerating 
drying and desertification processes has been described by Sheridan 
(1981), Dregne (1986) and others.
Disturbances and Manipulations Pose Serious Risk and Are Fraught with 
        Uncertainty
    A broad body of research demonstrates the controversial nature and 
risks of various vegetation manipulation and disturbances that would be 
promoted over Lincoln and White Pine Counties (Lanner 1981, Baker and 
Shinneman 2003).
    White Pine Bill Title VII states that ``forest and rangeland in the 
Great Basin are degraded as a direct consequence of land management 
practices . . . that disrupt the occurrence frequent low intensity 
fires. Not only does the Bill do nothing to address the MANY land 
management problems in the Great Basin, a growing body of science 
contradicts the Bill's assertion that frequent low intensity fires were 
the norm in Great Basin systems--and instead that infrequent higher 
intensity fires were the norm in many areas.
    Several recent articles by Dr. William L. Baker shed new light on 
the claimed conditions on which manipulation proposals are based. See 
Attached.
    ``If restoration of fire . . . is to be based on sound science, 
significant methodological hurdles . . . must first be addressed and 
resolved . . . localized site-specific studies are always needed before 
undertaking restoration . . . we suggest that before undertaking 
restoration, managers or scientists date some of the largest trees on a 
site. If these trees pre-date European settlement, removing or thinning 
them is inappropriate if restoration is the goal. Trees that pre-date 
Euro-American settlement represent woodland structure before the 
impacts of our lands uses, and thus need to be preserved during 
restoration as is true in other ecosystems (e. g. Friederici 2003)''.
    Science-based management based on reasonable, sound and 
precautionary science that minimizes disturbance, should be the aim of 
any ``treatments'' imposed on this fragile landscape. Legislation 
should not enshrine a scientific viewpoint that is increasingly shown 
to not be true.
    In turning over public funding and oversight to groups such as the 
ENLC, there is no certainty that sound and precautionary science will 
be applied on these public lands that belong to all Americans.
Pinyon Pines, a Great and Little Understood Resource, Are--and Will Be 
        -Targeted for Manipulation, Deforestation and Potential 
        Biomassing through Enabling and Funding the ENLC
    Pinyon pine in the Great Basin represents a great economic 
opportunity for harvesting of pine nuts. The pinyon pine forests of 
Nevada are especially important for pine nut production as the trees in 
the Southwest have suffered large-scale recent die-offs.
    Die-offs of varying extent have also recently occurred in several 
Nevada ranges, so the ENLC landscape-level manipulations of healthy 
mature and old growth pine nut-producing trees are very significant.
    Global climate change processes are causing mortality of many of 
the West's conifers, and the proposed waste and destruction of forested 
lands through enabling the ENLC must be examined in this context, also.
    The old growth and mature pinyon pine of the Great Basin provide a 
source of pine nuts for many species of wildlife (mule deer to pinyon 
jays) and for human consumption. In fact, the economic value of pine 
nuts may exceed the economic value of the livestock produced on these 
lands on a per acre basis.
    The great majority of the pine nuts consumed in America (80%) are 
imported, including from China. See www.pinenut.com/noha.htm Sarashkin 
and Gold, 2004 ``American Pinon Pine Nuts: an important Use for Public 
Lands?'', This import often results in inferior quality, chemically-
treated nuts, and adds to the trade imbalance currently facing America. 
Also, www.pinenut.com/about.htm, including: ``pinyon nuts 28 times more 
earth efficient in terms of protein produced per acre''; ``pine nuts at 
least 148 times more profitable than beef in terms of public lands 
grazing''.
    The Bill promotes and enables large-scale vegetation manipulation 
by an entity that promotes an agenda that largely views trees as 
weeds--and promotes the killing of mature and often ancient trees in 
the magnificent forested landscapes of Lincoln and White Pine Counties 
by highly invasive, destructive and often outrageously expensive tree-
killing techniques is promoted.
    Rather than (herbiciding, chaining, burning, mastication, and other 
manipulation) that treat the trees as weeds to be destroyed and wasted 
so that livestock forage grass can be grown, they must be viewed (and 
managed and protected from undue degradation) as a forest for their 
important biological, aesthetic and economic values where careful 
collection and harvest of forest products may occur.
    Careful and sound science-based and precautionary forestry methods 
to protect the health of trees, as well as in designing any fire-
reducing ``treatments'' is necessary to protect this landscape.
White Pine Is Part of A Recent Series of Nevada Wilderness and Other 
        Land Disposal Bills That Privatize Public Lands, Promote 
        Development, and Disregard Environmental Laws
    The White Pine Bill (see Attached 2004 Testimony in opposition to 
Lincoln County) set aside a successful lawsuit against the Bureau of 
Land Management in which the Committee for the High Desert was a 
plaintiff. A federal court in Nevada had ruled that BLM had failed to 
study the environmental consequences of land disposal under the Lincoln 
County Land Act (yet another piece of recent BLM land disposal and 
development-promoting legislation in eastern Nevada). A federal court 
in Nevada had found that BLM's NEPA review failed to analyze the 
consequences of extracting water from nearby basins to supply LCLA 
development; failed to develop mitigation plans for threatened and 
endangered species; and ignored the cumulative impacts of the LCLA 
combined with other development for the region. The Lincoln County 
wilderness bill specifically overturned that Court Decision.
    The White Pine Bill's specific legislative enabling of the ENLC 
(promotes local cattle and development interests) will serve to taint 
fair and full NEPA review of projects on public lands. It will also 
make public oversight and scrutiny of actions conducted on public lands 
much more difficult.
Water Provisions of White Pine Bill Fail to Ensure Waters Will Remain 
        in Any Wilderness Designated Under this Bill
    The water provision of the White Pine Bill claims that ``because of 
the unique nature of the land designated as wilderness by this title, 
it is possible to provide for proper management and protection of the 
wilderness . . . in ways different from those used in other laws''. The 
Bill then describes how direct water developments inside the wilderness 
would not be allowed, but fails to ensure that water will be 
perpetuated in Wilderness.
    The Bill ignores the fact that massive ground water pumping from an 
aquifer that underlies the Wilderness areas (the aquifer draining 
resulting from the Lincoln County Bill authorization of pipelines) will 
de-water lands inside the Wilderness, too. The same aquifer underlies 
the region, and does not stop at the Wilderness boundary.
    The bottom line is that the White Pine Bill does not protect the 
wilderness areas from the aquifer depletion and drying up of springs 
and streams resulting from the Las Vegas pipeline water export. The 
Bill wrongly claims to: ``protect the wilderness values of the land 
designated as wilderness . . . by means other than a federally reserved 
water right''--yet provides no mechanisms to do this.
Public Lands Sacrificed to Bail Out County
    White Pine County right now is in receivership, with the state 
administering its dealings. Is the sale of public land in this Bill 
being done in part to bail out a County that has not been able to 
handle its own finances in the past? i.e. puffing the County on Welfare 
by selling the public's land? See http://
www.digitalcandidate.comlupload/nreeetf_f_833_06.doc :
    ``Mr. Rubald said that the economic impacts looked at specifically 
are the wind project and the LS power study. He stated that these 
numbers needed to be taken into consideration when looking at the fact 
that White Pine County is currently under the State Department of 
Taxation's assistance because they are in ``severe financial distress. 
``This is a statutory term used to describe counties that are going 
through severely tough financial times. He said that some of these 
concerns can be addressed by promoting economic development activities, 
not the least of which is the power plants and the wind generation 
facility''.
    In this context, how can a County with this track record be trusted 
to make responsible decisions regarding fast-track development that 
would be propelled by this Bill?
Development and other Provisions of White Pine's Predecessors Are 
        Already Causing Significant New Problems
    The Clark County and Lincoln County Bills have set in motion a 
large-scale series of development and water-depleting activities. The 
promoters of these quid pro quo wilderness bills--where land disposal, 
cronyism and political favors for local interests have been given much 
free reign--are now seeing some of the consequences of their actions.
    The results of these bills--run away growth and water consumption--
is so out of control in the region that the White Pine bill looks 
BACKWARD--and contains provisions to try to stave the hemorrhaging of 
public resources and host of problems being caused by the development 
and other provisions of its predecessor Development/Wilderness Bills.
    For example, Title VIII of the White Pine Bill authorizes paying 
for rolling up lawns in Las Vegas sprawl development with the proceeds 
of some of the Clark County public land sales--instead of using the 
money to purchase or protect other lands as was promised in the Clark 
County legislation.
    I urge you to oppose this Bill.
                                 ______
                                 
  Statement of Katie Fite, Biodiversity Director, Western Watersheds 
                           Project, Boise, ID
    My name is Katie Fite, and I am Biodiversity Director of Western 
Watersheds Project (WWP). I request that this additional testimony be 
placed in the record for the White Pine Bill.
              anti-democratic and privatization provision
    I want to stress that the White Pine Bill enshrines a provision 
that is blatantly anti-democratic, as well as being a step towards 
privatization of public lands. As described in Testimony submitted 
separately, the Bill elevates and funds the Eastern Nevada Landscape 
Coalition's world view in the ``Eastern Nevada Landscape Restoration 
Project'' in management of public lands that belong to all three 
hundred million Americans. This Bill basically elevates the ENLC, and 
the Eastern Nevada Landscape Restoration Project (which is essentially 
the ENLC's world view). The Secretaries of the Interior and Ag are 
essentially ordered (``shall'' under this Bill) to carry out its 
bidding.
    It is alarming that federal legislation would elevate as all-
knowing a PRIVATE non-profit entity, and set up legislation so that it 
can dictate management--and fire policy, too--on the public's land.
    This serves to set up a parallel, separate PRIVATE entity to take 
over many of the functions of BLM, the Forest Service and other federal 
agencies, as well as dictate agency priorities--all at a likely bloated 
cost to the taxpayer.
    The Bill mandates that the intensive manipulation and disturbance 
schemes of the ENLC, a local ``collaborative group'' SHALL be imposed 
on the public wild lands across White Pine and Lincoln County. There is 
no guarantee that such a group will follow Best Available Science, will 
listen to or incorporate important new information, will weigh or 
balance information that might conflict with local viewpoints and range 
manipulation desires of local ranchers or ag extension agents to kill 
trees and sagebrush and promote grass, or desires of local heavy 
equipment operators to be supplied with an endless stream of federal 
tax dollars to deforest pinyon-juniper and chip them up for large-scale 
biomass endeavors to fund local contractors and energy speculators. I 
stress the very slow growing nature of trees in these arid lands, and 
the long-term irreparable environmental damage that can quickly be done 
by short-sighted management actions. A local cabal will take over 
control of the public's lands.
Release of Designated Wilderness in Existing Mount Moriah Wilderness 
        Area
    The Bill also would release a portion of the Mount Moriah 
Wilderness. We have heard that this is being done to accommodate 
livestock pipelines and please public lands ranchers. There is no 
explanation in the Bill for why this would occur--were the pipelines 
built after Wilderness designation, or before? If pipelines already 
exist--are they in trespass? If so, they should be removed. And if this 
release is aimed at freeing up lands for new pipeline construction, 
there is no possible justification for this. Unfortunately, livestock 
pipelines are present in other wilderness areas--why should the Mount 
Moriah lands be treated any differently? Is there any relation between 
the release here and potential future mining--do claims exist in the 
area to be released?
    This serves to illustrate some of the many uncertainties involved 
in this Bill developed in closed-door dealmaking with local interests.
                     wilderness study area release
    I strongly oppose the release of any Wilderness Study Areas under 
this Bill.
heritage trail provision promoting private profiteering on public lands 
                           with public funds?
    It is of concern that the Heritage Trail provision would promote 
current ``multiple uses''. Does this mean that it would promote and 
provide taxpayer-funded positive publicity for the public lands 
livestock industry, or the mining industry -where individuals or 
corporations reap private profits from multiple use of public land?
Will Heritage Trail Promote Mormon Religion or World View?
    I am also concerned that the Heritage Trail provision may provide 
inadequate protection from over-promotion or over-glorification of the 
Mormon church world view in trail development and interpretation--
especially if that Church were to become one of the partners in various 
Trail developments.
    Also Attached to this submission is a December 2005 New York Times 
article on mercury pollution, water scarcity, and other regional issues 
that I failed to attach to previously submitted testimony.
    Thank you for your consideration of these concerns.
                                 ______
                                 
             Statement of Brooks Pace, Dammeron Valley, UT
       s. 3636, the washington county growth and conservation act
    Mr. Chairman and members of the committee, my Name is Brooks Pace 
and I live in Dammeron Valley, Utah. Thank you for the opportunity to 
submit this testimony to the subcommittee with regard to S. 3636, the 
Washington County Growth and Conservation Act. Washington County has 
been my home and that of my fathers and grandfathers back 3 
generations. I grew up riding and hunting in the mountains and deserts 
of the region and I know it well and I truly love it. I have spent the 
past 30 years working in the housing and real estate industry in 
Washington County.
    I am here to explain to the Committee the serious concerns that I 
and many of the residents of Washington County have with the Washington 
County Growth and Conservation Act. The towns of Rockville, Virgin, 
Springdale, as well as a local citizens group called Citizens for 
Dixie's Future, the Shivwits Band of the Paiute Tribe, the Southwest 
Chapter of Back Country Horsemen, educators, community leaders, and 
many others have all expressed their opposition to this bill. This bill 
presents a very controversial and unwise approach for coping with 
growth in Washington County. Washington County is growing rapidly, but 
I am concerned that this legislation risks destroying the natural 
beauty and livability of this corner of southwestern Utah.
    Washington County is home to some truly spectacular public lands, 
some of which are covered with towering cliffs, majestic washes and 
canyons, ancient artifacts, and lava flows. It is also one of the 
fastest growing counties in the nation. The entire County cries out for 
meticulous planning to prepare for the inevitable growth which will 
occur within our natural limits. Without such planning we'll destroy 
the quality of life for the residents and dull the incredible natural 
experience for visitors who come by the millions.
    Instead of the comprehensive plan for the future that we need, the 
Washington County Act would allow the sale of as much as 24,300 acres 
of public land. The assumption is that this public land is needed to 
meet the demand for private development across the county. Public lands 
in Washington County are an invaluable asset to our communities and to 
the citizens of the nation. Moreover, there is no need to sell off 
these lands when many private lands have yet to be developed. The St. 
George Chamber of Commerce recently estimated that there are roughly 
20,000 acres of private undeveloped land in Washington County. I am 
concerned that the legislation allows the sale of as much as 24,300 
acres without first permitting the local planning process to determine 
what the community needs and wants.
    Undoubtedly our public lands are valuable. It is likely that 
selling as much as 24,300 acres could generate millions or perhaps 
hundreds of millions of dollars. But our public lands are also 
immensely valuable to our communities as open space. I believe that 
many residents came to Washington County because of the stunning 
natural environment. The Washington County Act does far too little to 
protect this landscape. Many areas that should be wilderness are not 
protected in this bill. In fact, the bill would roll back wilderness 
protection from 15 square miles of BLM land currently protected as 
wilderness study areas. The loss of these wild lands would forever 
change the character of Washington County.
    The bill also makes significant changes to the landscape of 
Washington County by giving the Washington County Water Conservancy 
District rights of way to approximately 9,000 acres of BLM land, free 
of cost. It also appears that hundreds of-linear miles of utility 
corridors for water infrastructure, electricity lines, and 
transportation would be created under the bill. What is troubling is 
that these critical planning decisions are being made before any local 
consensus has formed.
    I would like to briefly focus on the issue of water. Water is the 
biggest limitation to growth in the West. Our majestic but sadly 
overused Colorado River needs special consideration. This bill flaunts 
that due consideration and provides funds that can be used to design 
and engineer another diversion to the system. I hope this Committee 
will see the importance of not further over taxing this lifeline of the 
West. At some point some committee will have to break precedent and 
start the process of updating the Colorado River Compact. The health of 
the West depends on it.
    We have enough water locally developable to provide for 350,000 
residents, roughly two and one half times our current population; call 
it 120,000 homes and the requisite commercial, industrial and 
recreational demand which includes over ten thousand other homes and 
condos and a dozen golf courses. Yes, we would like more water. But do 
we deserve it on the backs of other regions who are struggling to 
survive in this time of diminished river flows and over appropriation? 
Is our allocation provided for in the Colorado River Compact so 
inviolable that we would fly in the face of reason and spend up to a 
Billion dollars diverting more water from this distant stream?
    Finally, in Utah, we take significant pride in our history and our 
past. Our history is an intimate part of our identity. This bill will 
literally sell our past to the highest bidder. As currently written the 
bill provides no protection for cultural, historical, archaeological, 
or paleontological resources. Indeed, one of the rights-of-way could 
result in the flooding of Ft. Pearce, a national historic site. We can 
plan for the future, while preserving the past, but this bill fails to 
do so. Many of us in Washington County want these resources protected.
    There is a better way to plan for our future, one that is supported 
by the community. You've read and heard testimony about the Vision 
Dixie process currently underway in the County. It's an attempt to 
bring the County citizens to town hall like workshops and meetings 
where they can envision what different growth scenarios will look like. 
So far the meetings have brought out a variety of opinions and ideas. 
This has been an immense process for our community, and has put us on 
the path of planning for our future. I applaud the Commission for 
supporting it and thank Senator Bennett and Representative Matheson for 
their efforts in bringing Vision Dixie to Washington County. The 
community is excited about this opportunity, but now we need your help. 
We need the time to come up with a true community vision of our future.
    Please listen to reason and to the wishes of the citizens of 
Washington County before acting on this legislation. It is quite 
possible that our elected politicians got ahead of their constituents 
on this issue. Over 1600 signatures have been obtained in the last few 
weeks asking that this Bill at least be tabled until we have finished 
our Vision Dixie process. Then we may have a clearer picture of the 
needs of the communities in Washington County and the consensus 
approach for solving the region's issues. Let Vision Dixie run its 
course and then we can work to develop a bill that truly meets the 
needs of Washington County.
                                 ______
                                 
    Statement of Vivian Parker, Biologist for the California Indian 
                       Basketweavers Association
    Dear Senators and Staff of the Energy and Natural Resources 
committee of the U.S. Senate:
    As a biologist working on behalf of resource issues for the 
California Indian Basketweavers Association in California during the 
last eight years, I have had the opportunity to study and learn a great 
deal about the way that our resource agencies have historically managed 
the public lands encompassed by the Great Basin and Intermountain 
Region, of which the lands in White Pine County at issue in this bill 
are included.
    Regarding the proposed bill, we have grave concerns regarding 
portions of the bill included in Title II--Eastern Nevada Landscape 
Restoration Projects. This portion of the bill would codify and 
institutionalize a program which is largely unjustified by the current 
state of science regarding the ecology of pinyon and juniper woodlands. 
The practices proposed by the Eastern Nevada Landscape Coalition (ENLC) 
are likely to exacerbate current trends of degradation of these public 
lands, including non-native weed invasion, loss of habitat for 
wildlife, loss of biological diversity, and may contribute to further 
climate change.
    The projects proposed by the ENLC aim to justify the removal of 
vast acreages of native pinyon and juniper in the name of ``range 
improvement'' or ``restoration.'' The arguments in support of these 
projects are based on an assumption that these trees are ``invading'' 
rangelands due to fire suppression. We find that there is insufficient 
evidence that pinyon and juniper are expanding their range in response 
to fire suppression. Rather, we find scientific controversy regarding 
this issue. Range researchers cite fire suppression and refer to the 
expansion of juniper as ``invasion'' or ``encroachment.'' Botanists, 
paleoecologists, and climatologists, on the other hand, refer to pinyon 
juniper ``expansion'' as natural and a result of climate shifts coupled 
with the impacts of intensive grazing impacts (Lanner 1977; Burwell 
1998; Harris et a1.2003).
    I would ask the Senators to take note that there is a big 
difference between range management, as a science, and ecology or 
natural history-based science. Range improvement, by its very 
definition, aims to increase the availability of pasture forage for the 
benefit of grazing livestock, or to be more specific, in order to allow 
a greater number of livestock on a given acre of land. Historically, 
millions of acres of sage brush and pinyon juniper woodland have been 
cleared in the region. Clearing of these native lands was conducted by 
cutting down the trees, through burning, through plowing and dragging 
rails across the sagebrush, the use of bulldozers, aerial and ground 
based herbicide spraying, and ``chaining''--whereby a heavy anchor 
chain is attached to two tractors, and pulled through large acreages in 
order to uproot the sage brush and small trees. Aerial seeding of non-
native grasses has been conducted on a large scale for many decades as 
well, and continues in some areas. Pinyon and juniper trees were widely 
cut to use for lumber, for mining timber, for firewood and charcoal. 
These practices have been well documented in history books, text books, 
and USDA and USDI literature and is not debatable. It is simply the 
history of management of the region.
    As a result of these practices, coupled with intensive and 
frequently unregulated and unsustainable livestock grazing on fragile 
arid lands, much of this region has become severely degraded with 
altered water cycles, loss of species or biological diversity, altered 
fire regimes due to invasive non-native annual grasses, and 
establishment of non-native weedy species that are thorny or prickly in 
response to the grazing pressure (Mack 1981). Needless to say, these 
effects have greatly impacted the ability of Native Americans to 
continue their traditional cultural practices. The loss of pinyon pine 
and juniper is a grave concern to native people in the region. The 
pinyon pine nut is one of the most nutritious and important food crops 
which is native to North America. Today the pinyon pine is under threat 
due to widespread die-offs in some locations.
    The Eastern Nevada Landscape Initiative, or Project, aims to 
increase the removal of pinyon and juniper woodlands on thousands of 
acres of public lands, in the name of ``range improvement'' or 
restoration. Restoration, in this sense, is a misnomer. In fact, there 
is no scientific basis for widespread clearing of pinyon and juniper.
    Plant populations naturally expand and contract in response to a 
variety of gradients but especially in response to climate shifts 
(Davis 1986). Scientific researchers have documented that pinyon and 
juniper respond most dramatically to increased precipitation and warmer 
climatic regimes. The climate was undergoing just such a change around 
1850, during the time that this region was becoming settled with the 
first wave immigrants. While these trees were naturally increasing 
their range, pioneers were engaged in removing them for a variety of 
purposes. Today, the trees are re-establishing themselves in accordance 
with the prevailing climatic conditions.
    Climate is a significant issue because moisture is the single most 
important limiting factor in pinyon juniper establishment (Cronquist et 
al. 1986). Research has shown that climate has fluctuated between warm 
and cold, wet and dry repeatedly over the last 20,000 years (Kinney 
1996). Most importantly, the climate shifted dramatically right around 
1850 to a warmer, wetter period:

          ``In temperature, the shift was from the coldest century-
        scale interval of the Holocene, as indicated by the tree-line 
        and glacier records, to one of the warmest periods of the past 
        4,000 years, as suggested by the recent upward movement of the 
        tree line. In moisture availability, the shift was from 
        moderate effective drought, as evidenced by the records of tree 
        rings and lake levels, to the relative wetness of the present 
        century--a century that appears, from the records of lake 
        levels, to the fourth-wettest of the past 4,000 years (Stine 
        1990) and that includes the third-wettest fifty-year interval 
        (1937-1986) of the past millennium.

    In fact, juniper had reached its maximal extent during the 
Neoglacial period (4000 to 2000 ago), which was followed by a 400 year 
drought period during which sagebrush and other desert scrub 
communities expanded (Kinney 1996). The disappearance of bison from the 
Great Basin region also contributed to an increase in grasses which may 
have otherwise checked the trees. Western juniper and pinyon have 
expanded and contracted corresponding to periods of high moisture and 
drought (ibid). The present expansion is a natural response to higher 
moisture levels.
    A doctoral dissertation (Burwell 1998) examined the scientific 
literature documenting the historical dominance of pinyon and juniper 
on the east slope of the Sierra Nevada. While conditions here are not 
the same as in White Pine county, they are similar. Both regions are 
home to the rare Bristlecone Pine and both have undergone similar 
paleoecological histories. He concluded:

          ``Contrary to popular assumptions, the Native Americans did 
        not promote wildfire [in this region] and changes in the fire 
        regime are not likely to have influenced the position of the 
        lower montane treeline ecotone. Competitive exclusion by 
        grasses and forbs may have limited tree establishment prior to 
        1870. Livestock grazing likely removed competition, allowing 
        trees to invade mesic sites during dry years when grass and 
        forb production is low. The combination of reduced competition 
        and increasing summer precipitation since 1870 has allowed 
        greater pinyon recruitment on xeric sites.''

    I am including here, below, a recent ENLC News Release that clearly 
demonstrates that the ENLC program is primarily about removal of pinyon 
and juniper, and native sagebrush as well. While the language utilizes 
the same words used by ecologists and biologists, I must ask you to 
read between the lines and recognize that the removal of native species 
in this manner is not restoration. While we support judicious use of 
thinning and pruning in the Wildland Urban Interface to help reduce the 
risk of property damaging wildfires, we object to the use of massive 
clearing of native plant species and trees in the guise of ecosystem 
restoration. If projects are designed to convert native ecosystems into 
pasture grazing lands, then they should be so described, rather than 
trying to mask such proposals with a veneer of scientific jargon that 
is without real scientific basis.
    In this current era of looming ecological crisis due to global 
warming, we must act decisively to protect natural resources that are 
helping to store carbon. In this case, the expansion of native tree 
species in an otherwise treeless and arid region is providing natural 
carbon storage that can help ameliorate the effects of warming in the 
region. The natural transpiration of trees also helps to humidify and 
modify the local climate, ultimately helping to reduce warming and 
wildfire risk. In. addition, the pinyon juniper woodland ecosystem is 
of tremendous importance for a large number of wildlife species, 
including the rare pinyon jay. The pinyon nut is essential food and 
cover for untold numbers of birds and small and large mammals, 
including bears.
    If I can provide you with additional information or references, I 
would be happy to do so. This topic really deserves a much greater and 
more detailed discussion than I am able to provide in this limited time 
frame. Thank you for your consideration.
[Attachment.]

[Below is an excerpt from: http://www.envlc.org/PressReleases.html]
                   Eastern Nevada Landscape Coalition
ENLC NO. 06-001
FOR RELEASE: Friday, November 21, 2005
CONTACT: Betsy Macfarlan (775) 289-7974
                    Gleason Creek Restoration Begins
    The Eastern Nevada Landscape Coalition, based in Ely, Nevada, began 
this season's restoration project on the Gleason Creek watershed. 
Restoration work included thinning 120 acres of Pinyon pine and juniper 
trees from the black sagebrush shrublands; removing 200 acres of 
sparsely scattered juniper trees in the Wyoming sagebrush flats; 
followed by brush beating approximately 400 acres of the Wyoming 
sagebrush.
    The purpose behind these landscape-scale restoration projects is to 
improve soil stability, and increase biological diversity of the 
watershed. These measures strengthen the land's resiliency to wildfire 
and heavy water run-off, and in turn, help protect our communities from 
the negative effects of these events. To accomplish this objective, the 
young encroaching juniper and Pinyon trees are removed in the valley 
bottoms and thinned on the upper benches to allow native bunch grasses, 
forbs, and shrubs to thrive. Dense tree cover prohibits the growth of 
herbaceous and shrub vegetation exposing bare ground that is more 
vulnerable to erosion. Abundant herbaceous vegetation is critical for 
soil maintenance, and wildlife forage.
    Brush beating is another restoration treatment that allows 
herbaceous vegetation to increase. This involves mechanically removing 
the sagebrush with a rotary chopper. A variation in sagebrush size and 
distribution across the landscape contributes to the health and 
resiliency of shrublands and can be attained by brush beating in a 
pattern that mimics the small, low-intensity fires that historically 
occurred here.
Literature cited:
    Burwell, TA. 1998. Environmental history of the lower montane 
pinyon (Pinus monophylla) treeline, Eastern California. Doctoral 
dissertation, University of Wisconsin-Madison.
    Cronquist, A., A.H. Holmgren, N.H. Holmgren, and J.L. Reveal. 1986. 
Plant geography of the intermountain region, pinyon juniper zone. Pgs. 
126-131 in: Intermountain Flora: Vascular Plants of the Intermountain 
West, U.S.A. Vol. 1. The New York Botanical Garden, New York.
    Davis, M.B. 1986. Climatic instability, time lags, and community 
disequilibrium. In Community Ecology, edited by J. Diamond and T.J. 
Case. Cambridge, MA: Harper and Row.
    Harris, A.T., G. P. Asner, and M.E. Miller. 2003. Changes in 
vegetation structure after long-term grazing in pinyon juniper 
ecosystems: integrating imaging spectroscopy and field studies. 
Ecosystems 6:368-383.
    Kinney, W.C. 1996. Conditions of rangelands before 1905. Pgs. 31-45 
in: Sierra Nevada Ecosystem Project: Final Report to Congress, vol. II, 
Assessments and scientific basis for management options. Davis: 
University of California, Centers for Water and Wildland Resources.
    Lanner, R.M. 1977. The eradication of pinyon-juniper woodland: Has 
the program a legitimate purpose? Western Wildlands 4:12-17.
    Mack, R.N. 1981. Invasion of Bromus tectorum L. into western North 
America: An ecological chronicle. Agro-Ecosystems. 7:145-165.
    Stine, S. 1996. Climate, 1650-1850. Pgs. 25-30 in: Sierra Nevada 
Ecosystem Project: Final Report to Congress, vol. II, Assessments and 
scientific basis for management options. Davis: University of 
California, Centers for Water and Wildland Resources.
                                 ______
                                 
     Statement of Janine Blaeloch, Director, Western Lands Project
    The Western Lands Project is a public-interest organization that 
monitors federal land exchanges, sales, and conveyances, and generally 
works to prevent the privatization of our public lands. On behalf of 
our members across the West and beyond, we work to keep public lands 
public. We request that this testimony be made part of the record on S. 
3772.
    We object to many aspects of this bill, including special 
exceptions for harmful activities inside newly-designated wilderness 
and failure to reserve a federal water right in wilderness. However, 
our testimony will focus on the land sales and giveaways in the bill 
and the re-allocation of federal land sale money for local use.
                             land disposal
    We oppose this bill, as we have a series of previous land 
privatization bills sponsored by the Nevada delegation. Since 1998, the 
Senate co-sponsors have managed to turn over to Nevada developers and 
local interests more than 150,000 acres of federal land belonging to 
all citizens of this country. We urge members of this subcommittee to 
bring a halt to these wholesale privatization bills and reaffirm the 
value of retaining and protecting public land.
    Members of the Nevada delegation try to rationalize their land grab 
bills by complaining about the preponderance of federal land in their 
state. They speak of federal land ownership as though it were an 
unquestionable burden imposed by a cruel government. The fact is, there 
is a reason that so much of the state remains in the public domain: 
like much of the arid West, the land was not coveted by settlers 
because they understood that land wasn't worth much without water. Even 
the State of Nevada sold off most of the land it had been allotted at 
statehood.
    Unfortunately, engineering and greed have made it possible to 
ignore the reality of Nevada's aridity, and for more than 20 years, the 
country's fastest-growing city has been expanding across the Mojave 
Desert. For the last eight years, much of the expansion has been made 
possible through legislatively-mandated sales of our federal lands and 
local development subsidies.
    The White Pine legislation orders the sale of more than 45,000 
acres of our national public land, to be sold competitively at auction. 
One of the bill's sponsors has stated that he plans to enact more of 
this kind of public land legislation ``county-by-county'' throughout 
Nevada. Three counties--Lyon, Pershing, and Lander--are in various 
stages of compiling wish lists for future public lands bills affecting 
their jurisdictions. This incremental, locally-directed takeover of our 
commons must be halted.
    Members of this committee surely recall that over the last year, 
several proposals were floated by the President and members of Congress 
to sell off large swaths of public land to meet various budgetary 
needs, and that the public overwhelmingly rejected these ideas. Those 
schemes made headlines. The White Pine bill probably won't, but it 
nonetheless represents the same betrayal of the public interest.
    Proceeds from sales of the federal land will be divided as follows:

  <bullet> 5 percent to Nevada for general education
  <bullet> 10 percent to white Pine County (WPC) for funding its public 
        safety and social services programs
  <bullet> 85 percent in a special account to cover the costs of 
        offering/selling the land; processing subsequent public land 
        use authorizations and rights-of-way (for development of public 
        lands sold under the Bill); inventorying and managing 
        archeological resources in WPC; studying the route of the 
        Silver State Off Highway Vehicle Trail; processing the WPC 
        wilderness designations; and studying and assessing non-
        motorized recreation opportunities in the County, among other 
        things.

    Three of the aforementioned earlier Nevada land bills the 1998 
Southern Nevada Public Land Management Act, Clark County bill of 2002, 
and Lincoln County bill of 2004--allocated the same percentages of land 
sale proceeds to the local, state, and federal governments. But the 
SNPLMA and Clark County bills authorized (and emphasized) use of the 
federal proceeds to acquire environmentally sensitive lands in Nevada. 
This bill does not authorize any such use of the funds, but keeps 
expenditures even of the federal proceeds within white Pine County.
    Only in Nevada do local interests receive this kind of largesse 
from American taxpayers, who lose both land and money and unwittingly 
subsidize development in a landscape totally unsuited to it.
                   nepa/flpma compliance in question
    It is not clear whether the sales will be conducted in compliance 
with the National Environmental Policy Act (NEPA). A one-year deadline 
specified for the sales may allow adequate time to conduct NEPA, and 
there is no overt waiver of NEPA in the bill. However, since the bill 
states that Interior ``shall'' offer the land for sale within one year 
of the Act's passage, it suggests that there would be no discretion not 
to sell the land as a result of NEPA analysis.
    The sales would comply with the Federal Land Policy & Management 
Act (FLPMA) to the extent that sale lands are to be taken from lands 
already identified for disposal in the BLM's Ely Resource Management 
Plan (RMP) ``or a subsequent amendment to the management plan.''
    But the net result is that FLPMA compliance is nominal, or at least 
incomplete. A new RMP is actually in progress and expected to be 
finalized in Spring 2007. The draft of the new Ely RMP identifies 
approximately 23,000 acres as suitable for disposal, so the amendment 
referred to is likely already being contemplated in order to add enough 
disposal lands to make available the full 45,000 acres aspired to in 
the bill. The fact that an acreage goal for disposal is being dictated 
in the legislation undermines the FLPMA planning process. There may be 
a rationale for privatizing some or all of the land already identified 
by the BLM, but doubling that amount by fiat is not in the public 
interest.
    It is unlikely that much, if any, of the land to be privatized in 
the white Pine bill is intended for residential or small-scale 
commercial development. However, there are several large-scale energy, 
utility corridor, and industrial development plans already underway in 
the county that could be facilitated by the land sales.
    As is so often the case with these privatization bills, especially 
for Nevada, it is not possible to know what future, connected 
developments might flow from the land sales or what plans are lurking. 
For example, in a previous Nevada land bill, an obscure and 
cryptically-worded provision would have given away approximately 11,000 
acres of public land to a private developer with close connections to 
one of the co-sponsors. If it weren't for that provision having been 
exposed in the media, the public would be out 11,000 acres that were 
later appraised at more than $10 million.
    What is the anticipated use behind this sudden glut in private 
land?
    It is also difficult to understand how white Pine County will 
sustain growth of the magnitude suggested by privatization of 45,000 
acres. The Southern Nevada Water Authority has plans to run pipelines 
to the county and ship its water to Las Vegas--a plan facilitated 
through the giveaway of 450+ miles of public right-of-way in a 2004 
land sale bill for Lincoln County, Nevada, PL 108-424.
                       more amendments to snplma
    As mentioned above, the Southern Nevada Public Land Management Act 
allotted 85 percent of Las Vegas Valley public land sale proceeds to a 
special fund for acquisition of environmentally sensitive land in 
Nevada and other public-oriented uses this allocation of the funds was 
to provide some kind of balance (both environmental and political) 
against the accelerated land sales. However, the two Nevada land bills 
passed subsequent to the SNPLMA included amendments that have provided 
more ``flexibility'' in the use of the land sale proceeds and allotted 
more of the money to local and state projects, whittling away at the 
larger public purpose that was to be served with the money.
    Where SNPLMA amendments in the two previous bills whittled, the 
White Pine bill's amendments carve. The latest SNPLMA amendments in 
Section 702 of the White Pine unabashedly rob the special fund. They 
allow proceeds from federal land sales in Clark County to be used:

  <bullet> to develop and implement a hazardous fuels and wildfire 
        prevention plan (including biomass and biofuels energy 
        production) for the Lake Tahoe Basin and the Spring Mountains;
  <bullet> to fund a Clark County program for removal of lawn/turf by 
        public institutions to conserve water;
  <bullet> to fund a Clark County program for improving wastewater 
        management systems for the Las Vegas Valley, and
  <bullet> to develop and administer state parks in Clark County.

    If things continue in this vein--there are 14 more counties in 
Nevada potentially awaiting their own public land bills--the purchase 
of environmentally sensitive land originally mandated in the SNPLMA 
will disappear altogether, with each bill taking new development 
subsidies from the funds.
    A particularly cynical amendment to SNPLMA in this bill re-defines 
the term ``affordable housing'' from housing that serves individuals or 
families `whose income does not exceed 80 percent of median income for 
the area' to housing that serves individuals or families `with an 
income of not more than 120 percent of the median income.'
    The amendment requires that 5 percent of total housing units be 
developed as affordable housing for land sales of 200+ acres. 
Previously SNPLMA authorized, but did not require, the Interior 
Secretary to sell public lands for affordable housing at less than 
market value to government entities. Thus with the new amendment, local 
entities can receive a discount on land while meeting a more lenient 
standard for ``affordability.''
                         free land conveyances
    More local subsidies are offered in the form of direct, free 
conveyances of public land. BLM is to give 6,900 acres to the State of 
Nevada for free, for expansion of a wildlife area and a historical 
site. An unspecified amount of additional federal land is to be 
conveyed for the expansion of a state park. BLM is also to convey 1,500 
acres for free to White Pine County to expand the county airport and 
200 acres to expand the County Industrial Park.
    These provisions are not necessary. Where public purposes could be 
served, existing laws already provide for acquisition of federal land, 
and they also provide a more transparent process, with public 
involvement and environmental analysis that better protect the larger 
public interest.
                               conclusion
    We respectfully urge you to reject this bill and close the door on 
any future proposals for wholesale privatization of our public lands. 
We must stop facilitating sprawl across the Mojave, rewarding Las 
Vegas' state of denial, and funding pet projects with taxpayer dollars. 
Thank you for your consideration of this testimony.
                                 ______
                                 
 Statement of the Sierra Club; Southern Utah Wilderness Alliance; The 
  Wilderness Society; Wasatch Mountain Club; Buckeyes for Wild Utah; 
 Californians for Western Wilderness; Coloradans for Utah Wilderness; 
   Colorado Plateau River Guides; Colorado Riverkeeper; Conservation 
  Northwest; Defenders of Wildlife; Earthworks; Environmental Working 
Group; Forest Guardians; Glen Canyon Institute; Great Basin Mine Watch; 
 Great Old Broads for Wilderness; Idaho Conservation League; Illinois 
  Task Force for Utah Wilderness; Klamath-Siskiyou Wildlands Center; 
   Living Rivers; Mainers for Utah Wilderness; Mountaineers; Natural 
 Resources Defense Council; Nevadans for Utah Wilderness; New Yorkers 
 for Utah Wilderness; Olympic Forest Coalition; Oregon Natural Desert 
    Association; Public Lands Foundation; Red Rock Forests; Redrock 
    Activists of Massachusetts; Save Our Canyons; The Lands Council 
   (Washington State); The Spirit of Utah Wilderness, Inc.; Tongass 
     Conservation Society; Umpqua Watersheds; Vermonters for Utah 
      Wilderness; Washington League for Utah Wilderness; Western 
Environmental Law Center; Wild Wilderness; Wilderness Watch; Wildlands 
                                  CPR
    Thank you for the opportunity to submit a statement for the record 
before the Senate Energy and Natural Resources Subcommittee on Public 
Lands and Forests on S. 3636, the Washington County Growth and 
Conservation Act. This statement represents the views of the Utah 
Wilderness Coalition, an alliance led by The Wilderness Society, Sierra 
Club, Southern Utah Wilderness Alliance, and the Wasatch Mountain Club 
as well as the 38 groups noted above. Collectively, we represent over a 
million supporters nationwide. We have a common interest in preserving 
our nation's public lands and natural legacy, including the Zion-Mojave 
proposed wilderness in Southwestern Utah. We welcome the opportunity to 
work towards a solution to address the challenges facing the residents 
of Washington County, local communities, and public lands in Utah.
                                overview
    We oppose the Washington County Growth and Conservation Act as it 
has been introduced because it is bad for Washington County, bad for 
Utah wilderness, unfair to the American public, and unsound public 
policy. We are not alone in our opposition; thousands of citizens--
locally, statewide and nationally have voiced their concerns, as have 
numerous hiking, outdoor recreation, outdoor retail, equestrian, 
wildlife, archeological, scientific, and historic preservation 
interests.
    We recognize that Washington County is on an unsustainable course 
of development. Rapid population growth is 'straining the region's 
water supplies, transportation infrastructure, housing supply, and 
natural landscape. There is widespread agreement that unless Washington 
County changes the way it is growing and/or how it responds to growth, 
the existing problems will continue to worsen. For this reason we 
believe it is important to seek solutions to the problems facing this 
region. Rather than seeking cooperative solutions, the bill forces a 
predetermined outcome on a community that is currently engaging in a 
community growth planning process thereby relegating that public 
process unimportant and moot. We strongly disagree that the answer to 
these challenges requires the sweeping federal land law changes 
proposed in S. 3636; we also believe that this legislation will 
exacerbate, not solve, the rampant sprawl and growth that the region is 
currently facing.
    The legislation before the committee would dispose of, including 
giving away, public lands to finance local development. The bill 
requires the Bureau of Land Management (BLM) to sell public land and 
appropriate proceeds from the sale of public land to local entities and 
various projects within the county. It also provides for new roads, new 
utility corridors, a new off-road vehicle trail system, and new rights-
of-way for water development, many at no cost to private interests. The 
monetary and ecological value of these giveaways is huge. The 
conservation side of this bill is meager in comparison to the scope of 
developments encouraged by the legislation. It fails to protect over 70 
percent of citizen proposed BLM wilderness, risks important historical 
and cultural resources, and undermines endangered species protection.
               local, state-wide, and national opposition
    On all levels--locally, state-wide, and nationally--there is strong 
and visible opposition to this legislation. The local citizen planning 
organization, scientists, tribes, outdoor retailers, national editorial 
boards and thousands of public citizens have all raised serious 
concerns with the legislation as drafted.
1. Local Concerns
    S. 3636 is highly controversial in Washington County. The Towns of 
Rockville, Virgin, and Springdale have each passed a resolution 
opposing the bill. Citizens for Dixie's Future, a local citizens' 
planning organization, have written to the bill sponsors in opposition 
to S. 3636. The Shivwits Band of the Paiutes, located west of the city 
of St. George, have submitted testimony and written in opposition to 
this bill. The Backcountry Horsemen of Southwest Utah have written in 
opposition to S. 3636.
    Opposition is also visible through the citizen comments in the 
local paper, the St. George Spectrum. Since the release of the draft 
legislation on March 22nd, 2006, over 40 letters to-the-editor have 
been printed in the St. George Spectrum against the legislation. [See 
Attachment 1 for selected quotations.] Concern from the public comes 
from all corners of Washington County. The authors of the 
aforementioned letters-to-the-editor live throughout communities in 
Washington County, including St. George, Hurricane, Springdale, Ivins, 
LaVerkin, New Harmony, Brookside, Washington City, Toquerville, and 
Santa Clara.
2. Statewide Concerns
    Across Utah, citizens have expressed widespread concern with the 
Washington County Growth and Conservation Act. The Utah Wilderness 
Coalition hosted a hearing in Salt Lake City in which approximately 200 
concerned citizens attended, 33 individuals spoke, and 60 individuals 
submitted written testimony. The comments amounted to 85 pages of 
transcribed oral testimony plus 76 pages of submitted written 
testimony. At least 1,775 Utahans contacted their Member of Congress to 
oppose the legislation prior to introduction of the legislation in July 
2006.
    The Salt Lake Tribune authored three editorials opposing the 
Washington County Growth and Conservation Act. [See Attachment 2 for 
selected quotes of the editorials.] In a July 13th editorial entitled 
``A bad plan: Bennett's bill would encourage St. George sprawl,'' The 
Salt Lake Tribune said:

          What Washington County needs is a plan to control its fast-
        paced growth and protect its fragile natural resources. 
        Unfortunately, Sen. Bob Bennett's Washington County Growth and 
        Conservation Act doesn't offer one. It's a plan, instead, for 
        even more urban sprawl and consumption.

    Many Utah public interest organizations oppose the Washington 
County Growth and Conservation Act. These include: Colorado 
Riverkeepers, Glen Canyon Institute, Living Rivers, Redrock Forest, 
River Runners for Wilderness, Save Our Canyons, Southern Utah 
Wilderness Alliance, Utah Environmental Congress, Utah Native Plant, 
Wasatch Mountain Club, Western Wildlife Conservancy, and Wild Utah 
Project.
3. Widespread National Concern
    Concern with the Washington County Growth and Conservation Act is 
as strong nationally as it is locally and state-wide. Over 100,000 
citizen comments were sent to Senators and Members of Congress in 
opposition to the Washington County Growth and Conservation Act before 
the act was introduced. Citizens from across the nation have continued 
to write, call, and email in opposition to this legislation.
    Nearly 80 national and state-based conservation organizations 
oppose the bill. [See Attachment 3 for list of organizations.] 
Similarly, the Outdoor Industry Association recently issued a statement 
on the bill saying:

          [The] Outdoor Industry Association opposes the Washington 
        County Growth and Conservation Act of 2006 [S. 3636]. While OIA 
        appreciates the efforts of many to craft protection for this 
        deserving area, we are concerned that the bill falls short of 
        the true protection needed and in the end does more harm than 
        good.

    In addition, a September 8th letter opposing the Washington County 
Growth and Conservation Act was signed by 32 outdoor retailers 
including,

        American Alpine Institute, Ltd.; Adventure 16; Black Diamond 
        Equipment Ltd; Broudy/Donohue Photography; Cascade Designs; 
        Chaco, Inc.; Champaign Surplus Store, Inc.; Cloudveil Mountain 
        Works, Inc.; Earth Games; Great Outdoor Provision Co.; Hi-Tec 
        Sports USA, Inc.; HOWADESIGN; Keen Footwear; Kelty; Mercury 
        Advertising; MoonFoto; OnTarget Public Relations LLC; Outdoor 
        Industry Conservation Alliance; Pack Rat Outdoor Center; 
        Patagonia; Pineneedle Mountaineering; Retailers of the Outdoor 
        Industry; SNEWS LLC; Travel Country Outdoors; The Base Camp; 
        The Elephant's Perch; The Forest Group; Tibetan Trader Inc.; 
        Ute Mountaineer; Wild River Outfitters; Wilderness Sports

    The outdoor retailers' letter stated, ``[S. 3636] would 
substantially rewrite federal laws controlling southwestern Utah's 
public lands in ways that could harm the public's ability to climb, 
hike, camp, watch wildlife, hunt, fish, and sightsee in these special 
places.''
    National newspapers, including the New York Times, Boston Globe, 
and Los Angeles Times, have editorialized in opposition to the 
Washington County Growth and Conservation Act. The New York Times 
described the bill as ``a raid on national resources aimed at helping 
private developers. It is the worst sort of Congressional earmarking. 
And it gives true wilderness bills a reputation they do not deserve.''
                         federal land disposal
    We have many serious concerns with the bill's provision to dispose 
of as much as 24,300 acres of BLM land within Washington County. First, 
the legislation directly conflicts with existing public lands policy 
that provides for the retention of our public lands. Second, Washington 
County has an abundant amount of developable private land, according to 
the St. George Chamber of Commerce. Third, the BLM already has 
authority, which it has successfully exercised, to sell and exchange 
public lands. Fourth, according to the St. George field office, BLM has 
already disposed of 18,000 acres of BLM public land in the last 10 
years. Fifth, there are roughly 85,000 acres of state-owned lands in 
the county that could be traded for developable public lands. Sixth, 
although a local planning process called ``Vision Dixie'' has just been 
initiated for Washington County, the land sales called for in the bill 
are not explicitly tied legislatively to this long-term, growth 
planning process. Finally, the legislation fails to ensure many 
sensitive and wild lands that are proposed for wilderness will not be 
sold for private development.
    The sale of public lands in S. 3636 fundamentally shifts land 
management policy in southwestern Utah away from retention and public 
management of our public lands towards privatization and development of 
these national assets. Existing land policy, as articulated in the 
Federal Land Policy and Management Act (FLPMA), states that public 
lands ``be retained in Federal ownership'' except where disposal will 
serve the national interest. (FLPMA, Sec. 102(a)(1)). This policy is a 
cornerstone of our nation's view of federal lands. When the 
Administration proposed this spring to sell public lands to fund the 
Rural Schools Program, there was widespread and fervent bipartisan 
opposition. In March, 54 Members of Congress led by Rep. Chandler and 
Rep. Keller wrote to the House Budget Committee opposing the 
Administration's land sale proposal and saying, ``Congress should not 
develop the habit of selling treasured public lands to the highest 
bidder as a means of temporarily plugging gaps in the budget.'' Our 
county's public lands provide unparalleled benefits to the American 
people and local communities surrounding those lands, and existing law 
provides a fair and balanced approach to public land sales.
    It is unclear why the BLM should be mandated to dispose of 
thousands of acres of public land when there is already plenty of 
private developable land. According to the St. George Chamber of 
Commerce's website about economic development opportunities in the 
county, ``It is estimated that only about 9% of the potentially 
developable private land (225,000 acres) in the county has already been 
developed.''
    It is unclear why S. 3636 mandates disposal of up to 24,300 acres 
of public land when the agency has already disposed of significant 
amounts of public lands in the past ten years. According to the BLM St. 
George Field Office, the BLM has disposed of 18,000 acres of BLM land 
since 1996. If all 24,300 acres are disposed through S. 3636, the total 
amount of land disposal in Washington County in the past ten years 
would exceed 42,000 acres. In other words, in the last decade, roughly 
one of every 18 acres of BLM lands in the county will have left federal 
ownership.
    Given that the BLM already has the authority to dispose of public 
lands and has successfully used that authority to dispose of 18,000 
acres in the past 10 years, it is unclear why a new mandate should seek 
to override this existing authority. BLM's existing land sales approach 
ensures maximum public participation, review, and comment. The process 
is abundantly transparent. S. 3636 would require the BLM to meet 
various deadlines and use certain maps to define areas eligible for 
sales. The legislation would also appear to greatly diminish public 
involvement by providing in Sec. 102(d) that the Secretary and County 
``shall jointly select'' parcels to be offered for sale or exchange. 
This is a clear departure from FLPMA sec. 202 which uses the public 
planning process to identify lands for disposal.
    Though the legislation mandates the disposal of public land, S. 
3636 does little to account for the 85,000 acres of state-owned land 
that could be traded for developable public lands to help the county 
meet its demand for more private land. Sec. 102(e) and 102(h) makes 
only a passing reference to exchanges. A much more direct and 
substantial effort to address these lands is needed. According to the 
State Institutional Trust Lands Administration (SITLA), there are 
roughly 85,000 acres of state-owned land in Washington County. SITLA's 
mandate is to maximize the economic development potential of its lands 
to serve the state's school children. Purchasing or exchanging SITLA 
land would equally serve both SITLA's mandate and the county's demand 
for land.
    Further, it is unclear how the land sales in the bill are tied to 
the long-term growth planning process recently initiated for Washington 
County called ``Vision Dixie.'' As some supporters of S. 3636 have 
noted, Vision Dixie and the legislation should go hand-in-hand, but in 
fact S. 3636 makes only one reference in Sec. 102(e) to local planning. 
This section provides little more than an agreement from potential 
bidders for public land that they will abide by city and county zoning 
and a general plan for the area. Although we have been given oral 
assurances by bill supporters that future lands sales and exchanges 
will incorporate the results of the Vision Dixie planning process, the 
legislation does not actually reflect these promises. It appears that 
the legislation results in an end-run around the planning process as 
the local planning process has only just begun yet the bill already 
contains maps defining eligible areas for land disposal. The bill also 
fails to address the possibility that the multi-year planning process 
fail or not reach completion before the second tier of land sales is 
slated to begin in 2010. For the land sales to be effectively 
integrated into any long-term growth plan for the county, the 
legislation should specifically tie those sales to a pre-existing plan, 
otherwise recommendations of the planning process could be rendered 
moot by land sales in S. 3636. The fact that the Vision Dixie process 
is not nearly complete, is yet another reason why S. 3636 is not ready 
for congressional action.
    Finally, section 102 inadequately protects sensitive public lands, 
culturally or historically valuable lands, and areas proposed for 
wilderness not designated in the bill. As currently written, sec. 
102(b)(2) expressly prohibits from land sales areas ``designated as 
wilderness . . . an area of critical environmental concern . . . and 
[land] in the Red Cliffs National Conservation Area.'' The bill directs 
the BLM to design restrictive covenants as necessary to protect other 
resources. This is insufficient because restrictive covenants require 
ongoing oversight and monitoring to ensure that protective stipulations 
are implemented. A cash-strapped, resource-constrained agency such as 
BLM will likely not have the ability or means to oversee dozens of 
complicated covenant provisions that may be needed to protect sensitive 
lands.
               disposition of federal land sale proceeds
    S. 3636 would distort the land-sales process by earmarking all but 
five percent of land-sales proceeds for specific uses in Washington 
County. Normally proceeds from public land sales would be reinvested in 
land acquisition pursuant to the Federal Lands Transaction Facilitation 
Act (FLTFA). We are concerned that this legislation creates a loophole 
that diverts funds normally for conservation towards a host of locally 
earmarked projects. Second, we find the specific earmarks dangerously 
ambiguous. Third, we fear that this legislation creates the expectation 
that public lands can be used to make up for budget shortfalls and pay 
for local projects.
    Under existing law, funds generated from public lands sales are 
reinvested in conservation land acquisition, but the Washington County 
legislation largely rejects this current practice by directing funds 
from public land sales to local, private development interests. 
Currently, the Federal Land Transfer Facilitation Act (FLTFA) directs 
proceeds from federal land disposal towards acquiring ``inholdings'' 
and lands ``adjacent to federally designated areas [which] contain 
exceptional resources'' and directs that at least 80% of proceeds must 
be expended within the State in which the funds were generated.
    The Washington County Growth and Conservation Act departs markedly 
from this equation by diverting all but 5% of the funding to entities 
or purposes within Washington County. While some of these earmarks may 
have conservation value, others clearly do not (e.g., directives to 
finance agency administrative costs for selling public land, 
construction of off-road vehicle routes, and unspecified ``projects 
relating to parks, trails and natural areas''). More concerning, 
however, is the bill's precedent of liquidating national assets to fund 
local projects, be they meritorious or not.
    The funding scheme in section 103 would give 8 percent of all 
public land sale proceeds directly to the Washington County Water 
Conservancy District. Two percent of the total proceeds would go to the 
county government. We understand that Washington County, like virtually 
every county and state government, has spending needs that may not be 
fully funded. However, we are deeply concerned that this bill creates 
expectations and demands among local governments in Utah for selling 
off public lands in order to fund local projects and ongoing 
administration expenses. Our groups are also concerned that the new 
formula for the disposition of land sale proceeds created by S. 3636 
serves as a de facto appropriations process for Utah. We urge you to 
refrain from creating a mandate that would sell public lands to 
subsidize local projects and government budgets.
    In addition to selling off public lands, the bill would also impact 
public lands by giving the Washington County Water Conservancy District 
rights to develop nearly 9,000 acres of BLM public land. Section 401(b) 
broadly grants the Water Conservancy rights-of-ways for development of 
``any reservoirs, canals, channels . . . pipes . . . pipelines . . . 
and other facilities . . .'' related to water infrastructure in the 
county. In a departure from current policy, these rights-of-ways would 
be granted without rental fees and in perpetuity. It is important that 
the legislation be much more specific about the precise uses of 
transfer lands, and require that any such lands would revert to public 
management when and if the original use expired. Further, federal land 
should not be granted for without rental fees or in perpetuity to the 
water conservancy district--millions of dollars taxpayer dollars would 
be surrendered.
    Finally, Section 401(a) would establish roughly 900 miles of half-
mile-wide utility corridors across public, private, and tribal lands. 
This is done outside the checks and balances required by sections 202 
and 503 of FLPMA. The authors of the legislation have yet to disclose 
for what specific purposes such a large swath of utility corridors, 
some of which are duplicative or controversial, need be granted over 
previously undisturbed public lands outside of the normal planning 
process.
                         wilderness designation
    The bill's protections for wildlands are woefully inadequate and 
dwarfed by the scale of development envisioned by other titles of the 
bill. The bill would designate just 92,937 acres of BLM land as 
wilderness in Washington County. As measured against America's Red Rock 
Wilderness Act, S. 3636 fails to protect nearly two-thirds of the wild 
BLM lands in the county that deserve protection. Almost none of the 
landscape in the Mojave Desert in the western side of the County is 
protected and the bill leaves behind over 200,000 acres of wilderness 
identified by citizen inventories and proposed for protection in 
America's Red Rock Wilderness Act.
    The Zion-Mojave wilderness in the western half of the county is a 
unique and rare environment. It is the only place in Utah where the 
endangered desert tortoise and iconic Joshua Tree are found. Amid 
explosive suburban development, habit fragmentation, population growth, 
increasing water scarcity, and damaging off road vehicle (ORV) use, a 
meaningful Zion-Mojave wilderness promises refuge for the region's 
fragile plant and wildlife and would be a haven for outdoor 
enthusiasts, families, naturalists, and hikers.
    The Utah Wilderness Coalition has identified approximately 300,000 
acres of BLM public lands that qualify for wilderness designation 
within Washington County. These proposed wilderness areas include 
Colorado Plateau wildlands adjacent to Zion National Park as well as 
portions of the Mojave Desert. Nearly 70 percent of the citizen 
proposal for Utah wilderness, including lands identified as potential 
wilderness by BLM officials, is left unprotected in this legislation. 
Furthermore, the legislation would release roughly 9,500 acres of 
currently protected BLM Wilderness Study Areas.
    Of particular concern, almost none of the landscape in the Mojave 
Desert in the western side of the County would be preserved. The Mojave 
Desert in western Washington County encompasses a vast area of largely 
undeveloped public lands important both as habitat for the endangered 
desert tortoise and as a source of archeological and culturally 
significant resources. The desert tortoise is highly susceptible to ORV 
use; individual animals are sometimes literally crushed to death under 
the wheels of larger ORVs, and the vehicles also destroy underground 
burrows that provide refuge for tortoise and their young. Yet, only a 
fraction of this critical tortoise habitat is protected against 
irresponsible ORV use.
    The bill ignores nearly 70,000 acres of the lands identified by the 
BLM in 1999 as potentially qualifying wilderness. In 1999, the BLM 
finalized a survey of lands proposed for wilderness designation in 
America's Red Rock Wilderness Act, including areas of Washington 
County, and found many tens of thousands of acres of qualifying lands. 
In Washington County, the BLM documented qualifying wilderness (not 
already designated as WSAs) in Cougar Canyon, the Narrows, Joshua Tree, 
Beaver Dam Wash, Red Mountain, Orderville Canyon, Deep Creek, the 
Watchman, Goose Creek, Spring Creek Canyon, Black Ridge, Canaan 
Mountain, Parunuweap Canyon, Moquith Mountain, and Upper Kanab Creek. 
Unfortunately, S. 3636 protects very few of these areas.
    Forest Service lands are virtually ignored in this bill. S. 3636 
designates just 2,642 acres of Forest Service land which is adjacent to 
the Cottonwood Canyon unit. Washington County holds 425,285 acres of 
Forest Service lands. Because the bill designates just 0.6 % of that 
area as wilderness, we are concerned that many Forest Service areas 
have been left out. The Utah Forest Network has proposed wilderness 
designation for over 300,000 acres of Forest Service Land within the 
Pine Valley Ranger District of the Dixie National Forest in Washington 
County, including the Bull Valley-Cave Canyon Roadless Area and the 
Racer Canyon/Mogutsu Roadless Area. We would recommend a much more 
thorough review of Forest Service lands if this legislation proposes to 
make wilderness designation.
    More than one-half of the lands proposed for wilderness designation 
in this bill are within Zion National Park. Though worthy as designated 
wilderness, the lands in Zion National Park already enjoy significant 
protection pursuant to the Park's Service preservation mandate.
    Now more than ever, as the pressures of growth mount in Washington 
County, the special places of the wild Zion-Mojave need and deserve to 
be protected.
                other impacts on federal land management
    S. 3636, section 401(a)(1)(B) requires the BLM to examine the 
option of placing a ``transportation'' corridor in the Red Cliff Desert 
Reserve, meaning that the bill could result in the authorization of a 
freeway through the Reserve even as the bill permanently sets aside the 
reserve as a National Conservation Area. Any consideration of 
authorizing a freeway within the reserve would run counter to the 
fundamental purpose for which the Reserve was established, and 
represents a reneging of the original agreement that established the 
Reserve. Proposals that could affect habitat or the desert tortoise 
should be subject to laws such as NEPA and review by the Red Cliffs 
Desert Reserve Advisory Committee and technical committee. Language 
should make clear that such proposals cannot be approved if they would 
harm the tortoise or its habitat.
    Section 501 would require the BLM to establish a new system of ORV 
routes--that would likely result in increased motorized recreation, 
especially given the county's growing population and proximity to Las 
Vegas--despite the BLM's inability to manage existing use levels and 
before the completion of a long-overdue, district-wide travel plan. The 
BLM is seven years behind in adopting a comprehensive travel management 
plan for the St. George Resource Area and must address current 
enforcement issues concerning ORV use before actively encouraging more 
use. BLM should complete a comprehensive travel plan (including route 
designations) for the entire St. George Field Office before 
legislatively designating an ORV route system.
                               conclusion
    In conclusion, we stress our opposition to this legislation. The 
bill would cause lasting impacts to the landscape and communities in 
Washington County before a plan for the future of this area has 
determined what is needed for the region. Local, state-wide, and 
national opposition highlight the dangers of selling off massive 
amounts of public lands to fund local development. We believe our 
public lands, the public, and local communities would be worse off 
should this legislation pass.
    For more information, please contact: Suzanne Jones, The Wilderness 
Society (303) 650-5818; Scott Groene, Southern Utah Wilderness Alliance 
(801) 486-3161; or Lawson LeGate, Sierra Club (801) 467-9294.
                                 ______
                                 
       Statement of Diana Buckner, Chairwoman, Ely Shoshone Tribe
    Mr. Chairman, the Ely Shoshone Tribe would like to thank you for 
the opportunity to present our written comment and testimony on the 
White Pine County Conservation, Recreation and Development Act of 2006.
    This Bill designated approximately 3,650 acres of land to be 
transferred to the BIA to be held in trust for the Ely Shoshone Tribe. 
We originally asked for 22,000 acres, then 15,000 acres and now we are 
at 3,650 acres. This is a result of the compromise the Tribe has made 
in good faith; we have worked with Senator Reid's and Senator Ensign's 
staff, WPC Chairman Eldridge, some of the WPC Commissioners, the BLM 
and held numerous public meetings. We tried to negotiate in good faith 
with the White Pine County Commission and the City Council, but they 
chose to go forward without us. The Bill also identifies lands that 
will be conveyed to other governments, the City and County, both with 
needs similar to the Tribe. To become self-sustaining, the Tribe has 
identified a great need to expand our reservation land base. The 
primary reasons for land expansion is housing, economic development and 
to exercise spiritual and cultural traditions.
    The Tribe has always been stewards of the lands and we are 
concerned with the water, air and wildlife. We have an Environmental 
Department that coordinates with White Pine County, and follows State 
and Federal laws when developing codes and ordinances. We have several 
ordinances in place, and have a full time Tribal Emergency Response 
Commission, that coordinates with the City of Ely Fire Department, 
Forest Service, White Pine County Local Emergency Planning Committee. 
The Tribe also has a Spill Prevention/Response Plan for the Silver Sage 
Travel Center implemented, using codes from NRC and EPA.
    Our Tribal Law Enforcement Department follows the Ely Shoshone 
Tribe Law and Order Code, along with the ordinances, and also the NRS 
if applicable. We have a MOA in place with White Pine County for 
dispatch services, backup services and coroner services. We also have a 
MOA in place with the City of Ely for first responder and fire 
protection services.
    90 of our 110 acres are located on highway 93 south of Ely on both 
east and west sides of the highway. When acquired, the established 90 
acres was surrounded with minimal surroundings. Within the last 25 
years the Tribal boundaries have been surrounded by public education 
systems, economic and community development with high scale homes.
    Ely Shoshone Tribe has always complied with and adhered to all city 
and county ordinances. We understand that there is a concern to our 
local community, we have always been good neighbors and will continue 
to be. If there were no signs posted, you would not know where 
reservation boundaries ended and private property began.
    Even though, as a Federally Recognized Tribe with Cooperating 
Agency status in government to government relationship, in a good faith 
effort, the tribe has taken all public and government concerns into 
consideration and has made many compromises regarding real issues. As 
we have stated at several meetings, to conform to all existing 
ordinances, zoning and planning standards. The Ely Shoshone Tribal 
Council has agreed to conform to these standards but no further 
communication has been received from the County.
    The Shoshone people have been here for a 1000 years, our ancestors 
are buned here, and our traditional ways are still practiced by many of 
our tribal members. There are historical sites on Ward Mountain and the 
entire Ward Mountain area has spiritual and historical significance. 
The original proposal for parcel one was located all on the west side 
of highway 93 adjacent to Ward Mountain. With the Tribe's compromise, 
acreage has been divided by highway 93 with the majority of the acreage 
on the east side. Impact to the growth of the City is minimal. City 
boundaries are presently north of our current 90 acre parcel.
    Proposed parcel two is only 600 plus acres. The acres are adjacent 
to an existing community with development continuing north and south of 
the proposed acres. The proposed parcel would have minimal impact no 
greater than what presently exists. We have received no documentation 
from State and/or Federal agencies showing adverse affects on Wildlife.
    We have always been good neighbors to our community, but we will 
not apologize for the fact that we are Shoshone Indians with the same 
needs as White Pine County.
    Thank you for the opportunity for Ely Shoshone Tribe to provide a 
written comment and testimony on the proposed White Pine County 
Conservation, Recreation and Development Act of 2006. If you have any 
questions, please do not hesitate to call me.
                                 ______
                                 
     Statement of Brent Eldridge, Chairman, White Pine County, NV, 
                         Board of Commissioners
    Dear Chairman Craig and members of the subcommittee, I testified on 
S. 3772 during the hearing held on November 16, 2006. I write to offer 
a few brief comments which I respectfully request be added to my 
earlier written testimony.
    During the hearing on S. 3772 Senator Cantwell raised concerns 
regarding disposal of federal lands and a precedent for such being 
established by the bill. I respectfully offer the following for the 
sub-committee's consideration.
    White Pine County is recovering from severe economic depression 
which had occurred in the 90's due to closing of a large local mine. 
The mine has re-opened, again providing good-paying jobs. The county is 
also experiencing an influx of retirees and others relocating here to 
enjoy our moderate summer climate and scenic beauty. Several new 
service industries have opened, and it appears we're on the brink of an 
economic boom. Since our county is almost 95% federally owned, 
substantial growth can be accommodated only through disposal of federal 
lands. There are 5.7 million acres in White Pine County, and we're 
asking that up to 45,000 acres, an additional eight-tenths of one 
percent, be made available for future community growth.
    We first began the administrative process of acquiring federal land 
from BLM for expansion of our airport in 1993. That process has not yet 
concluded; legislation is the only practical and reasonable manner in 
which to expedite accommodation of our impending community land needs.
    It might be noted that almost all western lands were at one time 
federally-owned. As communities grew and industry and agriculture had 
needs for expansion, federal lands were disposed-of incrementally to 
meet those needs. I believe it's only fair for Congress to accommodate 
small land-locked communities such as ours in the same manner in which 
others have been in the past; the precedent was, indeed, established 
many years ago.
    It's been suggested in the media that wilderness designations are 
trade-offs for land disposals. As such relates to White Pine County, I 
disagree. I've addressed the community need for land disposal above, 
which is, in my view, independent of the wilderness issues. Here I will 
address the wilderness component in S. 3772 which enjoys substantial 
support from among White Pine County's people.
    Until the early 1990's White Pine County's roadless backcountry 
changed little through regular traditional uses, and was used and 
enjoyed by many who cared for the land. The advent of the four-wheel 
ATV brought severe impacts to our high mountains which, if allowed to 
continue and expand, will put tire tracks on nearly every pristine inch 
traversable by those very-capable machines. Most folks in our community 
have reversed their opposing position on wilderness, due to results of 
indiscriminate ATV use, and now support protection of most lands now 
proposed for wilderness designation in the bill. White Pine County 
needs wilderness protections as urgently as it needs land disposals; 
designations should, however, attempt to avoid areas holding high 
mineral and energy potential.
    Title VII of the bill addresses needs related to maintenance and 
improvement of lands mostly owned by the federal government. Noxious 
weeds and woody invasive species have vastly reduced traditional 
productivity of the land, negatively impacting every segment of our 
regional economy dependent upon the federal lands--wildlife habitat and 
hunting-related resources, vital watersheds providing water for all, 
aesthetics and viewsheds serving tourism and casual recreation, and 
properly-managed livestock grazing, to name some. For the sustained 
health of our watersheds, forests and rangelands, I believe it's 
imperative that steps be taken to reverse this downward spiral of 
federal-land productivity through adoption and implementation of the 
provisions in Title VII.
    Thank you for this opportunity to further comment on the bill. Your 
consideration will be appreciated.
                                 ______
                                 
  Statement of Gay Boman, Resident, St. George, Washington County, UT
    I am writing to you concerning my opposition to Senator Bennett's 
Senate Bill 3636, Washington County Growth & Conservation Act of 2006, 
both as a resident of the county and as a citizen of the United States. 
This bill would authorize the transfer of 24,300 acres or forty square 
miles of public (BLM) land to the county for sale to developers.
    Growth has already brought problems of traffic, water, loss of 
vistas, insufficient school funding, lack of affordable housing and 
auto pollution. Projected growth from development of current private 
land will at least triple our population and worsen these problems. The 
public does not need to subsidize further growth. Transfer of any 
public land is unnecessary.
    The land designated ``eligible for transfer'' on the bill's maps 
contains some of our most scenic and culturally important areas. 
Americans from all over the United States plus international travelers 
currently visit these places. The bill would deprive them from seeing 
the historic Fort Pearce, petroglyphs, archeological sites and historic 
trails of Warner Valley, the peace and quiet of the Red Cliffs Desert 
Reserve, and the beauty of the Santa Clara Reserve.
    The bill would also designate fifteen per cent of sales to the 
county and part of the proceeds for administrative costs. Building lots 
in Washington County currently sell for up to one million dollars. The 
amount of money the county will reap from these sales and the 
government will lose will be huge. It is not the government's 
responsibility to finance our county's or any community's development, 
especially at the expense of losing our public lands.
    This bill was put together without adequate public knowledge or 
input. Please do not approve Senate bill 3636.

                                 <all>

</pre></body></html>
